<html>
<title> - ADMINISTRATION VIEWS ON THE PROTOCOLS TO THE NORTH ATLANTIC TREATY ON ACCESSION OF POLAND, HUNGARY, AND THE CZECH REPUBLIC</title>
<body><pre>[Senate Hearing 105-421]
[From the U.S. Government Printing Office]


<DOC>

                                                        S. Hrg. 105-421

 
 ADMINISTRATION VIEWS ON THE PROTOCOLS TO THE NORTH ATLANTIC TREATY ON 
          ACCESSION OF POLAND, HUNGARY, AND THE CZECH REPUBLIC

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations





                   U.S. GOVERNMENT PRINTING OFFICE
46-662 CC                 WASHINGTON : 1998





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                              ----------                              
                                                                   Page

Albright, Hon. Madeleine K., U.S. Secretary of State.............     7
Cohen, Hon. William S., U.S. Secretary of Defense................    13
Shelton, Gen. Henry H., Chairman, Joint Chiefs of Staff..........    17

                                Appendix

Prepared Statement of Secretary Albright.........................    41
    Responses to Additional Questions for the Record Submitted to 
      Secretary Albright.........................................    46
Prepared Statement of Secretary Cohen............................    50
    Responses to Additional Questions for the Record Submitted to 
      Secretary Cohen............................................    57
Prepared Statement of General Shelton............................    63
    Responses to Additional Questions for the Record Submitted to 
      General Shelton............................................    69
Joint Statement of Senator Lugar and Senator Roth................    73
Prepared Statement of Senator Biden..............................    74
Prepared Statement of Senator Feingold...........................    75
Prepared Statement of Senator Grams..............................    77

                                 (iii)




 ADMINISTRATION VIEWS ON THE PROTOCOLS TO THE NORTH ATLANTIC TREATY ON 
          ACCESSION OF POLAND, HUNGARY, AND THE CZECH REPUBLIC

                              ----------                              


                       TUESDAY, FEBRUARY 24, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. In 
room SD-106, Dirksen Senate Office Building, Hon. Jesse Helms, 
chairman of the committee, presiding.
    Present: Senators Helms, Lugar, Coverdell, Hagel, Smith, 
Thomas, Ashcroft, Grams, Biden, Sarbanes, Dodd, Kerry, Robb and 
Wellstone.
    The Chairman. The committee will come to order.
    Madam Secretary, Mr. Secretary, and my fellow North 
Carolinian, General Shelton, we genuinely appreciate your 
coming here this morning as the Senate Foreign Relations 
Committee conducts its final hearing on the proposed expansion 
of NATO.
    Now I say ``final,'' but that is not quite right. I am 
thinking about having one more hearing which would largely be 
devoted to Senators who want to make statements, but that has 
not been finalized yet. But this is the last time we will 
bother you for this.
    The committee began its examination with your appearance, 
Madam Secretary, on, I believe, October 7 of last year. At that 
hearing, I suggested that you address three essential points. 
The first one was I asked you to identify a strategic rationale 
for the inclusion of Poland, Hungary, and the Czech Republic in 
NATO and you responded that the expansion of NATO will make 
America safer, it will make NATO stronger, and will make Europe 
more peaceful and united. And I believe that, even in spite of 
some of the faxes that I have been receiving from some of my 
conservative friends in the last 24 hours.
    I am confident that the Poles, the Hungarians, and the 
Czechs will work with us to that end. They certainly have 
assured me that that is going to happen, and I know they have 
done the same with you.
    Second, I emphasize my view that all NATO allies old and 
new must bear a fair burden of any costs related to expansion, 
a requirement that will be partially met through the cost 
sharing formula that has since been agreed to by the members of 
the alliance.
    Now under that formula, the United States share will be 
even less than the Pentagon's original projection. But we must 
bear in mind that this is only a part of the burden sharing 
equation.
    The majority of the costs of making and keeping NATO 
militarily effective will be the responsibility of our allies, 
a point that this committee will emphasize in the Resolution of 
Ratification. It is assumed, of course, that the administration 
will continue its insistence that all NATO members must meet 
their commitments to the common defense. If not, the expansion 
of NATO this year may be followed shortly thereafter by NATO's 
collapse, and nobody wants that to happen.
    Last, I ask, Madam Secretary, that you reassure the Senate 
that the NATO-Russia relationship will neither disrupt NATO 
decisionmaking nor diminish the security of the alliance. You 
made it very, very clear--and I am going to quote you--``Russia 
will never have a veto over NATO policy.'' That pretty much 
says it all.
    On this point, I recognize that all of us have our work cut 
out for us in making the U.S.-Russian relationship work better. 
Now this does not imply that we will forego building closer 
relations with Poland, Hungary, or the Czech Republic. Of 
course, we must do that while building closer ties with Russia.
    Now, then, this is a matter not entirely under our control 
and I think all of us realize that. Russia must signify its 
willingness to engage in a constructive relationship with the 
United States. Unfortunately, Russian intimidation of its 
neighbors, the proliferation of weapons of mass destruction by 
Russian companies, and the Russian Government's support of 
Saddam Hussein are scarcely encouraging. They certainly are not 
to me.
    Now, Madam Secretary, since your appearance before this 
committee late last year, the Foreign Relations Committee has 
met six times to hear from more than 30 supporters, skeptics, 
and opponents of this expansion proposal. In my view, as well 
as that of many other Senators, your responses thus far have 
successfully weathered the test.
    In recent weeks, unprecedented support of NATO expansion 
has been received by the committee. In addition to 
distinguished and well known leaders like Margaret Thatcher, 
Lech Walesa, and Mr. Havel, we have received endorsements from 
every living, former U.S. Secretary of State, numerous former 
Secretaries of Defense, and National Security Advisors, and 
more than 60 flag officers and general officers, including five 
distinguished former Chairmen of the Joint Chiefs of Staff.
    More important, we have heard from the leaders of 
organizations representing literally millions of average 
Americans, including the diverse ethnic community, religious 
groups, civic organizations, veterans organizations, and 
business groups, and all of this has been reinforced by the 
recent polling showing a substantial majority of Americans in 
support of NATO expansion.
    Now all of that said, I should perhaps mention for the 
record that Section 2, Clause 2 of the U.S. Constitution makes 
the U.S. Senate the final arbiter in the extension of treaty 
agreements and commitments. We have heard all sides. We are 
called upon to fulfill that responsibility, and that is why we 
are gathered here this morning.
    As the Senate takes up the Resolution of Ratification most 
likely in the next 2 weeks, I do hope that the vote will be 
overwhelmingly positive.
    There is one other note, Madam Secretary, before I turn to 
the distinguished ranking member, Senator Biden. I think 
perhaps all of us are going to mention the Iraqi situation. 
This being a hearing on NATO expansion, it is important that it 
remain a hearing on NATO expansion; and this will be your final 
opportunity to speak on the NATO matter prior to this 
committee's acting on the question of the Resolution of 
Ratification. I do not think it is wise that we detract in any 
way from the NATO question.
    At the same time, we cannot ignore the fact that Iraq is 
front and center on everybody's mind.
    Secretary General Annan will brief the Security Council 
later today on his ``deal'' with Saddam, and I confess that I 
was already under the impression that we had a deal. It's 
called the U.N. Security Council Resolution 687.
    But I must be honest. We are in a jam in this country. I 
have gone over--hastily, of course, because I just got it early 
this morning--the agreement that the Secretary General brought 
back. With the possible exception of Britain, much of the world 
appears of a mind to capitulate to Saddam Hussein and Saddam 
Hussein knows it. That is reflected in my brief reading of the 
agreement.
    So at the eleventh hour, as U.S. planes were starting their 
engines, Saddam invited Kofi Annan to Baghdad to cut a deal. 
Now Mr. Annan is back, promising--if you will forgive a quote--
``peace in our time,'' and we are in the disgraceful position 
of either going along with whatever deal Mr. Annan brought home 
or being regarded as the bad guys who rejected peace and 
insisted on war.
    Madam Secretary, I know you would like to take just a few 
minutes and talk to us about Iraq. But you can do that, and I 
hope you will do it, following the statement by the 
distinguished ranking member, Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Madam Secretary, Secretary Cohen, General Shelton, I should 
say at the outset in light of what the Chairman ended with that 
I think congratulations are in order. I think that your 
organizational skills and the might of the United States 
military, General, and your direction, and visits to the Middle 
East and Moscow, Secretary Cohen, and your leadership, 
Secretary Albright, have produced the best result possible.
    As you know, I have been a very strong supporter of the use 
of force, of air strikes. As a matter of fact, I made the point 
to the President, Secretary Cohen, that when your wheels 
touched down, the other wheels should have taken off. But the 
truth of the matter is I think we are going to be in a much 
stronger position now if the agreement is what it appears to 
be. It's not that I believe Saddam is likely to forego his 
duplicity. But at least I hope we will be able to get out of 
the U.N. Security Council very strong words that if he does not 
meet the terms of this agreement, there will be greater support 
for the use of your forces, General, if they are called for.
    I believe the President is correct--and this is my view; I 
am not speaking for him as I cannot and would not--that keeping 
forces on station for the time being is essential and that 
there should be no doubt that the force would be used.
    But, most of all, I think this is vindication of a policy 
that diplomacy not backed by force is of little value, and 
diplomacy backed by force, where it is clear it will be used, 
at least has the potential to bring about the results we 
wanted.
    I want to compliment you all, all three of you.
    Let me turn to NATO, because that is the subject of our 
hearing today.
    I am, as should come as no surprise to any of you, squarely 
in support of enlargement. In my view, the question is not 
whether to expand or maintain the status quo. In light of the 
dynamic change that has taken place in Europe over the last 
several years, it is essential for NATO to adjust or lose its 
vitality and lose its reason for being.
    The primary purpose and the primary benefit of NATO since 
its inception has been the stability it has brought to Europe. 
This continues to be its primary function, in my view. People 
say with no threat, why NATO? Well, NATO is stability; 
stability is essential; when we lack stability in Europe, 
America's ability to conduct its foreign policy anywhere else 
in the world is seriously jeopardized.
    History shows that when there is a vacuum in Central and 
Eastern Europe, countries are forced to pursue their own 
individual security arrangements, and history has shown that 
this is not productive nor in our interest.
    The prospect of enlargement has already brought positive 
impacts on this issue of stability, stimulating internal 
reforms in Hungary, Poland, and the Czech Republic and 
encouraging them to resolve historic disputes with their 
neighbors, including border disputes.
    History also shows that when the United States withdraws 
from the security debate in Europe, we pay a serious price. The 
people do not like to hear me say--and I suspect all three of 
you probably agree, at least I think you do--that we are a 
European power. The United States of America, like it or not, 
is a European power and must remain a European power in order 
to remain a power.
    For some to suggest that the potential new members of NATO 
should gain membership in the European Union first or the WEU 
or any other European organization misses a gigantic point 
which is that we are not parties to that game. We are not 
involved in the EU. We do not only not call the shots, we 
aren't even at the table. And to have the United States 
withdraw at this moment from the one forum that allows us to 
have an impact on the security architecture of Europe, NATO, 
would be a serious mistake.
    This is not to suggest--and I know Secretary Albright 
shares my view on this or I share her view--that it is not 
better for these Nations to be part of the EU; it is better for 
them to be integrated. We would like to see that happen.
    Speaking for myself, the EU has not been very generous, or 
speedy, or moved with any alacrity in bringing about an 
expansion of the EU. These are very difficult economic and 
political decisions for them.
    They should speed the process up. But to suggest that it 
should substitute for or should precede NATO membership not 
only flies in the face of what history has shown with Greece, 
Turkey, and Spain, but it also takes us away from the table at 
the moment we should be at the table.
    Those who vote for the resolution should understand one 
very important thing, which is that if you share the view of 
the speakers today, the Chairman, myself, or many others that 
we should expand, understand that we are signing on to a 
financial commitment.
    General, I am going to talk to you today about that 
financial commitment and whether or not it in any way impairs 
our readiness or our ability to conduct our other military 
responsibilities that are on your plate. The most recent 
estimate of direct costs to the United States is $40 million a 
year over 10 years.
    There are critics who suggest this is low balling in a big 
way. I think it is a realistic assessment. But whether it is 
$40 million, or $60 million, or $70 million, the truth is we 
should, all who decide to vote for expansion, understand that 
we are signing on to that commitment.
    This reflects a realistic assessment of the conditions of 
the infrastructure in Poland, Hungary, and the Czech Republic 
and the threats facing the NATO alliance that the first two 
studies in my view did not accurately reflect. It also reflects 
an equitable sharing of the burden among the members of NATO.
    On this point of burden sharing and cost, we should not 
confuse the commitment, as I know former Senator Cohen knows 
well, the commitment our 15 other NATO allies made regarding 
their lift capacity and modernization. That was unrelated to 
expansion and has nothing to do directly with the cost of 
expansion. It is very difficult for those countries to meet 
that commitment because of Maastricht and their own internal 
situation.
    But we should not confuse that with the cost of expansion, 
which is the purpose of our discussion today.
    I will end in a moment, Mr. Chairman.
    Many have raised the possibility that enlargement would 
damage our relations with Russia. I believe the stability in 
Central and Eastern Europe will enhance Russian security. I 
truly believe that. But in my experience of 27 years of holding 
public office, I never tell another person what their political 
interest is nor am I going to lecture another nation on what 
its security interest is. But I think history demonstrates that 
when there is stability in Central and Eastern Europe, Russian 
security and stability are more enhanced, not diminished.
    I would add, Madam Secretary, what I told you when I 
debriefed you on the trip that I made several months ago to 
meet with every major Russian leader, that is, everyone who 
held any significant office and represented any faction in the 
Duma and/or in the political landscape. Not a single one viewed 
the enlargement of NATO as a physical threat. They were 
insulted, they didn't like it, they viewed it as a slap in the 
face, and so on. But none of them viewed it as a physical 
threat.
    I think, if we act appropriately and follow the lead of 
Senator Lugar and the Nunn-Lugar approach to many other areas 
of our bilateral relationship with Russia, coupled with the 
good work that the Secretary General did in the NATO-Russian 
accord that pro- 
vided transparency, as well as a message to Russia that we are 
not attempting to isolate it, I think in time--and I don't mean 
in decades, I mean in years--Russia will view this as adding to 
their stability, not as destabilizing.
    I do not believe the current differences with Russia, such 
as their failure to ratify START II or their stance on Iraq, 
are based on their reactions to NATO enlargement. Were that the 
case, how do you explain France's stance on Iraq?
    I should not have said that, I suppose, but, you know. 
[General laughter]
    Senator Biden. From my discussions with Russian leaders, as 
I said, I do not believe NATO expansion relates to those two 
issues. Russia is going through a dynamic change. We always 
talk about the critics of expansion, talk about the dynamic 
change in Europe as if things will stay static in Russia.
    It is as dynamic or more dynamic in Russia. The jury is 
still out, what will happen is uncertain, but expansion, in my 
view, is more likely to produce positive rather than negative 
results.
    Opponents and proponents of NATO enlargement agree that we 
should do everything we can to increase prospects for positive 
change in Russia. On that note, it seems to me we should 
continue to implement Nunn-Lugar and, where possible, we should 
increase our multilateral assistance and interaction with 
Russia on a broad range of areas as long as they continue to 
implement free market reforms.
    There should not be a timetable. This is the last point I 
will make. In my view, there should not be a timetable for 
invitation of other countries to join NATO. We should absorb 
the three countries in question. We should rationally determine 
and follow the Secretary's language, which is: it is open to 
everyone, move when appropriate, but do not set an artificial 
date. Nor should there be a mandated pause in the consideration 
of future candidates.
    We should not seek deadlines nor draw new lines in the 
future.
    NATO enlargement, to state the obvious, is an historic 
opportunity for the United States, an historic decision to be 
made. The situation in Europe, Russia, and the neighboring 
countries is dynamic, as fluid and dynamic as it has been at 
any time in this century.
    Voting to enlarge NATO now sets a positive course, 
expanding the zone of stability eastward to give those dynamic 
forces of positive change a chance to take hold and bear fruit 
in the future.
    I welcome you back. I thank you for your participation and 
your leadership.
    The Chairman. Madam Secretary, it is all yours.
    Senator Sarbanes. Mr. Chairman, I think, in view of the 
characterizations made at the outset of the hearing with 
respect to the Iraq situation, if the Secretaries choose to do 
so, we ought to give them some extra time in order to address 
that issue.
    I appreciate that this is a NATO hearing and, obviously, it 
was scheduled some time ago for that purpose. But given that 
this is a fast moving event, that this just occurred, and 
particularly given some of the descriptions that were made at 
the outset of this hearing, I think we ought to give them some 
extra time to address that issue if they choose to do so.
    The Chairman. Well, as I understand it, and I have been a 
member of this committee for quite a while, there is no 
limitation on the time. Each of the three witnesses may take as 
much time as they wish to make their points. So you may 
proceed, Madam Secretary.

  STATEMENT OF HON. MADELEINE K. ALBRIGHT, U.S. SECRETARY OF 
                             STATE

    Secretary Albright. Thank you very much, Mr. Chairman, and 
thank you very much for welcoming my colleagues to my 
committee. I went to theirs, and so I am very glad that we have 
a chance to appear together here.
    I will, in fact, turn to the subject of Iraq first, because 
I know that it is on everyone's mind. We will be having other 
meetings throughout the morning on this with you in different 
settings. But if I could, I would just make a few brief 
comments on this.
    The Secretary General reached an agreement with the Iraqis 
on Sunday. He spoke with the President on Monday and today we 
are going to be hearing from him at the Security Council.
    The agreement included a commitment to immediate, 
unconditional, and unrestricted access to all sites in Iraq, 
including the Presidential sites and other so-called sensitive 
sites that UNSCOM has never had access to. So in this way it is 
very clear that Saddam Hussein has reversed course.
    Now, given Saddam's track record, what is important is 
whether he actually lives up to these commitments. There are 
some question marks and ambiguities in the agreement with 
respect to some of the procedures for the Presidential sites. 
These are the kinds of questions that the Secretary General is 
addressing, probably as we speak here, in New York at the 
Security Council.
    We are going to have to work very closely with the Security 
Council and UNSCOM to make sure to close any possible 
loopholes. That is what Ambassador Richardson is doing. That is 
our task for today.
    Kofi Annan has agreed to allow some diplomats to accompany 
the inspectors to the palace sites. Now that may be acceptable 
if the inspectors are free to conduct rigorous and professional 
inspections, and UNSCOM has to be in operational control--that 
is, deciding where they are going to go, the timing, et cetera.
    We are keeping our military forces in the Gulf at a high 
state of preparedness while we see if Saddam Hussein does live 
up to these commitments, and we will continue to back diplomacy 
with force. I do think that we have found that this has been 
working and we will continue in that way.
    UNSCOM, with our support, will test--and this is the key 
word--Iraq's promise thoroughly and comprehensively in the days 
and weeks ahead. I think as the President said yesterday, we 
will clarify, but we will also test. Then we will verify to see 
if they have complied.
    I think those are the key words.
    If Iraq interferes with the inspections or tries to 
undermine UNSCOM's efforts in any way, we will act firmly, 
forcefully, and without delay. We will not allow Saddam Hussein 
to take us from crisis to crisis.
    Now the President has spoken to many of his colleagues. I 
have spoken to many foreign ministers. I believe that Secretary 
Cohen has also spoken to some of his counterparts. What we have 
seen is a general sense that the agreement is a useful one, but 
also that they are becoming exasperated with the way Saddam 
Hussein operates and, therefore, if we have to act militarily, 
it is my belief that we will have much greater international 
support for having gone this extra mile.
    As the President told the American people yesterday, he 
hopes the agreement will prove to be a step forward; but the 
proof is in the testing, and the United States remains resolved 
and ready to secure by whatever means necessary Iraq's full 
compliance with its commitment to destroy its weapons of mass 
destruction.
    We have very much valued the support from Congress. We will 
obviously continue to consult with you. But that is where we 
are now.
    I don't know whether you would like Secretary Cohen and 
General Shelton to speak to this now or for me to go on with my 
NATO statement, whichever way you prefer, Mr. Chairman.
    The Chairman. They are nodding that you are to go on with 
your statement and I agree with them.
    Secretary Albright. OK. Let me then proceed with my NATO 
statement.
    Mr. Chairman, Senator Biden, and members of the committee, 
it is an honor to appear with my colleagues to present the 
protocols of accession to the North Atlantic Treaty of 1949 
that will add Poland, Hungary, and the Czech Republic to NATO.
    We view the ratification of these protocols as an essential 
part of a broader strategy to build an undivided democratic and 
peaceful Europe. We believe this goal is manifestly in 
America's own interest and that it merits your strong support.
    This is not the first time we have discussed the larger 
NATO together. It is also not the first time that we, as a 
Nation, have considered the addition of new members to our 
alliance.
    Almost 50 years ago, my predecessor, Dean Acheson, pointed 
out that if NATO was to be fully effective, it had to be open 
to as many countries as are in a position to further the 
democratic principles upon which the treaty was based to 
contribute to the security of the North Atlantic area and to 
undertake the necessary responsibilities.
    In the years since, the Senate has approved the admission 
into NATO of Greece, Turkey, Germany, and Spain. Each time the 
alliance grew stronger and this time will be no different.
    But this moment is historic in another way, for if the 
Senate agrees, NATO will, for the first time, step across the 
line it was created to defend and overcome, the line that once 
so cruelly and arbitrarily divided Europe into East and West.
    During the Cold War I am sure some of you had the strange 
experience of seeing that line up close. There were bunkers and 
barbed wire, minefields, and soldiers in watch towers fixing 
you in their cross hairs. On one side were free people living 
in sovereign countries; on the other were people who wanted to 
be free, living in countries suffocated by communism.
    Go to the center of Europe today and you would have to use 
all the powers of your imagination just to conjure up these 
images. The legacy of the past is still visible east of the old 
divide, but in the ways that matter the new democracies are 
becoming indistinguishable from their Western neighbors.
    This geopolitical earthquake presented NATO with a blunt 
choice: would our alliance be the last institution in Europe to 
treat the Iron Curtain as something meaningful or would it aid 
in Europe's reunification and renewal? Would it exclude a whole 
group of qualified democracies simply because they have been 
subjugated in the past or would it be open to those free 
nations willing and able to meet the responsibilities of 
membership?
    I believe we have made the right choice. NATO's decision to 
accept qualified new members will make America safer, NATO 
stronger, and Europe more stable and united.
    Last October, I had the opportunity to make this case 
before you, and I will try to summarize that case today and 
then will focus on the questions and concerns that may still 
exist.
    First, a larger NATO will make America safer by expanding 
the area of Europe where wars do not happen. By making it clear 
that we will fight, if necessary, to defend our new allies, we 
make it less likely that we will ever be called upon to do so.
    A second reason is that the very prospect of a larger NATO 
has given the nations of Central and Eastern Europe an 
incentive to solve their own problems. To align themselves with 
NATO, aspiring allies have strengthened their democratic 
institutions, made sure soldiers take orders from civilians, 
and resolved almost every old border and ethnic dispute in the 
region. This is the kind of progress that can ensure we are 
never again dragged into a conflict in this region. It is the 
kind of progress that will continue if the Senate says yes to a 
larger NATO.
    A third reason why enlargement passes the test of national 
interest is that we will make NATO itself stronger and more 
cohesive. Our prospective allies are passionately committed to 
the alliance. Their forces have risked their lives alongside 
ours from the Gulf War to Bosnia. They will add strategic depth 
to the alliance, not to mention well over 200,000 troops.
    Two weeks ago, Foreign Minister Geremek of Poland was in 
Washington along with his Czech and Hungarian colleagues, and 
he was asked why his country wants to join NATO. He replied 
that Poland wants to be anchored in the transatlantic 
community. He said we owe to America this revival of Poland's 
attachment to the West. Very simply, we owe our freedom to the 
United States.
    Mr. Chairman, let us remember that these countries look 
forward to assuming the heavy responsibilities of NATO 
membership as an opportunity to show the world that they are 
now mature democracies able to give something back to the 
community of freedom that stood by them in their years of 
darkness.
    This point is especially important in light of our efforts 
to ensure Iraqi compliance with U.N. Security Council 
resolutions. When I met with the foreign ministers of our three 
prospective allies 2 weeks ago, I asked them to ensure that 
their nations would stand by our side come what may. Their 
response was swift and sure: if we have to take military 
action, they will be with us.
    Poland, Hungary, and the Czech Republic are already 
behaving as loyal allies and they will be good allies in the 
future.
    I know there are still serious critics who have legitimate 
questions about our policy. We have grappled with many of these 
questions ourselves and I want to address a few of them today.
    Some revolve around the cost of a larger NATO. Since I was 
last here, Mr. Chairman, all 16 allies have agreed on the 
numbers and backed them up with commitments. We know today that 
the costs will be real, but also that they will be manageable, 
that they will be met, and that they will be shared fairly.
    Another concern that I want to address is that adding new 
members to NATO could diminish the effectiveness of the 
alliance and make it harder to reach decisions; in short, that 
it could dilute NATO. But we have pursued NATO enlargement in a 
way that will make the alliance stronger, not weaker.
    This is why President Clinton insisted at the Madrid Summit 
that only the strongest candidates be invited to join in this, 
the first round. As you know, the President was under some 
pressure both at home and abroad to agree to four or five new 
allies. He agreed to three because we are determined to 
preserve NATO's integrity and strength. NATO is a military 
alliance, not a social club; but neither is it an inbred 
aristocracy.
    We must be prudent enough to add members selectively, but 
we must be smart enough to add those members that will add to 
our own security. This in turn raises another question that I 
know a number of Senators have: namely, where will this process 
lead us and what about those countries that are not now being 
invited to join?
    Part of the answer lies in NATO's Partnership for Peace and 
in its new Euro-Atlantic Partnership Council. But an equally 
important part lies in NATO's commitment to keep its door open 
to additional members. This is central to the logic of a larger 
NATO. After all, we set out on this policy because we believe 
that NATO cannot respect and must not perpetuate arbitrary 
lines of division in Europe.
    Let me say very clearly that we have made no decisions 
about who the next members of NATO should be or when they might 
join. At the same time, it is vital that we preserve our 
flexibility and that of those who would lead the alliance in 
years to come.
    Some now propose that we freeze the process of enlargement 
for some arbitrary number of years. Some of these people have 
said with candor that their real aim is to freeze the process 
forever.
    Let me be clear: this administration opposes any effort in 
the Senate to mandate an artificial pause in the process of 
NATO enlargement.
    Last July, President Clinton and I visited some of the 
countries that have not yet been invited to join NATO. We were 
met by enthusiastic crowds and by leaders who support the 
decisions the alliance made in Madrid. They know they still 
have a way to go. Yet just the possibility of joining has 
inspired them to accelerate reform, to reach out to their 
neighbors, and to reject the destructive nationalism of their 
region's past.
    A mandated pause would be heard from Tallinn in the North 
to Sofia in the South as the sound of an open door slamming 
shut. It would be seen as a vote of no confidence in the reform 
minded governments from the Baltics to the Balkans. It would 
diminish the incentive Nations now have to cooperate with their 
neighbors and with NATO. It would fracture the consensus NATO 
itself has reached on its open door. It would be at once 
dangerous and utterly unnecessary since the Senate would, in 
any case, have to approve the admission of any new allies.
    Mr. Chairman, let me take a few moments to discuss one 
final key concern, the impact of a larger NATO on Russia and on 
our ties with that country.
    I want to stress that this concern has to do mostly with 
perceptions not reality. For example, there is a common 
perception that we are moving NATO, its tanks and bombers, and 
even its nuclear weapons, right up to Russia's borders. The 
reality is quite different. Proximity is not the issue. Russia 
and NATO have shared a border since 1949. Both Russia and 
Norway know this as nothing new. There are no tensions along 
the border between Poland the Russian enclave of Kaliningrad 
and there won't be if Poland is in NATO. Hungary and the Czech 
Republic, meanwhile, are closer to France than they are to the 
nearest corner of Russia.
    As for weaponry, in the current and foreseeable security 
environment, NATO has no plan, no need, and no intention to 
station nuclear weapons in the new member countries, nor does 
it contemplate permanently stationing substantial combat 
forces. Just as important, the prospect of joining NATO has 
given our future allies the confidence to avoid big arms 
buildups.
    If we do not enlarge NATO, the opposite could happen. The 
Central European nations would undoubtedly spend more on their 
own defense. As Senator Biden has pointed out, they would 
probably create their own mutual security arrangements, 
possibly anti-Russian in character. The very problems Russia 
fears a larger NATO will cause are precisely the problems a 
larger NATO will avoid.
    A more worrisome perception is that Russian opposition to 
expansion, whether justified or not, is hurting our 
relationship with Moscow. But once again, the reality is 
different. I have spent much time during the last year talking 
with Russian Foreign Minister Primakov, and, in fact, I just 
got off the phone with him before this meeting, and also with 
other Russian leaders. We have made significant progress in a 
number of key areas.
    This includes the critical question of arms control and 
nuclear safety. Russia is a year ahead of schedule in slicing 
apart nuclear weapons under the START I Treaty. Presidents 
Clinton and Yeltsin have agreed on the outlines of a START III 
treaty. Russia has joined us in banning nuclear testing and 
followed us in ratifying the Chemical Weapons Convention. And, 
as we speak, our experts are helping to build secure storage 
facilities for tons of fissile material and to upgrade security 
at nuclear weapons storage sites throughout Russia.
    I do not pretend that everything is perfect in our 
relationship. We are, frankly, concerned about the slow pace of 
START II ratification. We have serious concerns about Russia's 
relationship with Iran. Our perspectives on Iraq differ as 
well, though we share the same fundamental goal.
    But it would be a big mistake to think that every time 
Russia does something we don't like it is to punish us for 
bringing Hungary or Poland into NATO. Our disagreements with 
Russia, especially about the Middle East and the Gulf, have 
come about because of the manner in which Russia is defining 
its national interests in that part of the world. These 
differences have existed long before NATO decided to expand.
    If the Senate were to reject enlargement, we would not make 
them go away. We would, however, be turning our backs on three 
nations that have stood with us on Iraq, on Iran, and on a 
range of security issues that matter to America.
    Mr. Chairman, there is a larger issue at stake here. Those 
critics who focus on Russia's opposition to enlargement are 
making an assumption that Russia will always define its 
national interests in a way that is inimical to ours. They 
assume Russia will always be threatened by the desires of 
former satellites to go their own way. I believe these 
assumptions sell Russia short. I believe they ignore the 
progress we have made and that Russia has made in coming to 
terms with a world that has radically changed.
    I am confident America can build a true partnership with a 
new Russia. But the partnership we seek cannot be purchased by 
denying a dozen European countries the right to seek membership 
in NATO. A partnership built on an illegitimate moral 
compromise would not be genuine, and it would not last.
    I am also confident that Russia can succeed in its effort 
to become a normal democratic power that expresses its 
greatness by working with others to shape a better world. That 
transformation will only be delayed if we give Russia a reason 
to believe it can still assert its greatness at the expense of 
its neighbors.
    Mr. Chairman, for all these reasons and more I believe that 
the choice before you involves much, much more than the 
immediate future of Poland, Hungary, and the Czech Republic. In 
a sense, it involves the most basic question of all our foreign 
policy: how do we avoid war and maintain a principled peace?
    My answer is that we need to remain vigilant and strong 
militarily and economically. We must strive to maintain the 
cordial relations among major powers which has lent brightness 
to the promise of our age. But we must also strengthen the 
proven alliances and institutions that provide order and 
security based on realism and law for nations large and small, 
institutions that deter aggression and that give us a means to 
marshall support against when deterrence fails. That is what 
NATO does. That is why we decided to keep it and to expand it. 
And that is why I thank you today for working with us to make 
this day possible.
    Mr. Chairman, I have said that in the last years we have 
celebrated the 50th anniversary of everything. Sometimes we 
regret what happened 50 years ago and, accidentally, as we 
testify today, it is the 50th anniversary of the coup in 
Czechoslovakia.
    It is very meaningful, I think, to this discussion because 
it is as a result of that coup that the West came to realize 
that a NATO was necessary and it was formed. And also, Mr. 
Chairman, it is as a result of that coup that my family had to 
come to the United States and, gratefully, we have lived here 
as Americans.
    And so, I am very pleased that on this particular day I 
have the opportunity to ask all of you to agree to the 
ratification of these protocols.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Secretary Albright appears in 
the Appendix.]
    The Chairman. Thank you, Madam Secretary.
    Mr. Secretary.

 STATEMENT OF HON. WILLIAM S. COHEN, U.S. SECRETARY OF DEFENSE

    Secretary Cohen. Thank you very much, Mr. Chairman, Senator 
Biden and other members. This is a unique experience for me to 
appear before this distinguished committee.
    I spent 24 years in the Congress and never had the 
opportunity to appear before this committee. So I thank my 
distinguished colleague, as we used to say in the Senate, and 
associate myself with her very comprehensive remarks.
    Mr. Chairman, I am looking at the anxious faces of the 
members who are here. I have a very long statement which I 
believe has been submitted for the record and for your review. 
It would probably take me through the end of the policy 
luncheons if I were to repeat it. I have looked also at a 
summary of my statement, and that will take me at least to the 
beginning of the policy luncheon. So I would like just to 
summarize everything very briefly, if I can, so that the 
members may have an opportunity to ask questions.
    With respect to Iraq, very quickly, the President offered a 
tentative acceptance yesterday. He was tentative because of the 
ambiguities that exist in the document itself.
    We all know the words about the empty vessels into which we 
pour the wine of meeting an intent, and that is exactly what 
has to take place before there can be a complete acceptance of 
the agreement.
    As Secretary Albright has indicated, we need to clarify 
those ambiguities. We need to solidify the understanding of all 
the members of the Security Council as to what is intended by 
those words, and then we have to verify and enforce.
    I don't think we should become mesmerized over the 
presidential palaces. I have tried to make this point, as has 
Secretary Albright on many occasions. First, we have to 
understand what do they mean: buildings or compounds? And that 
is a big difference.
    But, second, we should not overlook the ``sensitive sites'' 
which he has also barred the inspectors from. This is something 
that diverts us from time to time. We are insisting that we 
look at Republican Guard facilities. They have been barred from 
those sites as well.
    So we have a lot to clarify before there can be any 
complete acceptance of this agreement. But I also agree with 
Secretary Albright and with Senator Biden, who made this point. 
It would be very difficult after this for any member of the 
Security Council to walk away from this agreement once the 
ambiguities are clarified.
    It would undermine the credibility of the United Nations 
and I think even affect its viability in the future if it were 
not to stand behind this understanding once it is clarified.
    Let me move quickly to NATO enlargement. I think it is 
obviously in the national interest, as Secretary Albright has 
laid out the case, and it needs not much further elaboration. 
There are three issues which I will just touch upon briefly.
    First is cost; second is contributions and what do they 
bring to the table; and third is our relationship with Russia.
    The price of admission to NATO is high. We talked about 
NATO being an open door, but that open door stands at the top 
of a very steep set of stairs. Each of these countries has to 
climb a set of stairs in terms of modernizing their societies, 
having an open and democratic system, subordinating their 
militaries to civilian control, promoting market economies--all 
of the ideals that we treasure.
    These countries have to measure up to those standards. So 
the price of admission is high.
    These countries, in my judgment, also want to be producers 
of security. They don't want simply to be consumers.
    What do they bring to the table? First is stability, as the 
Secretary has indicated. They also bring strategic depth--about 
300,000 troops with specialized units in combat engineering and 
decontamination skills. There is the question can they afford 
it. Alliances save money. That is the key point.
    These countries would need to reform and modernize their 
militaries under any circumstances. But in joining an alliance 
such as NATO, they are going to spend far less because they are 
going to rationalize their needs, integrate their capabilities 
into the NATO structure.
    So the temptation to engage in spending because of fear of 
their neighbors or fear that they are going to be outspent by 
some other country that might pose a threat to them in the 
future is going to be diminished significantly.
    They are committed to spending this money in order to 
modernize, and I think it is for a very simple reason. All of 
them are aware of Eisenhower's dictum that a soldier's pack is 
not as heavy as a prisoner's chains.
    For the past 40 years or more, they have lived with 
prisoner's chains around their legs. They are now free. They 
want to join a freedom-loving institution that will protect 
them and provide security for the future. So they are willing 
to bear these costs.
    Are they affordable? The answer is yes. Are they 
manageable? The answer is yes.
    I presented to the Congress last year an estimate of what 
it would cost for NATO enlargement. I would like to repeat 
those figures because you are going to focus upon them.
    At that time, I submitted numbers that would range between 
$27 billion and $35 billion over a 13 year period. But those 
numbers need to be broken down to three categories, as Senator 
Biden indicated.
    We estimated last year--again, it was an estimate--that the 
new members over a 13 year period would have to spend somewhere 
between $10 billion and $13 billion; that the existing NATO 
members, excluding the United States, would have to spend $8 
billion to $10 billion; and that the direct costs of engagement 
would total roughly $9 billion to $12 billion. Out of that 
portion, the costs of four new members would be about $5.5 
billion to $7 billion. That is the number we really should be 
focusing upon.
    NATO has come back with figures that reduce the cost 
estimate to $1.5 billion over 10 years. So we have to focus on 
why there differences.
    The first major difference is that we thought last year 
that there would be four countries invited, not three. So we 
added a country just to be on the safe side in terms of 
notional costs. Adjusting from four to three new members would 
cut approximately $1 billion from that $5.5 billion to the $7 
billion figure.
    Second, we found differences as a result of collecting 
empirical data. We actually sent people, trained officials to 
these sites, and they made an analysis of what was necessary. 
We found that those facilities are in far better shape than we 
estimated last year. The infrastructure is very sound, or at 
least much more sound than we thought when we made the estimate 
last year. This reduced our cost estimate further.
    The third point is that there were differences in 
methodologies and requirements.
    In the infrastructure, for example, we found we had been 
using some of these facilities as part of Partnership for Peace 
exercises. We have been engaged in joint exercises with these 
countries. We found that the facilities in Hungary, Poland, and 
the Czech Republic are far better than we'd thought.
    Second, we found in the Czech Republic, by way of example, 
that they had already done things that we had anticipated they 
would have to do as members of NATO. They had digitized their 
communications, both secure and nonsecure, in anticipation of 
becoming members of NATO. So that cost has already been 
absorbed by the Czech Republic.
    But, basically, we have had our Joint Staff look at the 
military requirements proposed by NATO's Military Committee and 
they confirmed them. Our civilian experts confirmed that NATO's 
costing of there requirements produced cost figures which are 
legitimate. They are accurate and affordable.
    Are there any deficiencies? The answer is yes. These three 
countries have a number of things they are going to have to do, 
like develop key personnel. They are going to have to downsize, 
first of all. Poland will come down, as I recall, roughly from 
about 220,000 down to about a 180,000 member force. Each of the 
other countries will downsize: the Czech Republic will have 
about 55,000 personnel, and Hungary will have about 51,000.
    The next thing they have to focus on is personnel. They 
really have to get qualified people into the military and 
develop an NCO corps. That is what makes the United States as 
strong as it is today, and that is why they always look to us. 
How do we develop an NCO corps? That will be their number one 
priority.
    They need much better training and must focus on 
interoperability with NATO through their command, control and 
communications systems. Then, after they really buildup their 
personnel, their training, and they are exercising command and 
control, then we get to the acquisition of weapon systems. That 
should be a much lower priority for all of these countries. 
They have to focus upon the first three.
    With respect to Russia and new dividing lines, Secretary 
Albright has already touched upon this. The old lines in Europe 
are disappearing. Poland has resolved some of its disputes with 
Lithuania. Poland and the Ukraine have resolved their border 
disputes. Hungary and Romania, Italy and Slovenia, Germany and 
the Czech Republic--all are resolving long-standing disputes in 
anticipation of NATO enlargement.
    We signed the NATO-Russia Founding Act last year. Again, 
Secretary Albright has covered this. Let me just give you the 
benefit of my experience.
    I have been to Russia most recently, but prior to that time 
I made three trips to Bosnia last year. On my first visit to 
Bosnia, a Russian soldier came up to me. He took off his blue 
beret and gave it to me as an act of friendship, because he was 
so proud. He was representative of all those who were there. He 
was so proud to be standing next to NATO soldiers.
    It is a real mission for them, and they feel a sense of 
pride.
    I attended a going away ceremony for General Shetshov. 
General Joulwan at that time was SACEUR and was hosting a going 
away ceremony. They had a very moving, poignant ceremony for 
him and he repeated, as his successor, Trivolipov, has repeated 
``one team/one mission.'' That is something General Joulwan 
felt very strongly about. They are one team and one mission in 
Bosnia today, and that is what we see in terms of our 
relationship with them in the future.
    I just got back from my trip to Moscow. It was quite cold 
in terms of temperature, about 15 degrees below zero at one 
point, with a very strong wind. I met with members of the Duma 
as well as Minister Sergeyev.
    I would like to pick up on one point that Senator Biden 
touched upon. We need to have more contact with the Russian 
Duma. The one thing that I think they resent the most is there 
has been a reduction in contact between members of Congress and 
members of the Russian Duma. Those exchanges are vital and they 
are valuable.
    When you sit down across from a table of Russian 
legislators and they have an opportunity to press you and you 
have an opportunity to press them, that is the way in which you 
build the cohesion that is going to be necessary as we move 
forward to the next century.
    So if I had one message to bring, I would say it is that we 
need more contact, not less; that when you have a separation of 
people, it is easy to demonize one another, to challenge the 
assumptions under which we operate, and to really cause more 
conflict than cooperation.
    So I would hope that in the future we might stimulate 
greater communication and have them come over here and our 
members go over there. I think that can only be satisfactory 
for all of us.
    Let me conclude with a quote taken from Donald Kagan's 
book. He is a historian who wrote a book called The Origins of 
War, with a subtitle, The Preservation of Peace.
    He said,

    A persistent and repeated error throughout history has been 
the failure to understand that the preservation of peace 
requires active effort, planning, expenditure of resources, and 
sacrifice just as war does. In the modern world, especially, 
the sense that peace is natural and war an aberration has led 
to a failure in peacetime to consider the possibility of 
another war, which, in turn, has prevented the efforts needed 
to preserve the peace.

    Those are words we have to constantly keep in mind--that it 
requires dedication of resources and effort if we are going to 
preserve the peace and prevent the resumption of war.
    If this century has taught us anything, it is that our 
security is inextricably linked and tied to peace, stability, 
and security in Europe. We have to hold up this lamplight of 
history so that we do not stumble on the path to the future.
    In building a Europe for the 21st century that is whole and 
free, we are going to provide coming generations of Americans a 
future that is more secure, more peaceful, and more prosperous.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Cohen appears in the 
Appendix.]
    The Chairman. Mr. Secretary, thank you very much. General 
Shelton.

 STATEMENT OF GENERAL HENRY H. SHELTON, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Shelton. Mr. Chairman, Senator Biden, I am happy to 
be here today along with Secretary Albright and Secretary Cohen 
to offer you my views on NATO enlargement.
    As all of you are well aware, NATO has been a cornerstone 
of our national security strategy for almost 50 years. In 
recent years, the European and international security 
environments have changed and NATO must reflect these changes.
    To be the strong force for peace in the future that it has 
been in the past, NATO is examining new concepts and new 
approaches to keeping pace with the rapidly changing world. 
NATO enlargement, the alliance's initiative to embrace new 
partners, is fundamental to restructuring NATO for a new 
century.
    The Joint Chiefs and I endorse the President's support for 
this initiative because we are convinced that our strategic 
interests and the interests of our European friends and allies 
are better served with enlargement than without it.
    Too often in this century we have been called upon to 
intervene in major conflicts on the European continent at great 
price to our Nation in blood and in treasure. We have learned 
that we can avoid war by joining hands with our friends and by 
extending a hand to yesterday's adversaries to turn them into 
tomorrow's friends.
    In fact, no NATO country has ever been attacked by a 
neighbor in the nearly 5 decades of NATO's existence.
    We have lived through the most dangerous century in world 
history; and, even today, in Bosnia we can see the legacy of 
those earlier conflicts. That is why, in my view, we can only 
gain by encouraging deserving nations to join with us in the 
interest of peace.
    But we must be sure that the candidates for NATO membership 
are up to the task. From the military perspective, it is 
important that new members bring genuine military capability to 
NATO.
    Though meeting specific military standards are not required 
for admission, new members must be net contributors and not net 
consumers of security. They must be able to conduct coordinated 
oper- 
ations with other NATO members. They must be prepared to 
participate fully in the defense planning process, and their 
military forces must reflect the shared values of our alliance, 
particularly the imperatives of civilian control which are so 
central to our democratic systems.
    Of course, we do not expect new members right away to 
operate militarily at the same levels as members of long-
standing. Helping new members become fully interoperable with 
NATO in critical areas, like command and control, alliance 
decisionmaking, and coordinated staff processes, will take both 
time and effort. However, all three prospective members have 
taken great strides in this regard, as mentioned by Secretary 
Cohen, by participating in numerous Partnership for Peace 
exercises over the past few years.
    I share the view of my NATO counterparts, expressed to me 
during a number of recent visits to Europe, that to bring new 
members fully up to standard, NATO enlargement must occur in a 
deliberate way.
    As part of this deliberate process, a recent study 
conducted by NATO and independently validated by the Joint 
Staff assessed the military requirements associated with 
admitting Poland, Hungary, and the Czech Republic to membership 
in the alliance. This 5 month study is thorough and militarily 
sound and is sufficiently detailed to serve as the basis for 
accurate cost estimates.
    Considering the alternative, the prospect of future 
instability and conflict, I see the tradeoff between the 
projected costs of enlargement and the benefits of a stable 
Europe as very much in our favor.
    I am also encouraged by the military performance of the 
NATO candidates in Partnership for Peace events, in military 
operations in the Balkans, and in other operations like Desert 
Storm. All three of the nations offered membership have already 
made important contributions to NATO operations in Bosnia and 
elsewhere. Poland has deployed a paratroop battalion to SFOR, a 
logistics battalion to the U.N. forces on the Golan Heights, an 
infantry battalion to Lebanon, and observers to eight other 
U.N. missions.
    The Czech Republic provided a large mechanized battalion to 
SFOR and almost 1,000 Czech soldiers served with UNPROFOR 
during the Bosnian civil war. Before that, several hundred 
Czech chemical decontamination troops supported the coalition 
in the Gulf War.
    Hungary provides an engineer battalion to SFOR today, a 
unit which has been with NATO in Bosnia since the beginning. 
Hungarian host Nation support and facilities have been critical 
to our ability to conduct operations in Bosnia.
    As these examples demonstrate, the countries which we have 
invited to join NATO clearly possess military capabilities and 
a level of military competence and professionalism which will 
enhance NATO. Apart from their military value, these 
cooperative ventures demonstrate the willingness of new members 
to share the risks of collective security, a willingness that 
deserves our respect and our support.
    Mr. Chairman, I believe the choice is clear. If we are to 
avoid the tragedies of this century in the next one, we must 
embrace the lessons we have learned at such great cost to 
achieve the peace we owe our children and their children. One 
of those lessons is that peace is based on closer political, 
economic, and military ties; and NATO enlargement serves these 
ends very well.
    Mr. Chairman, thank you for the opportunity to appear 
before this distinguished committee. I will be happy to answer 
your questions.
    The Chairman. Thank you, General. I thank all three of you.
    Admiral Nance and I made the judgment, since we saw so many 
people at previous hearings lined up in the hall who had no 
possibility of getting in, and decided to move the hearing 
here. Even so, there are people outside wanting to get in. Only 
some of them will.
    I have checked with the staff and the number of Senators 
who are present along with the number who are expected to come 
to ask questions suggest that even if we limit our question 
period to 5 minutes, which I am going to do herewith, that will 
take us well past 12, in which case we will be glad to take you 
to the policy luncheon, Bill.
    Secretary Cohen. Oh, I'm coming. [General laughter]
    The Chairman. Let me ask all three of you if my 
understanding is correct that you do not have any concerns 
about Russian threats or intimidation against neighboring 
States, such as Georgia, et cetera. You don't have any concern 
about that.
    Secretary Albright. No, sir.
    General Shelton. No, sir.
    Secretary Cohen. [Nods negatively]
    The Chairman. Let the record show that all three shook 
their heads in a negative manner.
    Secretary Cohen. This is not to say there are not some 
threats to Georgia.
    The Chairman. General Shelton, on behalf of our military, 
are you able to state without reservation that adding Poland, 
Hungary, and the Czech Republic to NATO will serve the national 
security interests of the United States?
    General Shelton. Yes, I am, Mr. Chairman.
    The Chairman. I think it would be helpful if you would 
identify some of the ways in which it would help the United 
States.
    General Shelton. I think, first of all, Mr. Chairman, that 
NATO has stood for stability and peace in Europe for over 50 
years now. I think that, as we look toward the future, 
certainly we are inextricably linked to the European continent 
economically, politically, culturally, and militarily right 
now, and that stability and security on that continent is 
definitely in our best interests. NATO provides a forum for 
coordination, cooperation, and certainly for resolution of 
conflict within the NATO membership.
    I feel that the more of this type of involvement that we 
have from members and the more members that we have that can 
resolve their differences in this manner, the better off we 
will be as a Nation and as a military.
    Second, I think it is very important that we remember that 
these countries that we are inviting for new membership have 
also contributed to peace and stability throughout the world, 
as have the other NATO members, by contributing to 
peacekeeping, to peace enforcement, and when the time came in 
many cases, such as in the Gulf War, to fighting alongside 
America and, therefore, reduc- 
ing the burden that our own forces would have placed on them 
otherwise.
    The Chairman. Madam Secretary, some of us here have met 
with the foreign ministers of each of the three countries being 
added. They have indicated no problem whatsoever in making 
their portion of the contribution, the financial contribution, 
to the operation of NATO.
    I gather from your statement that you think there will be 
no problem.
    Secretary Albright. Mr. Chairman, they have made very clear 
that they are supportive of coming in to NATO. They have also 
made very clear through their budget adjustments that they are 
prepared to carry the burdens of NATO membership and they have, 
as Secretary Cohen explained, made already adjustments in the 
way that their military is operating in preparation for this.
    So we feel satisfied that not only are they in theory 
interested in being a part of NATO but they have taken 
practical steps in order to become good functioning, good 
paying members of the NATO alliance.
    The Chairman. Mr. Secretary, as a former respected United 
States Senator, this question I am going to direct to you, 
because you have been there and done that.
    Is it in your judgment a certainty that the executive 
branch understands the obligation to consult with the Senate 
before any future invitations for NATO membership are proposed?
    Secretary Cohen. I think it is always wise, based upon my 
experience, Senator Helms, to consult with the Senate, the body 
that is going to ratify the accession of members into NATO. I 
don't think that this administration or any future 
administration wants to make a commitment without having 
consulted with the Congress in terms of its recommendations, 
either its support or lack of support. I think it is always 
helpful.
    The Chairman. Well, I think as long as you are there, if 
any inclination to avoid the Senate or ignore the Senate 
occurs, you will say ``wait a minute.'' Right?
    Secretary Cohen. That's my belief--we need the Senate. The 
executive branch cannot simply amend treaties without the 
support of the Senate, obviously.
    The Chairman. Exactly.
    Secretary Cohen. So we would always seek the consultation 
with the Senate.
    Secretary Albright. Mr. Chairman, even those of us that 
were not Senators believe that. [General laughter]
    The Chairman. Pardon me?
    Secretary Albright. Even those of us who have not been 
Senators believe that we need to consult.
    The Chairman. I know my fellow North Carolinian does.
    I see that my time is just about up.
    Let me say in my remaining few seconds that I hope Senators 
will refrain from the tendency of speaking, making statements 
up to 30 seconds before the time elapses, and then ask a 
question and the poor witness is sitting there thinking what 
shall I do.
    With that, Senator Biden. [General laughter]
    Senator Biden. Thank you very much, Mr. Chairman.
    I was going to ask the Secretary of Defense about the 
discrepancy in the cost estimates, but he explained that 
thoroughly. I will submit some questions in writing so we have 
it for the record in a little more detail.
    The biggest criticisms that those of us who support 
enlargement get from very qualified and serious people--I 
believe they are in the minority, but, nonetheless, they are 
people for whom I have great respect, such as Howard Baker, 
General Scowcroft, with whom you are close friends, I know, 
Secretary Cohen, and others--seem to come down to three areas. 
One is whether or not the numbers are correct. I will leave 
that aside for now. The second is the impact upon Russia and 
our relationships with Russia. I spoke to the Chicago Council 
on Foreign Relations and the names of some of those very people 
who I have mentioned were invoked. For example, they suggested 
that the reason why--and this is a question to you, Madam 
Secretary--the reason why the former Foreign Minister, the most 
recent Foreign Minister of Russia was sacked was because he had 
been put in a difficult position. Some say he was undermined by 
NATO expansion and that we have a harder lined, less 
sympathetic voice and partner in the present Foreign Minister 
of Russia.
    How would you respond to that?
    Secretary Albright. First of all, I would liken it to what 
is going on in the United States now, blaming everything on El 
Nino. Everything that the Russians do is now blamed on the fact 
the we are expanding NATO.
    The Russians have their national interests which they will 
pursue no matter what, and we expect them to do so. Foreign 
Minister Primakov and I in our first meetings made very clear 
that we would both pursue our national interests.
    I believe, as I have said many times, that they do not like 
NATO expansion but they are living with it. And, in fact, our 
relations are really excellent. There are any number of 
occasions when it is possible to make very clear that U.S.-
Russian relations continue to be key to both our countries, 
that we are able to carry on, and that it does not affect 
relations in other countries.
    Senator Biden. Let me be specific again, in following the 
admonition of the Chairman. It is also stated that the reason 
why START II has not been ratified is because of NATO 
expansion. That is not my view. But I would like to hear from 
any one of you on that.
    Secretary Cohen?
    Secretary Cohen. I just finished a 2 day stay in Moscow, 
meeting with the Minister of Defense, Mr. Sergeyev and also 
members of the Duma, and Mr. Primakov. Let me say that the 
prior Minister of Defense was released from office by President 
Yeltsin, because he was calling for more money for his defense 
needs.
    Mr. Rodionov was entertained, I think by us, in a very 
generous way; and we made quite a bit of headway in dealing 
with him. He was released because he was calling for more money 
to support the military establishment.
    During the meeting that I had with Minister Sergeyev, while 
there was a lot of attention focused on the fact that he read a 
statement to me in open session that criticized the United 
States for thinking about using force in Iraq, we had a 2\1/2\ 
hour session in which all that was discussed during that 2\1/2\ 
hour session was how we could move forward on START II 
ratification, which he strongly supports, the need to go to 
START III, and to visit the Comprehensive Threat Reduction 
Program, the so-called Nunn-Lugar program, which is very much 
in our national interest.
    So we spent 2\1/2\ hours talking about other issues.
    Senator Biden. Mr. Secretary, I am going to submit some 
additional questions to reinforce that point. I don't know of 
your particular experience as you have just stated it, but it 
is clear to me that they have not moved on START II because of 
the costs to them. I mean, we should be leapfrogging, as you 
are doing, to START III and begin to worry about some of their 
concerns.
    Secretary Cohen. I just want to pick up on the point 
Secretary Albright was making. They can always point to any 
issue for not ratifying START II. They can say it is NATO 
enlargement, although that issue was not raised to me at any 
time when I was there. It was more that we cannot ratify START 
II as long as you [the United States] are thinking about force 
in the Gulf.
    Senator Biden. You know, one of the strongest arguments 
being used now is that as NATO expands, the only thing left is 
to rely on first strike, and so on.
    Now, General, I only have a minute left and I will leave a 
specific question with you and will submit some in writing.
    General, there is an article in the Defense News dated 
March 30: Officials Near Russian Partnership for Peace 
Agreement. I will read one paragraph:

    While the scope of the offer pales in comparison to the 
individual partnership plans of many smaller Nations, such as 
Bulgaria, the fact that specific Russian forces and assets for 
the first time have been set aside for NATO related 
peacekeeping activities is considered a positive sign by NATO 
officials.

    Can you reconcile for me the progress that appears to be 
made on the Partnership for Peace arrangements with NATO and 
this notion that expansion of NATO is going to just absolutely 
ruin our relationships with Russia, at least from a military 
perspective?
    General Shelton. Senator Biden, from our perspective this 
expansion of the Partnership for Peace and getting the Russians 
more involved in every respect, to include liaison at NATO 
headquarters, is a way to try to turn this Iron Curtain that we 
have lived with for so many years into a picture window in 
terms of the Russians.
    They want us to believe that they are a new Russia. Their 
resistance in looking at NATO is to think that we really are 
not against anyone. We are for peace and stability. And we 
think that the more we can get them involved through 
Partnership for Peace and the more military to military 
contacts we have, the more observers that they send to the 
exercises, the more that they will see this is not oriented 
against them but rather for stability and security.
    Senator Biden. How did I do, Mr. Chairman?
    The Chairman. You did great. Did great.
    Senator Biden. OK.
    Thank you very much.
    The Chairman. That was an A-plus.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    One of the advantages for the United States in NATO 
expansion has been the thought that NATO nations, including the 
ones that may be coming in, would share our ideals, would share 
our foreign policy interests when they were coincident, and the 
old ``out-of-area'' argument that has plagued NATO discussions 
for many years might begin to dissipate. In other words, we 
argued, I think during Desert Storm, that it was in the best 
interest of European countries in terms of their own energy 
security to participate with us. But we were still recruiting 
them one at a time, or they were volunteering in that 
situation.
    The energy predicament in the Middle East is still just as 
critical for European countries, and we are now discussing the 
out-of-area situation in a context in which reciprocally, in 
addition to the support we give to the defense of European 
countries, we anticipate their support in terms of our security 
interests which we believe are coincident.
    I am just curious in the current diplomatic situation in 
which all of you have been involved in consulting with European 
countries with regard to Iraq what sort of cooperation you have 
found. Is there any new look at this situation, given the new 
NATO, or is it still the old NATO? Or is it evolving? Or have 
you had time? After all, a lot of this diplomacy has occurred 
rapidly in terms of the quality of these visitations.
    Second, reciprocally, the Europeans with whom I have 
visited, and you have seen a good many more, have admonished us 
that we ought to be taking different sorts of examinations of 
Iran, that they see European security tied in different ways 
with policy in Iran which sometimes runs counter to the one 
that we have.
    To what extent do we listen to this? Do we discuss it? 
Could it be a part of the evolution of our diplomacy during 
this period of time in which maybe we have a stand-down with 
Saddam Hussein, hopefully a fairly long period, but we don't 
know how long, in which we begin to work with our European 
friends to understand out-of-area, and we would take a look 
strategically at the entire region?
    I would like for all three of you to comment, if you can.
    Secretary Cohen. Let me take the easy question and give the 
tougher one to Secretary Albright.
    The easier one for me is in terms of dealing with NATO 
itself and what has been the nature of our relationship as far 
as Iraq is concerned. If you will look at the record, 13 out of 
the 16 members offered support for the U.S. position. If you 
include the new members who would like to come in and hopefully 
will come in as a result of Senate action and that of others, 
16 out of 19 will have supported the United States.
    Senator Lugar. All three of the new applicants, so, are 
supportive.
    Secretary Cohen. All three of the new applicants were very 
supportive. So that is a pretty strong statement coming out of 
the individual members.
    Historically, of course, NATO has been designed to provide 
for collective security of the individual members, focused upon 
Europe. There has been quite an evolution that has taken place, 
if you recall, just 4 or 5 years ago. Germany had taken the 
position that it could not deploy its forces anywhere that it 
had occupied territory during World War II. This meant, for all 
practical purposes, that it would not deploy outside of German 
territory.
    Today they are in Bosnia. They have made a very strong 
commitment to Bosnia. So they are in the process of evolving in 
terms of what out-of-area will mean for the future. But I can 
say that we had strong support from virtually all of the 
allies. The three that did not, of course, were France, 
Luxembourg and also Greece. Those were the three that did not 
share in supporting the United States.
    Secretary Albright. Senator Lugar, I have to say, as 
Secretary Cohen has said, there has been an awful lot of 
exchange and interchange with our NATO partners throughout the 
Iraq crisis and we will continue to do so.
    As far as general foreign policy, what is very interesting 
is that there are, obviously, national interests that are 
divergent but many that are the same, and we obviously spend a 
great deal of time dealing with the EU. At this particular 
stage, the United Kingdom is in the presidency of the EU, and 
they are very interested in looking at a series of subjects 
with us. Iran is, frankly, one of them.
    While we may not agree on tactics because they are more 
interested in some exploring of more commercial ties, they are 
interested in talking about how to limit weapons of mass 
destruction as far as interaction with Iran is concerned.
    So I think there will be more and more discussion, though 
the problem, if I may be so frank, is that the EU itself has a 
hard time coming up with a European view. So there is 
discussion among them before they have discussions with us.
    But this is the wave of the future, I think, of trying to 
determine what national interests we all have in common.
    Senator Lugar. General Shelton, do you have a comment?
    General Shelton. I have nothing to add to what Secretary 
Cohen said, Senator Lugar, regarding the great support we have 
received from our NATO allies and, specifically, from the 
prospective new members.
    Senator Lugar. I thank all of you. My own hope, and I am 
certain it is shared by you, is that we take this time to 
enrich this dialog with our allies to forge even stronger ties. 
I appreciate the point you have made that they were there. 
Sixteen of nineteen is impressive and a good argument for NATO 
expansion and the course that we are on. But it seems to me 
probably more intensive work and deeper roots in this 
particular situation are necessary.
    Secretary Cohen. If I could just add, there was a 
conference, Mr. Chairman, the Wehrkunde Conference in Munich, 
Germany, which I would invite all members to attend in the 
future. It is one of the best conferences held dealing with 
security issues.
    Thanks to the delegation that was there--Senator McCain, 
Senator Warner, Senator Levin, as well as Senator Robb and 
others--they made it very clear that the United States would 
expect to receive support from the NATO members when their 
interests were involved in the Gulf as well as in Europe equal 
to the contribution the United States is making to their 
security in Europe; that we have interests that are mutual and 
they are not simply confined to the European theater.
    I thought that point was made very strongly, and got 
everybody's attention.
    Senator Lugar. Very good.
    Thank you.
    The Chairman. Thank you.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    Welcome to our witnesses. Secretary Cohen, welcome to the 
Foreign Relations Committee.
    Secretary Cohen. Thank you.
    Senator Dodd. Mr. Chairman, let me just briefly comment, as 
well, on the Iraq situation. I want to commend Secretary 
Albright, Secretary Cohen, you, General Shelton, and the 
members of the Joint Chiefs. I appreciate your characterization 
of this as a tentative approval of this agreement. The 
expressions of concern raised by the Chairman and others, while 
one may disagree with the rhetoric chosen, I think reflect the 
feelings of many of us here. We are very uneasy about this 
agreement. We hope it works. We all hope that a political and 
diplomatic solution to Iraq will be the answer here. But given 
past history in dealing with Saddam Hussein, one cannot be 
anything but doubtful, to put it mildly.
    I am very pleased that the President has agreed to maintain 
a very strong U.S. military presence in the Gulf for the 
foreseeable future.
    Nonetheless, I commend those of you who have been involved 
in this. I know it has been extremely difficult.
    I regret that we in Congress had not debated this issue and 
adopted a resolution that we might have found some common 
ground on.
    Secretary Cohen. There is still time.
    Senator Dodd. There may be, and I was going to suggest to 
the Chairman that we might try to find if there is not some 
language that we could agree on here as a way to express from 
the legislative body how we feel about this issue which might, 
in fact, strengthen our hand and position. But enough said on 
that. There will be another time to talk about it. 
Nevertheless, I wanted to express my views on it.
    I wonder if I could pick up on a question that Senator 
Helms asked. I guess, Madam Secretary, maybe the question goes 
to you first on this. It concerns the issue of whether or not 
other commitments have been made.
    I believe that we have no real choice here. In fact, I am 
certain the Senate very strongly will endorse the expansion of 
NATO. But the question arises: what next?
    Secretary Cohen pointed out that, obviously, the Senate 
ought to be advised ahead of time before such commitments are 
given about the additional members of NATO. Let me just ask the 
question very bluntly here. Have we made any commitments beyond 
those which we are aware of to any additional countries that 
they will, in fact, be included in an expanded NATO?
    Secretary Albright. No, Senator Dodd, we have made no 
commitments. All we have said is that at the 1999 meeting we 
will review the process. But there have been no commitments 
made, and they know that, frankly.
    Senator Dodd. I hope that is the case. Again, I think there 
are good arguments for expanding NATO. But the issues raised 
about cost I think are not unfounded.
    We are watching a Europe with declining defense budgets 
going on and I suspect that may continue for the foreseeable 
future.
    We pick up about a quarter of the costs of NATO, is that 
correct, the United States does?
    Secretary Cohen. (Nods affirmatively]
    General Shelton. [Nods affirmatively]
    Senator Dodd. It seems to me that you are going to have 
with these new countries joining NATO with their own domestic 
difficulties, sorting out their policies, the pressures on them 
for, what is it, $800 million to $1 billion annual cost a 
year--is that correct--for each one of the new countries?
    Secretary Cohen. Yes.
    Senator Dodd. I am not knowledgeable enough about the Gross 
Domestic Product of these nations, but these are not 
overwhelming economies. And they are democratic governments 
with all the normal pressures that we see in our own society.
    I wonder if you might, Mr. Secretary, and maybe General 
Shelton with Secretary Cohen, comment on the issue of our own 
force structure and modernization efforts in light of declining 
European defense budgets, the pressures on these economies, and 
whether or not there are any legitimate concerns one ought to 
be raising about whether or not we are going to be able to meet 
our commitments for our own force structure in light of the 
kinds of pressures we are seeing here.
    Secretary Cohen. I think we are in very good shape to meet 
our own requirements. Obviously, we are going through a 
modernization program now. I will not belabor you with the QDR 
process. But one thing we have tried to do is to design our 
forces for the future, to make them more mobile and more 
flexible, and also to take advantage of new technologies.
    I think the Europeans are going to have to downsize, and 
they are in the process of doing that. They are going to move 
away from having a fixed type of military position to that of 
more highly flexible, mobile, and deployable units. They are 
doing that as we speak, and they are going to be confronted 
with these kinds of choices that you talked about.
    But we have seen them undertake modernization as well and a 
reshaping and redesigning of their forces as they are coming 
down to be smaller. But we do not anticipate this will affect 
our abilities and our obligations.
    Senator Dodd. General Shelton, did you want to comment on 
that?
    General Shelton. Senator Dodd, the dollars through the FYDP 
were included in the funding wedge for NATO enhancement. That 
is from 1999 through 2003. So we do not see that having any 
impact on modernization within our own forces.
    In terms of the three prospective new members, for example, 
in the case of the Czechs, their ministry of defense has been 
under funded since 1989. But in 1999, it is the only department 
of their government that will get an increase. It will start 
going up.
    So we see a concerted effort on the part of all three in 
much the manner Secretary Cohen has just indicated, to start to 
come in line with NATO and a commitment on the part of the 
government to make sure that the Defense Department has what it 
needs in order to allow them to meet their commitments for 
membership.
    Senator Dodd. Thank you very much.
    Mr. Chairman, I see the yellow light is on. Rather than ask 
an additional question, I will yield.
    Thank you very much.
    The Chairman. Thank you, Senator.
    Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    I, too, add my welcome and best wishes to our three 
panelists. This has been a tough last few months for all three 
of you and I think you have handled yourselves very well and 
have been a credit to our country and to our allies.
    I would like to pick up on a point that Senator Dodd made.
    Secretary Cohen, you mentioned in your closing remarks 
dedication of resources. I am very concerned about what I see 
happening to our force structure. When you look out, starting 
with the Washington Post story of a week ago today, about 
stress and strain on our military, and you look at the 
numbers--General Shelton, I believe for the first time since 
1979 the Army did not meet its recruitment quota--and you look 
at how since 1989 our Air Force has lost a third of its 
manpower--600 pilots we lost in 3 months last year--you know 
the numbers. This is the lowest defense budget, allocation of 
defense resources since World War II. 3.1 percent of our Gross 
Domestic Product goes to national defense. You know the 
numbers.
    My question is this. If we are going to continue to take on 
new responsibilities and commitments, as we are, as we are 
talking today about NATO expansion--and as you know, all three 
of you, I am a very strong supporter of NATO expansion and have 
been for all of the reasons you mentioned and more--we are 
going to continue with a force structure in Iraq for who knows 
how long, or outside of Iraq in the Middle East. We must do 
that. On Bosnia, you all are going to come back up here, as you 
have been, and ask for more money for Bosnia. We are going to 
keep more forces there, presumably indefinitely. And there are 
all the other obligations in Korea, Asia, Germany.
    How can we do this? I understand, Secretary Cohen, you talk 
about modernization and high tech weaponry. But I am concerned 
about what we are doing to our people.
    I can tell you that at the base in Nebraska, Offutt Air 
Force Base, we have housing problems. We have major housing 
problems there. That is why a lot of these people are getting 
out.
    You talk, Secretary Cohen, about how the infrastructure of 
any good outfit is the NCO corps, and General Shelton knows 
that especially that is true. But we are losing NCOs. If we do 
not pay attention to our people, we are going to find ourselves 
in a hell of a mess one of these days and we are taking all of 
this new responsibility on. We are not going to have any backup 
for that.
    So I don't think I am alone in that. Secretary Cohen, you 
have been a member, a distinguished member, of the Armed 
Services Committee for many years and you know these numbers.
    I would very much like to have the two of you reassure me 
that we are doing everything we can. As I read the President's 
budget, I think we are talking about eliminating 23,000 more 
uniformed military in his Fiscal Year 1999 budget.
    How does this all work? How are we going to take on the new 
commitments?
    Secretary Cohen. First of all, with respect to cuts in the 
end strength, as such, we have tried to take that out of combat 
support and civilian positions and not take them out of those 
who would be in the front line of our fighting force.
    Second, with respect to how do we achieve these savings, I 
don't want to take your time to talk about the BRAC 
proceedings. It is very controversial. But the National Defense 
Panel, the QDR, virtually everyone has recommended reducing the 
size of our overhead.
    The third point is that we are concerned about the loss of 
pilots. We are in a very competitive position, or I should say 
we are becoming less competitive with the private sector that 
is offering enormous sums of money to pilots and to others and 
a much more comfortable way of life.
    So we have these challenges that we have to face up to. I 
think General Shelton can probably tell you what we are doing 
in terms of trying to reduce the stresses on those units that 
are overly utilized, which they called low density-high demand. 
We are facing problems with the over utilization of particular 
types of forces. But we are trying to address that. It is going 
to take, in some cases, more money. It is going to take, in 
some cases, reducing the operational tempo. We have a problem 
right now in terms of what we are doing in the Gulf as far as 
the high operational tempo. We have to take that into account. 
But it is a management problem and a challenge and it is one 
that we are wrestling with and hope to wrestle with in the 
coming years.
    But as far as the new members coming in, as far as the 
costs are concerned, we think that those are fairly low and 
something that we can absorb quite easily. And what it gives us 
in the way of strategic depth and integrating those three 
countries into our architecture, the security architecture, we 
think the benefits far outweigh any burden we have to carry.
    Senator Hagel. Bill, let me add just one thing. Quality of 
living for our people is a big problem. You never have enough 
money for this. You know that. But I am very, very concerned 
about what we are doing to our own people; because we are not 
paying attention, and we are not putting the resources there.
    I think, quite frankly, this administration is going to 
have to come up and ask for more money in our defense budget. I 
don't know any way around this. We can talk about BRACs and 
base closings, Bill, but I think you are going to have to do 
better than that.
    Secretary Cohen. There is another issue called the balanced 
budget agreement. As you know, there are firewalls that are up, 
at least this year. Next year, those walls come down. It will 
be a real challenge to find out whether the members will resist 
shifting funds from defense into domestic programs or whether 
or not they will be willing to go higher in the way of 
appropriations or to take money out of the domestic progress 
for the military. That is going to be a real challenge next 
year.
    Senator Hagel. Thank you.
    General Shelton?
    General Shelton. Senator, first of all, thanks very much 
for your support. I would tell you that balancing readiness, 
modernization, and quality of life is, in fact, the challenge 
for the Joint Chiefs.
    As part of the QDR process, as we went through and looked 
at how we could increase the modernization account while still 
maintaining a trained and ready force and providing for the 
quality of life, we very quickly realized that the only way we 
could do that in a balanced budget era was if, in fact, we 
could take advantage of a revolution in business affairs as 
well as eliminate excess capacities. So I would just underscore 
what Secretary Cohen has said in that regard.
    When it comes to trained and ready, I think today we have a 
trained and ready force. We see indications of that as we look 
at the force that stands poised right now in the Persian Gulf. 
There are some challenges. Secretary Cohen mentioned the 
pilots. Of course, that is driven not only by PERSTEMPO but 
also by a booming economy and the fact that the airlines are 
hiring at quite a rate, well above the historical average.
    But, nevertheless, we have to deal with that, because that 
will have a long-term impact on our readiness.
    Our low density/high demand units, the ones that we call on 
all the time and which are not in great supply, we now have a 
system which we did not have a year ago. So we monitor them, we 
manage them and a conscious decision is made whenever one of 
these units is going above the norm for their particular type 
of unit. We make a decision. We go back and challenge the 
requirement. We look for alternatives and, ultimately, we have 
to make a conscious decision either to send it or not to send 
it, to keep it within the given range so that our people can, 
in fact, sustain the pace.
    We have several other systems in place right now to help us 
monitor both readiness as well as the PERS and OPERATIONAL 
TEMPO. We are able to manage it right now, but in terms of our 
long-term health, it will be critical in the coming years that 
we either reduce our capacities and capitalize on efficiencies 
or the top line will have to be moved up or we cannot maintain 
the readiness and provide for the quality of life as we try to 
keep our modernization accounts moving upward.
    Senator Hagel. I do not doubt the readiness. But I am 
concerned, like many of us, that we are stretching them so far 
that we are going to break them.
    Mr. Chairman, thank you.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. I might reassure 
Senator Hagel that some of the questions he raised are going to 
be taken up even this afternoon in the Readiness Subcommittee 
of the Armed Services Committee and will be fully explored 
during those deliberations.
    Madam Secretary, Mr. Secretary, General Shelton, we thank 
you for coming and for all that you have done in the last few 
days and weeks to both place the United States and the 
international community in a position where the Secretary 
General could come back and report to both the United Nations 
at some point today and at least tentatively before he left the 
theater all of the obligations that were required of Iraq under 
the U.N. Security Council resolutions would be fully and 
completely complied with.
    I thank you for your brief mention of those developments. I 
have just a short question in that area and then I would like 
to do a very brief question with respect to the NATO 
enlargement which, as I think you know, I fully support as 
well.
    I have just one question on the agreement, if you will, 
that Tariq Aziz and Kofi Annan signed in Baghdad which will be 
admittedly more fully briefed, developed, interpreted, and 
analyzed by the United States. Do you have any reason at this 
point to believe that there are any installations, entities, 
organizations, or other elements that might constitute some 
threat to the United States that are in any way excluded from 
the agreement that was signed in Baghdad by the Secretary 
General of the United Nations?
    Secretary Albright. We have no reason to believe that. This 
is access to all sites, and we are going to make sure that that 
is what has been agreed to.
    I think it is our understanding that this is access to all 
sites and under various procedures. Those are the points that 
need to be clarified--that it is to all sites.
    Senator Robb. Madam Secretary, do you have any reason to 
believe that there is either a specific or an implicit 
understanding as to the composition of any of the inspection 
teams that might require admittance to particular areas and 
that any particular individuals or classifications of 
individual might be excluded, again, either explicitly or 
implicitly?
    Secretary Albright. It is our understanding that there is 
no classification or discrimination of that kind.
    What is going to happen--and this, again, is one of the 
questions that needs to be clarified--is that these groups 
would be composed of experts drawn from UNSCOM and the IAEA, 
the atomic energy group, to be accompanied by diplomats; but 
that the operational control of those inspections would be 
under the inspectors, who would be the ones determining where 
to go and when to go--the operational aspects of this.
    We think that we dealt with the issues of who was going to 
be part of it in terms of nationalities previously, and that is 
not our understanding of what has been reached here. But, 
again, these are the kinds of questions that need to be 
clarified.
    Senator Robb. You do not have any reason to believe at this 
point, however, that any specific individuals that may have 
caused some consternation for Saddam Hussein would be on the 
exclusion list, again either explicitly or implicitly?
    Secretary Albright. As far as we know, there is no such 
agreement. But that is obviously one of the things that needs 
to be explored.
    Senator Robb. I have one other question in this area and 
this one might be directed at Secretary Cohen since he made the 
observation that a resolution would still be appropriate and 
welcome. I certainly agree and I, like Senator Dodd and others, 
wish that we had formally gone on record before the last brief 
recess to express our support for the United Nations and the 
U.S. position in this particular regard.
    If we were to craft such a resolution at this point, would 
you welcome a very explicit trigger mechanism that would 
indicate support for specific action without additional 
consultation or warning should any of the provisions of the now 
reaffirmed agreement to abide by U.N. Security Council 
resolutions be reached in any way, shape, or form?
    Secretary Cohen. I think it would be preferable to follow 
the lead that was taken by the British. They had a very 
vigorous debate in the House of Commons. I believe they 
passed--I am not sure about the number but it was something in 
this neighborhood--by something like 425 to 19, giving support 
to the government to pursue whatever measures necessary in 
order to enforce the U.N. resolutions.
    I think that kind of general support would be very welcome.
    Senator Robb. We will see what we can do to help you on 
that particular score.
    I did not mean to take all of my time with respect to Iraq. 
I have one question on NATO expansion.
    A former colleague of ours, former Senator Gordon Humphrey, 
visited me and probably visited some of the others, expressing 
some very real reservations. It old him at the outset of our 
conversation that I took a different position, that I 
wholeheartedly supported the expansion. But he, nonetheless, 
made a number of points, one of which was that he felt that 
this alienation within the Russian people by the powerlessness 
that they might feel might diminish our ability to play the so-
called Russian card against China in some future negotiations 
or strategic balancing as, indeed, we have talked about and 
occasionally played the China card previously against Russia.
    Madam Secretary, would you like to respond?
    Secretary Albright. Let me say that I do not agree with 
that, first of all because that is ``old think,'' frankly. We 
don't operate that way. I think that what we are doing is 
establishing relations with these countries individually and 
that our national interests require us to deal with both those 
countries on a basis that is good for the United States.
    I also think that it is a misreading of what is going on in 
Russia. Clearly, there are those who feel a powerlessness. But 
there have always been discussions within Russia as to whether 
to look outward or to look inward. Those have been going on for 
centuries.
    I think we have to do everything we can to promote the 
democratic reform processes in Russia so that they feel very 
much a part of the world as we enter the 21st century. And I do 
not think we should be afraid of NATO expansion.
    Senator Robb. I agree and I thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Madam Secretary, Mr. Secretary, General Shelton, thank you 
for being here today.
    Yesterday, I did what I typically do when I am on the West 
Coast and I have a Tuesday schedule of voting. I got on a 
plane, but before doing so, I bought all of the weekly news 
magazines to find out what was happening or what had happened. 
When I came to Newsweek, I read about the ``Clinton Doctrine.'' 
It seemed to me that Newsweek was articulating a new foreign 
policy, a military strategy for dealing with chemical and 
biological weapons.
    The thesis of the article, as I understood it, is that if 
there is a country that acquires these weapons and we don't 
like their intentions, it will be the policy of the Clinton 
Administration that we ``whack'' them.
    I wonder if you can confirm. Is there a Clinton Doctrine 
that reads that way? Do our allies support it? Will the 
administration seek the funds to prosecute it and will the 
American people support it in your view?
    Secretary Albright. Can I just begin this by saying that I 
do not believe half the things I have read in Newsweek this 
week, including the fact that the Chairman and I are having 
tiffs, which is not true, or what I wore someplace. So I would 
not take Newsweek seriously this week. [General laughter]
    Senator Smith. I wanted to ask the question for the simple 
reason that it is a stunning doctrine that is being propounded 
in the pages of the magazine and I, frankly, am genuinely 
interested in an answer to the question; because I think it is 
a serious one for our country to ask, if this is, in fact, a 
new doctrine that I think they ranked up with the Monroe 
Doctrine and others.
    Secretary Cohen. I have not read the article, but let me 
say that this administration, like every administration, should 
be concerned about the proliferation of chemical and biological 
and nuclear weapons. We want to do our level best to discourage 
countries from acquiring them or building up their stocks and 
deploying them. That is a challenge that is going to face every 
administration.
    We are trying to take measures which would discourage 
countries like China, for example, from transferring nuclear 
technology to Iran, to discourage Russia from transferring 
certain technology to Iran. We want to make sure that we try to 
confine this as best we can.
    There are a number of countries here and it is growing. 
There is a proliferation of these weapons of mass destruction. 
We are going to have to contend with that in the future, in the 
next century as well as this one.
    We have to develop domestic progress and we are doing that 
to provide for protection, assign the Guard and Reserves a more 
prominent role in dealing with that on a domestic level. But we 
do not have a doctrine, that I am aware of, that we are going 
to whack a country that has a chemical weapon or that with a 
biological weapon. That is news to me.
    So I don't know what the article said, whether that is an 
over-reading of it. But by implication, I have never heard of 
it before.
    General Shelton. I have not read the article, Senator. I am 
not aware of any change in our doctrine. But certainly, as the 
Secretary mentioned, counter proliferation in the future is 
something we are all concerned about, particularly as we look 
out toward 2010 and an environment in which this is obviously 
growing.
    Then, finally, I would just say that I second and agree 
with Secretary Albright's comments regarding the article that 
appeared in Newsweek regarding the ``tiff'' between the 
Secretary and myself. Not true.
    Secretary Albright. Could I just make a serious comment 
about this?
    I do think that the threats of the 21st century have to do 
with these weapons of mass destruction. I think one of the 
parts that has made it obviously complicated in explaining our 
position on Iraq is that in the past we have dealt with actual 
things that have happened, like the Iraqis crossing over into 
Kuwait, which is a physical act. We are now, when we deal with 
weapons of mass destruction, talking about a potential or 
future threat. We all, frankly, have to do a better job of 
explaining the problems of this future threat because it is the 
threat of the 21st century. You are going to be hearing a lot 
from us about this, not in terms of doctrine but in terms of 
explaining how one deals with bad things that have not happened 
yet but that might happen.
    Senator Smith. I thank you for those answers.
    I happen to have been one of the Senators at the Wehrkunde 
Conference and I must, frankly, admit that I was shocked as a 
newcomer to that forum at how little support existed among our 
European allies for what we were doing in Iraq or proposing to 
do. I was amazed, frankly, that we were being held to our 
promises in Bosnia without their support to help us in Europe.
    I think, Madam Secretary, as we go forward and this becomes 
an issue, we need to figure out what our responsibility is in 
the world on these issues, that we engage them more than I 
think apparently they have been engaged to put up a united 
front against this kind of terror.
    I will say one of the criticisms I have always heard 
against NATO enlargement is that it will somehow dilute the 
effectiveness of NATO. What I saw in Madrid, when NATO was 
signed, and what I saw at the Wehrkunde Conference is that the 
European allies that supported us were the Czechs, the 
Hungarians and the Poles.
    So I think, far from diluting NATO, their inclusion will 
breathe back into it a new birth of freedom and a sense of what 
it is all about. So I welcome their inclusion.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman.
    First of all, let me welcome all of you here and let me 
thank you for your leadership.
    I want to say to Secretary Albright and General Shelton, as 
I said to the General earlier--we had a meeting, just a small 
number of us--that I had concerns and had questions about where 
we were heading. I really appreciate your sensitivity and your 
honesty.
    Let me ask two questions and then you all can just respond. 
That may be the best use of the 5 minutes. One is on Iraq and 
one is on NATO expansion.
    There was a survey released last year by the U.N. 
Children's Fund which found that nearly 1 million Iraqi 
children under the age of 5 were chronically malnourished.
    Now don't misunderstand me. Saddam Hussein is a very cruel 
man, and this may not bother him in the least. But I have a 
policy question that I want to get some clarification on.
    Are there any conditions under which a sanctions regime 
could be lifted or would be lifted, even if Saddam Hussein were 
still in power? We seem to have some confusion over that 
question and I want to get your response to that.
    The second question has to do with NATO expansion. I think 
I am a bit in the minority on this, at least today. But I still 
have concerns and I want to quote Richard Pipes to get your 
reaction.
    Let me start out by saying that I don't think, Mr. 
Chairman, that I have ever dealt with a question that has been 
more difficult, especially from the point of view of face to 
face contact with people in my own State. I had on Valentine's 
Day a meeting with Czech-Americans, Polish-Americans, and 
Hungarian-Americans and they brought Valentine cookies with 
``Support NATO expansion'' written on each cookie. I mean, this 
is the definition of Minnesota lobbying. [General laughter]
    Senator Wellstone. Let me say that the words of George 
Kennan still are etched in my mind. I have a tremendous amount 
of respect for his wisdom.
    Richard Pipes wrote a piece from which I quote:

    Paranoia in Russia feeds on itself, seeking and finding 
confirmation in everything that happens emphatically, including 
the recent Western decision to expand NATO up to the very 
borders of the former Soviet Union. I know no Russian, 
regardless of political orientation, who favors it. To the 
contrary, NATO's projected expansion plays directly into the 
hands of the nationalists who exploit fears of the West to 
argue that Russia must reconstruct the empire and rebuild the 
military in order to hold its own in an unfriendly world.

    I want to get your reaction.
    Madam Secretary, I understand you cannot blame everything 
on NATO expansion as we are blaming everything on El Nino. On 
the other hand, I don't see not the cooperation on Iraq, and 
the Duma not about to ratify START II. I worry. I read that the 
Russians are considering no longer abandoning the first use of 
tactical nuclear weapons, arguing that this may have to be 
their response.
    So I am really worried about destabilization in Russia and 
in Europe. I want to get your response to that. Those are the 
two questions. If I could, may I get a response from each of 
you?
    Secretary Albright. Let me try both and then yield to 
Secretary Cohen.
    First of all, let me say that on Iraq, you have pointed to 
the poor children. The truth is that we care about those poor 
children more than Saddam Hussein does.
    Senator Wellstone. I understand.
    Secretary Albright. We just voted to double the amount of 
oil that can be sold to get humanitarian assistance in there. 
Meanwhile, he builds palaces off other money. So it is not us. 
It is him.
    Our position has been that Saddam Hussein has to live up to 
all the relevant Security Council resolutions. That is our 
position and we believe that at this stage, talking about 
lifting sanctions is hypothetical. He is a long way from 
carrying out his obligations.
    Senator Wellstone. If I could just interrupt, the point is 
that he has to live up to all of the U.N. resolutions? It is 
not a question that he has to be out of power? I just want to 
be clear on that point.
    Secretary Cohen. Yes.
    Secretary Albright. Yes.
    On the question of Russia, let me just say that I spoke to 
George Kennan a few days ago on his 94th birthday. He has been 
a remarkable influence on all of us in the United States. I 
find this very hard to say since I grew up on George Kennan, 
but I don't agree with his position on this.
    I also do not agree with Mr. Pipes. I think that there are 
clearly such forces in Russia, but they would be there anyway. 
And I think that we would be rewarding those forces by limiting 
our own national interest as well as those of these countries 
that want to come in and not going forward with something that 
is, I believe, in the U.S. national interest and also in the 
interest of a secure and stable Europe.
    Secretary Cohen. If I could respond, Secretary Albright has 
shared my sentiments exactly about what is taking place in Iraq 
with respect to children.
    Saddam Hussein has exhibited very little concern for their 
welfare, far less than we have.
    As we have all indicated, once there is compliance with the 
resolutions, the sanctions can be lifted. The question is will 
he comply with the resolutions so they can be lifted.
    With respect to Mr. Pipes, also a very well known scholar, 
let me say that you may recall when President Gorbachev was 
then in office, he said that a united Germany could never be 
part of NATO. We insisted that a united Germany would be part 
of NATO and we could structure it in a way that would not pose 
an offensive threat to the Russian people.
    We now have a united Germany in NATO.
    We had Mr. Rodionov, as I mentioned, a former Minister of 
Defense, who came to the Pentagon to meet with the Joint Chiefs 
in the tank and go through NATO, the new NATO. We had Mr. 
Primakov, the Foreign Minister, come to the Pentagon and look 
at the proposed new NATO and how it would operate, to ask 
penetrating questions as he is accustomed to doing. I think we 
did not remove his doubts or his opposition, but we at least 
were able to answer some of those questions.
    I think that the more we talk to them and show them how it 
will operate and how, as General Shelton has testified, 
stability actually works to their advantage as well, we also 
have to deal with this issue about first use of nuclear 
weapons.
    I believe that is tied directly to the decline of their 
conventional forces. There has been a substantial degradation 
of their conven- 
tional capability. They are concerned about it. I think it has 
prompted some of this talk about first use.
    You may recall that for years the former Soviet Union 
declared its policy was no first use. Now that the documents 
have now been declassified, we are finding out that it was 
always their policy to resort to nuclear weapons if it was in 
their national security interest to do so--first or second.
    With respect to a first use threat, I think we all 
obviously ought to be concerned about what is happening with 
their early warning capability, to make sure that they are 
satisfied that their national security interests are protected 
so that there is no inclination for them to resort on a hair 
trigger to a first use of nuclear weapons.
    So we work with them. That is why we are so interested in 
getting ratification of START II, going on to START III, and is 
why we need to keep up these contacts. It is because when you 
see that kind of rhetoric coming out of Russia, it obviously is 
of concern. But we have to address their concerns. We need to 
help them, for example, restructure their military.
    I have offered to do that with the new Minister of Defense 
as I did with his predecessor, to show them how we have dealt 
with our modernization. Is it relevant? Perhaps not. But this 
is the kind of dialog that needs to be carried on because we do 
have to have a good relationship with Russia. I think we can 
reduce their apprehensions and fears. They may always have some 
of them. But I think the way in which we reduce that level of 
fear is to continue the dialog and not simply to retreat and 
get involved in accusations.
    The Chairman. Thank you, sir.
    Senator Ashcroft.
    Senator Ashcroft. Thank you, Mr. Chairman.
    Madam Secretary, Mr. Secretary, General Shelton, thank you 
very much for appearing before the committee.
    With regard to Iraq and NATO expansion the administration 
seeks to rely more heavily on multilateral arrangements to 
advance our foreign policy interests.
    I have stated serious questions and reservations about the 
expansion of NATO and its mission, particularly the expansion 
of its mission. I will address those further today.
    With respect to Iraq, I am deeply, deeply disappointed at 
the outcome of the latest confrontation with Saddam Hussein. 
The sad truth is that Saddam Hussein is better off today than 
he was in October. He is better off across the board--
militarily, politically, and economically.
    He has been free of effective inspection for several months 
without any penalty. He has won greater prestige in the region 
and in the Arab world generally. He will be allowed to sell 
more oil. There is a growing high level discussion of 
dismantling the rest of the sanctions regime in some European 
capitals.
    It could be that one day Saddam Hussein's triumph will be 
the world's tragedy. I am concerned about that.
    He is the chief terrorist of a terrorist government. His 
weapons of mass destruction not only threaten our interests but 
our allies in the Middle East. He has demonstrated his 
willingness to use those weapons even against his own people.
    It seems to me that the administration has adopted as its 
highest goal the preservation of the status quo, and there is a 
problem with that. Simply restoring the status quo without 
penalizing Saddam encourages adventurism by other rogue states 
around the world.
    The penalty for stealing a car should not be simply to give 
the car back. I mean, if we did that domestically, we would 
find car theft on the rise and respect for law enforcement on 
the decline.
    In making a new and untested agreement with the United 
Nations, Saddam has agreed to do nothing more, it appears to 
me, than he was obliged to do all along.
    The preservation of a status quo, in my judgment, is not a 
diplomatic triumph, Madam Secretary. To me it is a tragedy if 
it is not more than that.
    It appears to me that the clear winner in this round is 
Saddam Hussein. One reason he was able to defy the U.S. and 
prosper, I believe, was our inordinate reliance on the U.N. to 
conduct crucial parts of our foreign policy. When I consider an 
enlarged NATO with the ill defined out-of-area missions against 
the backdrop of this engagement with Iraq, I am disquieted and 
I have real reservations about what it means in regard to our 
foreign policy.
    In the absence of a successful policy against Iraq, the 
United Nations and Russia were able to set the agenda 
throughout the recent crisis. U.N. foreign policy is one thing 
but U.S. foreign policy is another. Our foreign policy should 
not be written at the U.N. or subcontracted to Moscow or 
subservient to multilateral interests.
    A second reason for Saddam Hussein having success I think 
was the inability of the President to summon strong support for 
his position from the American people and from our allies. 
This, too, should raise doubts, in my judgment, about the 
ability of an enlarged mission for NATO.
    If our mission with NATO is ill defined, I think it is 
going to make it more difficult to summon the support of the 
American people. A lack of clear Presidential leadership on 
Iraq has not served the United States well in the Middle East, 
and I fear that a lack of responsible leadership in Europe will 
threaten the future of a strong NATO as well.
    Madam Secretary, when you appeared before this committee on 
October 7, 1997, I asked you about NATO's mission in the 
future; specifically, if the alliance would be shifting from 
its traditional defense of the territory of Western European 
Nations in NATO to an organization which advanced the members' 
out-of-area interests.
    You responded that NATO would be advancing those out-of-
area interests in the future, but you didn't give any real 
definition or realistic limits to those interests, which could 
extend from the Pacific Rim to Central America.
    In other forums, you have been quoted as saying that NATO 
should evolve into ``a force for peace from the Middle East to 
Central Africa.''
    I fear that such a broad mission threatens the future of an 
alliance with such historical distinction. Without a clear 
post-Cold War mission, NATO could become nothing more than a 
mini-United Nations with a standing army for ill-defined 
peacekeeping operations as we have seen in Bosnia, an operation 
which has cost the United States over $6 billion since 1996. 
Potentially endless peace- 
keeping missions divert scarce resources from a seriously 
diminished defense budget.
    I thought Senator Hagel's remarks were very important on 
that point.
    The Washington Post reported days ago that our European 
allies already question a NATO structure that advances the vast 
political interests of its members rather than defending 
territory.
    These reports raise serious questions.
    Madam Secretary, in advancing out-of-area interests, where 
do you think the limits will be drawn in terms of NATO 
deployments and other operations.
    Second, you have stated that NATO faces no immediate 
security threat. What will be the compelling rationale for the 
alliance in the future? Is it just the so-called interests 
without the defense of territory?
    Secretary Albright. Thank you very much, Senator. You were 
very kind to put your critique out ahead of time, so I have a 
chance to quote from it.
    I agree with you. U.S. foreign policy should not be written 
at the United Nations, subcontracted to Moscow, or servant to 
multilateral interests. It is none of the above.
    First of all, I think it is very clear that the U.N. has 
been very useful in the Gulf, starting with President Bush and 
putting together a coalition there based, and the commitments 
that now need to be carried out were created some time ago at 
the end of the Gulf War.
    We have made very clear what our national interests are, 
and at this time the U.N. is the best forum for carrying those 
out.
    First of all, the tough sanctions regime, the toughest in 
the history of the world, is carried out because it is a 
multilateral sanctions regime. If we wanted to do it alone, we 
could not do that as we know that unilateral sanctions do not 
work as well as multilateral ones.
    Second, our relationship with Moscow on this has been 
actually quite useful. They have also insisted on the fact that 
there be full, unfettered inspections, and they have insisted 
that there be repeat visits. So I see no problem there.
    Clearly, there are times that a multilateral approach 
works.
    I do not think that you would want us to do everything by 
ourselves. I think we have discussed here what burden sharing 
is about and that burden sharing is a way for others to help 
carry out some of the responsibilities of the Free World so 
that the United States does not have to do it alone.
    In terms of out-of-area interests, let me say that what 
NATO is at this stage is reviewing its strategic concept, but 
it is at the start of that process. They are looking at which 
parts of it are valid and how to revise the text.
    Our position is clear. We do not seek to change the basic 
function of the alliance of Article V, which is collective 
defense. So we have no problem about the basic function of 
NATO.
    NATO itself is looking at various things that it wants to 
do out-of-area. Bosnia is one of those.
    The Chairman. Thank you very much.
    Senator Ashcroft. Mr. Chairman, I think the Secretary may 
have suggested something. Is there currently an investigation 
of the redrafting of the NATO accord so as to establish a new 
purpose for NATO? You said they were currently looking at the 
language relating to out-of-area missions.
    Secretary Albright. They are reviewing their strategic 
concept. This is an ongoing activity of NATO which they do.
    Senator Ashcroft. If the concept is to be changed so that 
NATO becomes something that is different than what we 
originally developed it as in 1949, would that concept be 
resubmitted to the U.S. Senate for its review?
    Secretary Albright. We will all be discussing it. I think 
that it is not a basic undoing of the treaty alliance that was 
signed. So it is my understanding that that is not what would 
happen.
    It is an alliance that was created in 1949 and needs to 
make sure that it stays valid, vivid, and able to deal with the 
problems of the day. I know the things that I did in 1949 bear 
little relationship to what I am doing now.
    The Chairman. Thank you very much.
    Let the Chair say that I don't think I have ever made a 
speech that I didn't think while driving home ``why didn't I 
say so and so?'' I have not testified before many committees, 
but I want to give you an opportunity, if you have anything 
else to add to the record, to do so because this is important.
    Let's take a few minutes for that, if you will.
    We will start with you, Senator, Mr. Secretary.
    Secretary Cohen. In response to which, Senator Helms?
    The Chairman. Whatever.
    Secretary Cohen. Just generally speaking?
    Senator Biden. Is there anything you have not said?
    The Chairman. If you are satisfied with everything you have 
said, fine.
    Secretary Cohen. I don't have anything to add to what I 
have said before.
    The Chairman. All right.
    Madam Secretary.
    Secretary Albright. I would just like to say, Mr. Chairman, 
that we are very grateful for all the time the committee has 
given to this very important issue. I think we are involved in 
an historic challenge and we are doing this together. I think 
we are all going to feel very good about what we are deciding 
here, and I very much welcome your partnership in this.
    Thank you.
    The Chairman. By the way, Madam Secretary, we get all sorts 
of calls in Senate offices. They tell me that we got one in 
mine from a gentlemen who suggested we make Mr. Annan Secretary 
of State. The young lady said what do I tell him. Just tell 
him, I said, that he, that Kofi, will not get a hearing. 
[General laughter]
    Senator Biden. That settles it, then. [General laughter]
    The Chairman. General?
    General Shelton. I have nothing to add, Mr. Chairman. Thank 
you. It has been an honor to be here today.
    The Chairman. Thank you all very much.
    The record will remain open for 3 days for questions from 
Senators in writing. If the Secretaries and the General can get 
those answers in by Monday, it will allow us to proceed to a 
business meeting next week.
    Thank you again for coming.
    I thank the audience, all the aides, and everybody else for 
being here and for your patience.
    Secretary Albright. Thank you.
    Secretary Cohen. Thank you, Mr. Chairman.
    The Chairman. There being no further business to come 
before the committee, we stand in recess.
    [Whereupon, at 12:12 p.m., the committee recessed.]

 
                            A P P E N D I X

                              ----------                              


                Prepared Statement of Secretary Albright

    Chairman Helms, Senator Biden, members of the committee: It is my 
high honor to appear with my colleagues to present the protocols of 
accession to the North Atlantic Treaty of 1949 that will add Poland, 
Hungary and the Czech Republic to NATO. We view the ratification of 
these protocols as an essential part of a broader strategy to build an 
undivided, democratic and peaceful Europe. We believe this goal is 
manifestly in America's own interest, and that it merits your strong 
support.
    We are approaching the culmination of a remarkable process. It 
began four years ago when President Clinton and his fellow NATO leaders 
decided that the question was not whether NATO would welcome new 
members, but when and how it would do so. It moved forward in Madrid, 
when, after months of study and deliberation, the Alliance agreed that 
Poland, Hungary and the Czech Republic would make NATO stronger and met 
every qualification for membership. It advanced two weeks ago, when 
President Clinton transmitted to the Congress the documents that will, 
with your consent, make these three nations America's newest allies.
    I want to stress today, Mr. Chairman, that from the start, the 
Administration's decisions have been shaped by our consultations with 
you, with this committee and with others, with the NATO Observer Group, 
and with your colleagues in both Houses of Congress and both parties. 
Over the last few years, and especially the last few months, you have 
truly put the ``advice'' into the process of advice and consent. Our 
discussions have been a model of the kind of serious, bipartisan 
conversation we need to be having with the Congress and the American 
people about our nation's role in the world.
    Of course, this is not the first time we have discussed NATO 
enlargement together. It is also not the first time that we as a nation 
have considered the addition of new members to our alliance.
    Almost 50 years ago, my predecessor Secretary Dean Acheson 
transmitted to President Truman the original North Atlantic Treaty. He 
pointed out that if NATO was to be ``fully effective'' it had to be 
open to ``as many countries as are in a position to further the 
democratic principles upon which the Treaty was based, to contribute to 
the security of the North Atlantic area, and . . . to undertake the 
necessary responsibilities.''
    In the years since, the Senate has given its consent to the 
admission of Greece, Turkey, Germany and Spain into NATO. Each time, 
the Alliance became stronger. Each time, old divisions were overcome. 
Each time, new nations became anchored, once and for all, in the 
community of democracies that NATO exists to unite and protect. And 
this time will be no different.
    But this moment is historic in another way. For if the Senate 
agrees, NATO will, for the first time, step across the line it was 
created to defend and overcome--the line that once so cruelly and 
arbitrarily divided Europe into east and west.
    During the Cold War, I'm sure some of you had the strange 
experience of seeing that line up close. There were bunkers and barbed 
wire, mine fields and soldiers in watchtowers fixing you in their 
crosshairs. On one side were free people, living in sovereign 
countries. On the other were people who wanted to be free, living in 
countries being suffocated by communism.
    Go to the center of Europe today, and you would have to use all the 
powers of your imagination to conjure up these images of that very 
recent past. There are still borders, of course, but they are there to 
manage the flow of trucks and tour buses, not to stop troops and tanks. 
On both sides, people vote and speak and buy and sell freely. 
Governments cooperate with one another. Soldiers train and serve 
together. The legacy of the past is still visible east of the old 
divide, but in the ways that matter, the new democracies are becoming 
indistinguishable from their western neighbors.
    We are here today, Mr. Chairman, because the status quo in Europe 
was shattered by the geopolitical equivalent of an earthquake. That 
earthquake presented us with a dual challenge: first, how to preserve a 
favorable security environment into the next century; and second, how 
to seize the opportunity to build a Europe whole and free.
    In meeting that challenge, NATO faced a blunt choice. Would our 
alliance be the last institution in Europe to continue to treat the 
Iron Curtain as something meaningful? Or would it aid in Europe's 
reunification and renewal? Would it exclude from its ranks a whole 
group of qualified democracies simply because they had been subjugated 
in the past? Or would it be open to those free nations that are willing 
and able to meet the responsibilities of membership and to contribute 
to our security?
    I believe NATO made the right choice. NATO's decision to accept 
qualified new members will make America safer, NATO stronger, and 
Europe more stable and united.
    We recognize, Mr. Chairman, that the decision to build a larger 
NATO has implications for our security that must be weighed carefully. 
It involves solemn commitments. It is not cost-free. It can only be 
justified if it advances America's strategic interests.
    Last October, I had the opportunity to come before you to make the 
case that a larger NATO will serve our interests. I will try to 
summarize that case today, and then focus on the questions and concerns 
that may still exist.
    First, a larger NATO will make America safer by expanding the area 
of Europe where wars do not happen. By making it clear that we will 
fight, if necessary, to defend our new allies, we make it less likely 
that we will ever be called upon to do so.
    Is central Europe in immediate jeopardy today? It is not. But can 
we safely say that our interest in its security will never be 
threatened? History and experience do not permit us to say that, Mr. 
Chairman.
    There is, after all, the obvious risk of ethnic conflict. There is 
the growing danger posed by rogue states with dangerous weapons. There 
are still questions about the future of Russia. Whatever the future may 
hold, it is hardly in our interest to have a group of vulnerable and 
excluded states in the heart of Europe. It will be in our interest to 
have a vigorous and larger alliance with those European democracies 
that share our values and our determination to defend them.
    A second reason is that the very prospect of a larger NATO has 
given the nations of central and eastern Europe an incentive to solve 
their own problems. To align themselves with NATO, aspiring allies have 
strengthened their democratic institutions, improved respect for 
minority rights, made sure soldiers take orders from civilians, and 
resolved virtually every old border and ethnic dispute in the region. 
This is the kind of progress that can ensure outside powers are never 
again dragged into conflict in this region. This is the kind of 
progress that will continue if the Senate says yes to a larger NATO.
    A third reason why enlargement passes the test of national interest 
is that it will make NATO itself stronger and more cohesive. Our 
prospective allies are passionately committed to NATO. Experience has 
taught them to believe in a strong American role in Europe. Their 
forces have risked their lives alongside ours from the Gulf War to 
Bosnia. They will add strategic depth to the Alliance, not to mention 
well over 200,000 troops.
    Two weeks ago, Foreign Minister Geremek of Poland was in Washington 
along with his Czech and Hungarian colleagues, and he was asked why his 
country wants to join NATO. He replied that Poland wants to be anchored 
at long last in the institutions of the transatlantic community. He 
said ``we owe to America this revival of Poland's attachment to the 
West . . . Very simply, we owe our freedom to the United States.''
    Mr. Chairman, let us remember that these countries look forward to 
assuming the heavy responsibilities of NATO membership not as a burden, 
but as an opportunity. An opportunity to show the world that they are 
now mature, capable democracies, ready, willing and able to give 
something back to the community of freedom that stood by them in their 
years of darkness.
    This point should be especially important to us today. Our nation 
is now engaged in an effort to ensure Iraq's compliance with UN 
Security Council resolutions. We have marshaling the support of other 
nations in this just cause. When I met with the Foreign Ministers of 
our three prospective allies two weeks ago, I asked them to stand by 
our side. Their response was swift and sure. If we have to take 
military action, they will be with us.
    The bottom line is that Poland, Hungary and the Czech Republic are 
already behaving as loyal allies. They will be good allies in the 
future, of that I have no doubt.
    Nevertheless, I know that there are still serious critics who have 
legitimate questions about our policy. We have grappled with many of 
the same questions ourselves, and I want to address a few of them 
today.
    Some of the concerns revolve around the potential cost of a larger 
NATO. The last time I was here, Mr. Chairman, we could only talk about 
estimates, for NATO had not yet come to agreement on this issue. Now, 
all 16 allies have agreed on the numbers and backed them up with 
commitments. We know today that the costs will be real, but also that 
they will be manageable, that they will be met, and that they will be 
shared fairly.
    Some of those costs will be paid by our three new allies. I know 
some people have argued that these new democracies should not be asked 
to bear additional military burdens at a time when they are still 
undergoing difficult economic transformations. But these nations will 
be modernizing their armed forces in any case, and they have told us 
that in the long run it will be cheaper to do so within NATO than 
outside it.
    Ultimately, only the people of these countries can decide what is 
best for their future. Today, in all three, solid public majorities and 
every mainstream party support membership in NATO. All three have 
growing economies. All three are building stronger, leaner, more 
professional armed forces. They are telling us they see no 
contradiction between security and prosperity and we should not 
substitute our judgment for theirs.
    There are also people who worry that the cost of a larger NATO--to 
us and to our allies--will be far greater than the Alliance has 
projected.
    That fear is partly based on a natural belief that governments tend 
to underestimate costs, sometimes severely, sometimes on purpose. But 
that is not the case with NATO. Our contributions to NATO are a 
budgeted line item, not an open-ended entitlement. They are funded in 
an annual exercise that will be fully in your own control. There is no 
history of running NATO on supplemental appropriations.
    That fear is also partly based on an assumption that we will 
someday have to respond to a military threat to our new allies. If we 
are called upon to send troops to defend our new allies, then the cost 
will surely grow. But then, if such a dire threat were to arise, the 
cost of our entire defense budget would grow, whether we enlarge NATO 
or not. If you believe, as I do, that we have a security interest in 
the fate of these countries, then the most effective--and cost-
effective--way to protect that interest is to make them allies now. As 
President Havel of the Czech Republic has rightly said: ``Even the 
costliest preventive security is cheaper than the cheapest war.''
    Another concern that I want to address today is that adding new 
members to NATO could diminish the effectiveness of the Alliance and 
make it harder to reach decisions----in short, that it could dilute 
NATO. But we have pursued NATO enlargement in a way that will make the 
Alliance stronger, not weaker.
    This is why we have insisted that any nation wishing to join NATO 
must meet the strict conditions that former Secretary of Defense Perry 
enunciated in 1995: They must be market democracies with civilian 
control of the military, good relations with neighbors and the ability 
to contribute to NATO's mission of collective defense. This is why when 
President Clinton went to the Madrid summit last July, he insisted that 
only the strongest candidates be invited to join in this first round. 
As you know, the President was under some pressure, both at home and 
abroad, to agree to four or five new allies. He agreed to three, 
because we are determined to preserve NATO's integrity and strength.
    Ultimately, what matters is NATO's effectiveness in action. We need 
to be confident that our allies have the resolve to stand with us when 
the going gets tough. So let us remember: When we asked Poland, Hungary 
and the Czech Republic to join us in the Gulf, they did not hesitate. 
When we asked them to put their soldiers in harm's way in Bosnia, they 
did not hesitate. When we asked Hungary to open its bases to American 
troops, so they could deploy safely to Bosnia, it did not hesitate.
    NATO is a military alliance, not a social club. But neither is it 
an inbred aristocracy. We must be prudent enough to add members 
selectively, but we must be smart enough to add those members that will 
add to our own security. These three will. Others may in the future.
    And that in turn, raises another question I know a number of 
Senators have: namely, where will this process lead us and what about 
those countries that are not now being invited to join?
    Part of the answer lies in NATO's Partnership for Peace and in its 
new Euro-Atlantic Partnership Council. Through these arrangements, 
virtually every nation from Armenia to Finland can act side by side 
with NATO and help to shape the exercises and missions we undertake 
with them.
    But an equally important part of the answer lies in NATO's 
commitment to keep its door open to additional members. This is central 
to the logic of a larger NATO. After all, we set out on this policy 
because we believe that NATO cannot respect and must not perpetuate 
arbitrary lines of division in Europe. We gain nothing by ruling out a 
country as a future ally if it is important to our security, and if it 
proves that it is willing and able to contribute to our security.
    Let me say very clearly that we have made no decisions about who 
the next members of NATO should be or when they might join. But we 
should also have some humility before the future.
    How many people predicted in 1949 that Germany would so soon be a 
member of the Alliance? Who could have known in 1988 that in just ten 
years, members of the old Warsaw Pact would be in a position to join 
NATO? Who can tell today what Europe will look like in even a few 
years? This is just one reason why we want to preserve our 
flexibility--and that of those who will lead the Alliance in years to 
come.
    Some now propose that we freeze the process of enlargement for some 
arbitrary number of years. Some of these people have said, with candor, 
that their real aim is to freeze the process forever. Let me be 
absolutely clear: this Administration opposes any effort in the Senate 
to mandate an artificial pause in the process of NATO enlargement.
    Last July, Mr. Chairman, President Clinton and I had the amazing 
experience of traveling the length and breadth of central and eastern 
Europe. In those countries that were not invited to join NATO, we were 
met by enthusiastic crowds and by leaders who support the decisions the 
Alliance made in Madrid. They know they have a ways to go before they 
can be considered. Yet just the possibility of joining has inspired 
them to accelerate reform, to reach out to their neighbors, and to 
reject the destructive nationalism of their region's past.
    A mandated pause would be heard from Tallinn in the north to Sofia 
in the south as the sound of an open door slamming shut. It would be 
seen as a vote of no confidence in reform-minded governments from the 
Baltics to the Balkans. It would be taken as a sign that we have 
written these countries off and diminish the incentive they have to 
cooperate with their neighbors and with NATO. It would fracture the 
consensus NATO itself has reached on its open door. It would be at once 
dangerous and utterly unnecessary, since the Senate would in any case 
have to approve the admission of any new allies. It would defeat the 
very purpose of NATO enlargement.
    Mr. Chairman, let me take a few moments to discuss one final key 
concern: the impact of a larger NATO on Russia and on our ties with 
that country. I want to stress that this concern has to do mostly with 
perceptions, not reality. And while perceptions can be important, our 
policies must follow from what we know to be true.
    For example, there is a common perception that we are moving NATO, 
its tanks and bombers, and even its nuclear weapons right up to 
Russia's borders, and that therefore Russia has a reason to be 
threatened by a larger NATO. The reality is quite different.
    Proximity is not the issue. Russia and NATO have shared a common 
border since 1949--both Russia and Norway know this is nothing new. 
There are no tensions along the border between Poland and the Russian 
enclave of Kaliningrad on the Baltic Sea coast. Hungary and the Czech 
Republic, meanwhile, are closer to France than they are to the nearest 
corner of Russian soil.
    As for weaponry, NATO has announced that in the current and 
foreseeable security environment, it has no plan, no need and no 
intention to station nuclear weapons in the new member countries, nor 
does it contemplate permanently stationing substantial combat forces. 
Just as important, the prospect of joining NATO has given our future 
allies the confidence to avoid arms buildups and to work constructively 
to establish lower limits on conventional forces. Their ties with 
Russia are more normal and cooperative today than at any time in 
history.
    If we did not enlarge NATO, exactly the opposite could happen. The 
central European nations would feel isolated and insecure. They would 
undoubtedly spend more on defense and they might reject regional arms 
control. As Senator Biden has pointed out, they would probably create 
their own mutual security arrangements, which might well be anti-
Russian in character. Ironically, the problems Russia fears a larger 
NATO will cause are precisely the problems a larger NATO will avoid.
    A more worrisome perception is that Russian opposition to 
expansion, whether justified or not, is hurting our relationship with 
Moscow. But once again, the reality is different.
    I have spent much time during the last year talking with my Russian 
counterpart, Foreign Minister Primakov and other Russian leaders. I can 
assure you that the issue of enlargement is not a cloud that shadows 
these discussions. I believe our relationship is developing according 
to its own rhythms and priorities, and we have made significant 
progress in a number of key areas.
    The new NATO-Russia Permanent Joint Council is up and running. 
Russia is taking part in the Partnership for Peace. Our soldiers and 
diplomats are working together in Bosnia. Russia was a full participant 
at the Summit of the Eight in Denver last year, and we are helping it 
prepare for membership in the World Trade Organization. With our 
support, Russia has continued on the path of economic and democratic 
reform.
    We are pushing ahead with arms control as well: Russia is a year 
ahead of schedule in slicing apart nuclear weapons under the START I 
treaty. We signed a START II protocol that helps clear the way for the 
next phase in strategic arms reductions, and, we hope, will expedite 
Russian ratification of that treaty. Presidents Clinton and Yeltsin 
have agreed on the outlines of a START III treaty that would cut 
strategic arsenals to 80 percent below their Cold War peaks, once START 
II enters into force. Russia has joined us in banning nuclear testing 
and it has followed us in ratifying the Chemical Weapons Convention. We 
have begun to adapt the Conventional Forces in Europe Treaty.
    We are also working with Russia to improve the security of nuclear 
weapons and materials, making good use of the programs pioneered in the 
Nunn-Lugar legislation. We are helping Russia stop production of 
weapons-grade plutonium. As we speak, our experts are helping to build 
safe and secure storage facilities for tons of fissile material, and to 
upgrade security at nuclear weapons storage sites throughout Russia.
    I am not here to pretend that everything is perfect in our 
relationship with Russia. We are frankly concerned about the slow pace 
of action on START II ratification. We have serious concerns about 
Russia's relationship with Iran. Our perspectives on Iraq differ as 
well, though we fully agree on the fundamental goal of full Iraqi 
compliance with UN resolutions.
    But let us be clear. It is a big mistake to think that every time 
Russia does something we do not like, it is to ``punish'' us for 
bringing Hungary or Poland into NATO.
    Our disagreements with Russia, especially about the Middle East and 
Gulf, have come about because of the manner in which Russia is defining 
its national interests in that part of the world. These differences 
existed long before NATO decided to expand. If the Senate were to 
reject enlargement, we would not make them go away. We would, however, 
be turning our backs on three nations that have stood with us on Iraq, 
on Iran and on the range of security issues that matter to America.
    Mr. Chairman, I think there is a larger issue at stake here. Those 
critics who focus on Russia's opposition to enlargement are making an 
assumption that Russia will always define its national interests in 
ways inimical to our own. These voices assume Russia will always be 
threatened and humiliated by the desire of its former satellites to go 
their own way; that it will never get over the end of its empire. They 
say that we should be realistic and accept this. They would have us ask 
Russia's neighbors to set aside their legitimate aspirations 
indefinitely for the sake of US-Russian cooperation.
    I believe those assumptions sell Russia short. I believe they 
ignore the progress we have made, and that Russia has made in coming to 
terms with a world that has radically changed.
    I am confident America can build a true partnership with a new 
Russia. But the partnership we seek cannot be purchased by denying a 
dozen European countries the right to seek membership in NATO. A 
partnership built on an illegitimate moral compromise would not be 
genuine and it would not last.
    I am also confident that Russia can succeed in its effort to become 
a prosperous, stable democracy--that it is becoming a normal power that 
expresses its greatness by working with others to shape a more just and 
lawful world. That transformation will only be delayed if we give 
Russia any reason to believe that it can still assert its greatness at 
the expense of its neighbors in central Europe. It is much more likely 
to advance as Russia recognizes that the same rules apply to every part 
of Europe; that Poland is no different from Portugal in its right to 
pursue its own aspirations.
    Mr. Chairman, for all these reasons and more, I believe that the 
choice before you involves much, much more than the immediate future of 
Poland, Hungary and the Czech Republic. It involves the future security 
of the United States; the future of an undivided Europe; the future of 
Russia and the character of our relationship with it.
    In a sense, it involves the most basic question of all in our 
foreign policy: how do we avoid war and maintain a principled peace?
    For some people, the answer seems to revolve around catch phrases 
such as globalization, and the naive hope that people who trade and 
exchange e-mails won't fight. But I do not believe we can bet our 
future on such an assumption. This is still a dangerous world.
    We need to remain vigilant and strong, militarily and economically. 
We must strive to maintain the cordial relations among major powers 
which has lent brightness to the promise of our age. At the same time, 
we cannot assume that great power diplomacy alone will achieve the 
peaceful conditions in the future that it has so often failed to 
achieve in the past.
    That is why we must also strengthen the proven alliances and 
institutions that provide order and security based on realism and law, 
for nations large and small. Institutions that deter aggression, and 
that give us a means to marshal support against it when deterrence 
fails.
    That is what NATO does. That is why we decided to keep it after the 
Cold War ended. That is why we decided to expand it. That is why I 
thank you today, Mr. Chairman, members of the Committee, for working 
with us to make this day possible.
    I commend you and the Committee for the time and effort you have 
dedicated to this vital decision. The NATO enlargement debate has not 
always been in the limelight. It is not about responding to the crisis 
of the moment; it is about the less glamorous, less headline-grabbing 
business of preventing the crises of the future. It calls for serious 
attention to be paid to the long-term challenges facing our country. 
And that is what you have done, with an emphasis on patriotism, not 
partisanship.
    I thank you for helping to make this Committee, and the Senate as a 
whole, our full partner in the creation of a larger, stronger, better 
NATO. I look forward to your questions today and in the days to come.

                               __________

Responses to Additional Questions Submitted for the Record to Secretary 
                                Albright

                 Questions Submitted by Chairman Helms

    Question 1. Does the Administration understand the requirement to 
consult with and seek the advice of the Senate prior to reaching a 
decision to invite additional members to join NATO?

    Answer. We understand fully the Senate's constitutional 
responsibility to advise and consent to the ratification of any Treaty 
into which the United States enters. As we have done in the past, as 
well as on this occasion, we will keep the Senate and the Foreign 
Relations Committee fully informed of significant developments with 
regard to possible future rounds of NATO enlargement and seek its 
advice on important decisions. We would of course be required to obtain 
the Senate's advice and consent to any future amendments to the 
Washington Treaty that enlarge NATO.

    Question 2. How does NATO currently resolve disputes among its 
members? Are improvements necessary in this process?

    Answer. NATO has a dispute resolution mechanism--the North Atlantic 
Council (NAC)--where its members discuss common security concerns, 
coordinate their security policies in mutually beneficial ways, and 
prepare for common security challenges. It provides a robust but 
flexible framework within which member states have been able 
effectively to ease tensions, build mutual confidence, and reduce or 
eliminate areas of conflict. Working through the NAC and other NATO 
fora, Allies have developed the habit and practice of constant 
consultation and interaction on a wide range of issues and policies 
that concern their basic national interests. Within NATO, the Allies 
have reinforced their commitment to managing differences through 
dialogue and consultation. The NATO Secretary General also plays an 
active role in dealing with disputes between allies. Beyond this, 
however, we do not believe it is in the interests of the U.S. or the 
Alliance to subordinate NATO's core mission of collective defense to 
the settlement of disputes among members that might reach well beyond 
the security realm. There are other institutions available to perform 
this function, and we support them.

    Question 3. Should the North Atlantic Treaty be revised to allow 
for the expulsion of members who do not meet NATO's principles of 
democracy?

    Answer. Creation of a mechanism to allow expulsion of members who 
do not live up to NATO's principles of democracy would require revision 
of the NATO Treaty. We looked into this question informally last year 
at the request of a member of the Senate Foreign Relations Committee 
and found no support among the Allies for such a revision of Treaty. An 
expulsion provision would, moreover, require abandoning the core 
principle of consensus in NATO decision-making, which we regard as a 
key factor protecting U.S. freedom of action under the Treaty.

                  Questions Submitted by Senator Biden

    Question 1. Former Secretary of State Henry Kissinger said that 
such missions as peace operations and humanitarian assistance are the 
marks of a collective security organization and not a collective 
defense organization. How do you respond to such criticism?

    Answer. We have made it clear that NATO will remain a military 
alliance, dedicated to a core mission of collective defense. NATO's 
other missions--from crisis management to operations like Bosnia--
neither replace nor diminish that core mission. They are fully in line 
with Article IV of the Washington Treaty. In the post-Cold War world 
NATO is faced less with a single overarching threat than with a 
spectrum of possible dangers, many outside NATO territory, for which it 
must be prepared. NATO has the ability to do both, and the force 
structures required are compatible.
    NATO is also not getting into ``nation-building.'' Enlarging the 
Alliance reinforces democratic trends in the region, but NATO itself 
does not conduct democracy promotion programs. And no mission can be 
undertaken without a consensus among the Allies. However, the unique 
organization and prestige that NATO can bring to securing allied 
interests in stability make it a resource that cannot be left aside in 
extraordinary circumstances. The success to date of the NATO-led effort 
in Bosnia underlines this.

    Question 2. Will NATO membership cause defense spending in Poland, 
Hungary and the Czech Republic to increase at the expense of more 
important domestic priorities? If so, do you foresee problems down the 
road in their ability to fulfill their commitment to the Alliance?

    Answer. Poland, Hungary and the Czech Republic have all identified 
defense spending as one of their most important domestic priorities.
    They realize that most of the defense spending related to NATO 
membership is necessary for an effective military in a modern 
democratic state. Moreover, the cost of defense would undoubtedly be 
higher if the invitees did not join NATO.
    Positive growth rates and sound fiscal and monetary policy in each 
country will enable the invitees to increase defense spending and 
fulfill commitments to pay the direct costs of NATO enlargement.
    Of course, the invitees will have to consider other significant 
needs to determine how much can be spent on defense. We do not foresee, 
however, problems down the road in their ability to maintain the 
financial commitment necessary to be effective Allies.

    Question 3. How are financial contributions shared between NATO and 
Russia to pay for the Permanent Joint Council?

    Answer. NATO and Russia have agreed to share all costs associated 
with Founding Act, including operation of the Permanent Joint Council 
and activities conducted under its auspices. NATO and Russia are 
currently engaged in working out the detailed arrangement for 
determining and distributing those costs, including how to evaluate 
such in-kind contributions as interpreting services.
    U.S. policy is to ensure that costs are shared equitably between 
NATO and Russia. Russia's willingness to assume an equitable share of 
costs is one of the factors NATO will consider in assessing the degree 
of Russian interest in and commitment to developing the NATO-Russia 
relationship.

    Question 4. The NATO-Russia Founding Act is expected to allow 
unprecedented access to NATO structures and deliberations, including a 
permanent Russia liaison at the Supreme Headquarters Allied Powers 
Europe (SHAPE). Will Russia permit similar representation by NATO at 
the Russian General Staff? Will the United States insist that absolute 
reciprocity between NATO and Russia be achieved?

    Answer. The Founding Act does not provide Russia with access to 
NATO deliberations. The North Atlantic Council remains the supreme 
decision making body of the Alliance where internal Alliance matters 
are discussed and decided. Only members of NATO are represented on the 
North Atlantic Council. The Permanent Joint Council, created by the 
Founding Act, provides Russia with a voice on European security issues 
in which it has a legitimate interest, but it does not give Russia a 
role in the North Atlantic Council or a veto over NATO's decision-
making or actions.
    To support the military components of the Permanent Joint Council 
and the enhanced military cooperation envisioned by the Founding Act, 
the Act provides for NATO and Russia to establish military liaison 
missions at various levels on the basis of reciprocity. To date, NATO 
and Russia have not finalized any arrangements to establish military 
liaison missions, either at NATO or in Russia.
    The NATO-Russia relationship is a two way street. The Founding Act 
explicitly commits NATO and Russia to develop their relationship on the 
basis of reciprocity. This commitment was undertaken at the highest 
political level both within the Alliance and in Russia and applies to 
military as well as diplomatic relations. In other words, any Russian 
military liaison missions will have appropriate NATO counterparts.

                Questions Submitted by Senator Feingold

    Question 1. How do you explain the disparities between the various 
cost estimates for the United States' share of NATO enlargement, which 
have ranged from $2 billion to $7 billion?
    What are the latest estimates for the United States' share of NATO 
enlargement?
    How confident are you that the United States' share will not rise 
above $7 billion?

    Answer. The NATO study and the U.S. estimate came to different 
conclusions because they were different in several key areas. First, 
the portion of the Administration's earlier U.S. cost estimate that 
addressed what the Alliance would collectively pay is $4.9-6.2B (not 
$27-35B), and should be compared to the $1.5B NATO estimate.
    Second, prior to NATO's identification of new members, the 
Administration outlined general requirements and an illustrative cost 
estimate for four potential new members; after the July 1997 Madrid 
Summit at which NATO named the three invitees, NATO identified detailed 
military requirements and a common-funded cost estimate for three new 
members.
    Third, NATO's studies were based on more recent and detailed data 
on new members' infrastructure (e.g., airbases, road and rail 
networks), including site visits, that revealed significantly better 
conditions than the Administration had previously assessed. Other 
factors included the following. The Administration assumed common 
funding for some requirements (e.g., airfield off-loading equipment) 
that NATO determined are nationally funded. The Administration also 
used higher cost factors for needed upgrades (e.g., air defense C2) in 
some instances.
    Finally, there were modest differences in requirements with a 
significant cost impact. While some military requirements differ, the 
differences are modest and not operationally significant. Both studies 
use the same reinforcement strategy and developed broadly similar 
military requirements, including the number and types of reinforcing 
forces and reception facilities. However, the Administration's study 
included some requirements that NATO did not include (e.g., more 
ambitious upgrades to airfields and training facilities).
    In the Administration's February 1998 Report to the Congress on the 
Military Requirements and Costs of NATO Enlargement, they assessed the 
resource implications of enlargement based on NATO's agreed cost 
estimate of about $1.5 billion from 1998 through 2008. The U.S. share 
of these enlargement costs is estimated to be around $400 million over 
this period.
    There is about $412M in the Administration's FY99 budget request 
for direct national contributions to NATO's common-funded military 
budgets. When this request was finalized, none of this money was 
earmarked for enlargement-related requirements. The United States 
expects to incur about $10M in enlargement costs in FY99, which will be 
met from within the $412M budget request.
    In FY00-01, the Administration expects to request $5-12 million 
above current budget levels for NATO common-funded military budgets to 
cover projected enlargement costs. Beginning in FY02, as the bulk of 
enlargement costs begin to be incurred, the Administration expects that 
virtually all of the estimated enlargement costs will have to be 
reflected in increased DOD budget requests for contributions to NATO's 
common-funded military budgets. The Administration projects that its 
budget request in FY02 will need to be increased by around $32M to 
cover estimated enlargement costs.
    In 2003 and beyond, the funding picture is less clear, because NATO 
only assessed in detail the impact of enlargement on common-funded 
budgets out to 2002. NATO expects that common-funded enlargement costs 
will peak in 2005. Considering this likely expenditure profile, the 
Administration believes that most or all of these estimated costs will 
require resources above current budget levels for NATO common-funded 
military budgets.
    The Administration's review concluded that NATO developed a sound 
and reliable cost estimate, provided that the specific facilities to be 
selected during NATO's ongoing force planning process have essentially 
the same characteristics as those visited by the International Staff 
during NATO's development of its cost estimate. The Department has 
every reason to expect that this will be the case, thus we are very 
confident that the U.S. share will not rise above $7 billion.

    Question 2. To what extent are the governments of Poland, Hungary 
and the Czech Republic prepared to take on the financial commitment 
involved in NATO membership?

    Answer. We are confident that Poland, Hungary and the Czech 
Republic will take on the financial commitment involved in NATO 
membership. Indeed, to prepare for this commitment, all three have 
increased their defense budgets to fund necessary defense reforms, and 
to bring them in line with the standard outlays of NATO Allies.
    Further, Poland, Hungary and the Czech Republic have adopted sound 
monetary and fiscal policies, including government budgets with reduced 
deficits. These budgets adequately cover their commitments to increased 
military spending.
    These policies, coupled with positive growth rates in each country, 
will enable the governments to increase defense spending and fulfill 
their commitment to pay the direct costs of NATO enlargement. Of 
course, these countries have to consider other significant needs to 
determine how much can be spent on defense.
    Most of the reforms in the defense sector related to NATO 
membership are necessary for an effective military in a modern 
democratic state. Moreover, the cost of defense would undoubtedly be 
higher if these countries did not join NATO.

    Question 3. Some have expressed concern about the problems the 
United States experienced in attempting to build a coalition against 
Iraq, including disagreement with some of our NATO partners. What does 
this suggest about the cohesiveness of NATO as a military alliance?

    Answer. It suggests that nearly all of our NATO allies are with us 
as partners in tangible ways when we face such a challenge. All members 
of the NATO Alliance decried Saddam's flouting of UN Security Council 
resolutions. Thirteen out of sixteen NATO allies offered support for 
the international coalition formed to ensure Saddam's full compliance 
with those resolutions. Additionally, the three states that have been 
invited to join NATO were also very supportive, meaning that sixteen 
out of nineteen nations backed the coalition.

    Question 4. When do you anticipate a second round of NATO 
enlargement? Is the probability of a second round contingent on a 
successful implementation of the first round? What countries do you 
think would be included in a second round of NATO enlargement?

    Answer. Speculation as to when the next round of NATO enlargement 
might take place and which countries might be included would be 
premature and ultimately damaging to the process. We are committed to 
review the enlargement process at the NATO Summit in 1999. However, 
there has been no decision as yet that any new countries will be 
selected in 1999, and no country is guaranteed a place in any future 
round. Our present priorities are to ensure that the current round of 
enlargement is successful and to help those countries that aspire to 
NATO membership in the future to become the best candidates they can 
be. Clearly, a smooth and successful first round is the best way to 
ensure the process continues.

    Question 5. Do you think we will continue to have waves of 
enlargement until all qualified countries have been included?

    Answer. We believe it is unwise to provide an exact answer for when 
and where the enlargement process will end. We have said that these 
first new members will not be the last, but we would be guilty of 
hubris if we pretended to know what states might look attractive 20 or 
30 years from today. The writers of the original NATO Treaty left this 
question vague as well, and for a reason. They said we should remain 
open to the possibility of adding any European state that was in a 
position to contribute to the security of the Alliance. It was a good 
idea then; it remains a good idea now. We also should understand the 
dangers of drawing an arbitrary line prematurely.
    Whenever we and our successors consider adding new states, we must 
follow a few principles: new members must make the Alliance stronger, 
not weaker, and we must preserve the cohesion of the Alliance. As long 
as we follow those principles, we will be in good shape.

    Question 6. What impact will NATO enlargement have on our relations 
with Russia? Will this change if all European countries except Russia 
are accepted into NATO?

    Answer. Many Russian leaders and politicians have expressed 
opposition to NATO enlargement and argue that enlargement threatens 
Russia in a period of strategic weakness. This is obviously an 
inaccurate statement: NATO enlargement threatens no country.
    U.S.-Russian relations are marked by continued cooperation across a 
broad range of issues: more nuclear weapons than ever are being 
destroyed, and the START II treaty is on the Duma's agenda. We continue 
to work closely with the Russian Federation, both at the NATO-Russia 
Permanent Joint Council as well as on the ground in Bosnia. The U.S. 
continues its multifaceted efforts to assist Russia in building a 
market economy based on rule of law.
    It is a mistake to think that the fate of Russian democracy hinges 
on whether NATO expands or not. Russia's future as a free and 
prosperous nation will depend upon the ability of its leaders and 
citizens to build a stable, free, and open society, to stimulate 
economic growth, and to spread its benefits. NATO enlargement as an 
issue has not been at the heart of Russian domestic politics. Most 
average Russians are concerned more with the economy and employment 
than enlargement.
    On the last issue of Europe in, Russia out, I would state that I 
cannot respond to hypothetical questions. However, our policy is to 
support Russian integration into global security and economic 
institutions. Whether we will face in the future such a situation is 
unknown, but we expect our policy towards Russia to remain one of 
engagement, not isolation.

                               __________

                 Prepared Statement of Secretary Cohen

    Senator Helms, Senator Biden, members of the Committee, thank you 
for the opportunity to appear before you today. It is a great privilege 
to be here to discuss one of the President's top foreign policy 
objectives: NATO enlargement. Last year the Secretary of State and I 
appeared jointly before the Senate Armed Services and Appropriations 
Committees to discuss this topic. I welcome the opportunity to continue 
our dialogue with the Senate.

                           Why Enlarge NATO?

    Nowhere are American concerns more vital or our efforts more 
focused than in Europe. The United States maintains a strong and real 
commitment to Europe as demonstrated by our troops on the ground, our 
capacity to reinforce as needed, and our political engagement in 
seeking to resolve problems. America makes this commitment not as an 
act of charity, but because the security of Europe is vital to our own 
security, as events in this century have shown.
    Twice before, our veterans witnessed how even the vast Atlantic 
Ocean could not protect us from being drawn into the fiery hatreds of 
the Old World. In World War I they marched into battle singing, ``We 
won't be back 'til it's over, over there.'' But to our lasting regret, 
when the guns of August fell silent, America ignored the embers of 
hatred that still smoldered in Europe and we missed the opportunity to 
prevent another war, the deadliest in human history.
    Millions of American sons returned to the very same terrain that 
their fathers died defending, and thousands of them paid the ultimate 
price for this missed opportunity. But those who fought in World War II 
gave us a second chance to build a safer world.
    President Truman, speaking of the Marshall Plan, said, ``Our 
purpose from the end of the war to the present has never changed. It's 
been to create a political and economic framework in which lasting 
peace can be constructed.'' Western Europe embraced the Marshall Plan, 
built strong democracies and economies, and developed the strong 
alliance that we call NATO. And American workers prospered as Western 
Europe's economy flourished under the protective umbrella of security 
and stability ensured by NATO. But Joseph Stalin denied the Marshall 
Plan to the other half of Europe when he slammed down the Iron Curtain 
and began a separation of the continent which would last for fifty 
years.
    Today, having emerged victorious from the long winter of the Cold 
War, we have an historic opportunity to complete George Marshall's 
vision and a chance to build a security system for all of Europe. And 
we need to do so. For unfortunately, while the massive Soviet threat 
has evaporated, we continue to face problems as well as opportunities. 
A stable Europe is necessary to anchor America's worldwide presence. 
Threats to European stability and security can still arise from old 
national and ethnic hatreds, from home-grown and state-sponsored 
terrorism, from threats from unstable regions outside Europe, and from 
adversaries prepared to use nuclear, chemical, and biological weapons.

                       Enlargement Enhances NATO

    Some ask whether a larger NATO will be a weaker NATO. A larger NATO 
will be a stronger NATO and will provide a wider allegiance in Europe 
to our values. It was the creation of NATO in 1949 that halted Soviet 
designs on western Europe. It was the enlargement of NATO, with Greece 
and Turkey in 1952, West Germany in 1955, and Spain in 1982, that 
helped strengthen the bulwark of democracy in Europe. If, in the 
future, another direct threat of attack arises, an enlarged NATO would 
have additional manpower, added military capability, more political 
support, and greater strategic depth. Enlargement will enhance, not 
dilute, NATO's military effectiveness and political cohesion.
    Further, by providing an institutional framework for improving 
relations among both members and non-members, an enlarged NATO will 
secure stability for the Twenty-first Century in Central Europe--the 
spawning ground of crises throughout the Twentieth Century. We must 
seize this opportunity to continue to shape the security environment in 
Europe. In doing so, we will provide the security framework in which 
the political democracies and market economies of Central Europe can 
flourish, and thereby enhance stability and reduce the risk that such 
crises will ever emerge. As was the case with nuclear deterrence during 
the Cold War, in this new era NATO enlargement is an insurance policy 
with an unusual twist: by paying a modest premium, we not only will be 
protected in case of fire, we will make a fire less likely to ignite.

                       The Choice of New Members

    Formal membership in NATO carries as President Clinton has said, 
``(t)he most solemn security guarantees.'' Admission to NATO has been 
likened to a door--but I would emphasize that it is a door at the top 
of a staircase. The door is open, but the stairs are steep. And any 
country seeking to walk through the open door must first ascend those 
stairs. Sincere aspiration is not enough to guarantee membership in 
NATO. New members must demonstrate a commitment to: democracy and the 
rule of law, an open market economic system, civilian constitutional 
control of their militaries, peaceful resolution of disputes with their 
neighbors, respect for human rights, and development over time of 
military capabilities interoperable with NATO.
    After discussions with allies, candidate countries, members of 
Congress and within the Administration, the President decided the U.S. 
would support extending invitations to the Czech Republic, Hungary, and 
Poland. The President met with the other leaders of the NATO nations in 
a summit last July, and together they agreed to invite these nations to 
begin accession talks to join the Alliance.
    You have heard it argued that by enlarging NATO we are going to 
create a new dividing line in Europe. That argument fails to appreciate 
the new dynamic that is underway in Europe, erasing these old lines and 
avoiding these new divisions. The mere prospect of having NATO 
membership has unleashed a powerful impetus for peace in Europe. Old 
rivals have settled their historic disputes: Poland and Lithuania, 
Poland and Ukraine, Hungary and Romania, Italy and Slovenia, and 
Germany and the Czech Republic. Without the prospect of NATO 
enlargement, these smoldering embers--rather than being extinguished--
could have been fanned by nationalist fervor.
    This argument also fails to realize that by not enlarging, we would 
allow to stand an illegitimate dividing line drawn across the continent 
by Stalin fifty years ago. Without NATO enlargement, some countries 
would feel compelled to seek security via other avenues, including ones 
potentially destabilizing and contrary to U.S. interests. We must move, 
with Europe, into the future. The Poles, Hungarians, and Czechs are 
vital, vigorous, and dynamic people. They share our ideals. They are 
making remarkable recoveries from decades of foreign domination. Now 
they want to return to their rightful place as equal partners in the 
European family of free and democratic nations. We need them and they 
need us.
    To ensure that enlargement does not draw new dividing lines in 
Europe, we must continue to give careful consideration to the security 
interests and concerns of those states that were not chosen for 
membership at the NATO Summit in Madrid. With no time lines drawn, the 
door to membership is open for future invitations, and no European 
nation is excluded from consideration. We expect other nations to 
become members as they meet the requirements. We need to continue to 
make clear to other aspirant countries that active participation in an 
enhanced Partnership for Peace program is the primary pathway to 
membership in the Alliance and to a solid security relationship with 
NATO. At the same time, there are no ``assured invitations'' in 1999, 
or at any time, and future invitees will be held to the same standards 
as the current three. And, of course, any future accessions will, like 
these three, require Senate approval.

                           What About Russia?

    Any vision of future European security and prosperity must include 
Russia. NATO has embarked on a new relationship with Russia. NATO and 
Russia are erasing old dividing lines every day, not least in our 
interactions in Bosnia where Russian and NATO soldiers patrol side by 
side in the cause of peace. There are some who claim that enlarging 
NATO is going to feed extremism in Russia and jeopardize Russia's move 
toward democracy and cooperation with the West.
    Mr. Chairman, we should not permit these fears to overwhelm the 
facts. Permit me a moment of personal reflection. In February 1997, 
shortly after I was sworn in as the Secretary of Defense, I traveled to 
Bosnia, and met with some of the American troops serving there. During 
lunch, a Russian soldier came up to me and gave me his beret as a 
gesture of peace, saying how proud he was to be serving alongside 
Americans. I still have that beret in my office.
    Last fall, on another trip to Bosnia, I met with the Russian 
commander, General Krivolapov. He concluded the meeting by declaring, 
in Russian, ``one team, one mission'' SFOR's motto adopted by General 
Joulwan. Our new relationship with Moscow must acknowledge Russia's 
changing role in Europe and not be forever bound by the notion of a 
Russia in confrontation with NATO. At the same time, we cannot 
acquiesce to every Russian request.
    The objectives of NATO's new relationship with Russia are: to 
recognize Russia's inherent importance in European security--after all, 
they have been a major factor in European security for 300 years; to 
engage Russia in the new European security order; to facilitate a 
security dialogue; and, when desirable and appropriate, to cooperate 
with Russia. Russia is going to play a role in Europe in any case. Our 
objective is to ensure, through the development of the NATO-Russian 
relationship and a growing network of bilateral and multilateral ties, 
that this role is a positive one. Equally important to remember are the 
limits to NATO's new relationship with Russia: it does not allow 
Russian participation in internal NATO issues; it does not give Russia 
a voice or a veto over NATO's decisions; and it does not give Russia a 
de facto membership in NATO or a role in determining who will gain 
admission to NATO.
    Having reviewed the big picture in which enlargement will occur, 
let me focus in detail on several specific questions I have often been 
asked. First,

           Will An Enlarged Alliance Be Militarily Effective?

    Yes. It is my unshakable conviction that we must continue to have a 
militarily defensible and strong Alliance from the first day of 
enlargement. We cannot invite new members into NATO if the Alliance 
cannot extend the same guarantees to them that we have so successfully 
extended to all NATO members for the last forty-nine years. Conversely, 
the new members cannot expect to be mere consumers of NATO's security; 
they must be able to contribute to their own defense and to the 
security of the Alliance as a whole. Let me share with you some 
information about, and experiences we have had with, the three invited 
nations.
    First, some troop numbers: Poland will have a force, after 
restructuring, of 180,000, roughly the size of the forces of Spain 
(200,000). After their restructuring, the Czech Republic and Hungary 
will have forces of 55,000 and 51,000, respectively, roughly the size 
of the armed forces of Portugal (56,000). Combined, the three invitees 
will add almost 300,000 soldiers, sailors and airmen to the Alliance, 
including units with unique and specialized capabilities such as 
chemical decontamination and combat engineering.
Poland
    With the largest and most capable military in Eastern Europe, 
Poland has brought its 24 years of peacekeeping experience to NATO's 
efforts in Bosnia. These deployments with multinational operations have 
enabled Polish troops to gain experience which has greatly enhanced 
their interoperability with NATO. Poland has a 400-person airborne 
infantry battalion in SFOR's U.S. sector, a 355-person logistics 
battalion in the Golan Heights, an infantry battalion and military 
hospital (632 troops) in Lebanon and troops supporting eight United 
Nations' observer missions. In 1989, they established a military 
training center for UN operations in southeastern Poland. In 1992, the 
Poles deployed an infantry battalion with UN forces in Croatia. Since 
then, Poland has shown an increased willingness to provide combat 
forces as reflected by their commitment to IFOR and SFOR.
Czech Republic
    The Czech Republic currently has a 620-person mechanized infantry 
battalion in SFOR, and prior to that it contributed an 870-person 
mechanized infantry battalion to IFOR and a 985-person infantry 
battalion to the UN Protection Force (UNPROFOR). The Czechs also 
deployed a 200-man decontamination unit to DESERT SHIELD/DESERT STORM.
Hungary
    Hungary contributed a 400-500 man engineer battalion to conduct 
bridging and other engineering operations in support of IFOR. This 
battalion, now reduced in number to 200-250, is currently deployed in 
support of SFOR. Hungary's support to IFOR and SFOR also included 
allowing U.S. and NATO forces to station at its airfields, use its 
facilities and transit its airspace. Hungary demonstrated its ability 
to operate as part of the NATO team with every bridge that was built 
and every plane that landed and took off from its airfields. Over 
95,000 U.S. military personnel rotated in and out of IFOR and SFOR 
assignments through the Hungarian air base at Taszar. U.S. armor units 
conducted live fire training at Hungarian ranges to calibrate their 
guns prior to deploying to Bosnia, and again upon re-deploying.
    In short, Poland, Hungary and the Czech Republic are already 
working with NATO and NATO Allies in the field.

   Is NATO's Military Requirements Study Militarily Sound and Robust?

    The U.S. has long argued that any NATO cost estimate must be driven 
by the military requirements of enlargement. We were successful in 
pressing that argument in the Alliance, and a review of the military 
requirements was undertaken by the NATO military commanders last 
summer.
    As part of the process of developing the military requirements of 
enlargement, the invitees worked with the NATO international staff to 
fill out a special Defense Planning Questionnaire (DPQ) as their 
initial step into the NATO Defense Planning Process. This reply gave 
detailed information from each country on the forces each would commit 
to NATO as their contribution to collective defense. All NATO allies 
provide this transparency into their defense plans.
    Also, in an effort to better understand requirements as well as the 
current capabilities of the invited nations, members of NATO's 
international military staff conducted site visits at various military 
facilities in the invited countries last year. They visited airfields 
and railheads in each country.
    On the basis of this work, NATO's military commanders produced a 
report laying out an initial assessment of the military requirements of 
enlargement. In an open hearing I can only talk about this report in 
broad terms. However, it sets forth requirements for communications, 
reinforcement of the new nations, air defense, and training and 
exercises.
    This report underwent an intensive review by the Joint Staff and 
OSD staff which found the military requirements study to be thorough, 
militarily sound, and based on a range of reasonable contingencies. The 
requirements, as agreed to by all member nations of NATO, will enable 
the Alliance to effectively counter all anticipated contingencies. As a 
result of that review, senior military officers on the Joint Staff 
recommended that the U.S. accept the document. We did, and in the first 
week of December, the Alliance agreed to the report.

                    How Much Will Enlargement Cost?

    When I appeared before the Senate Appropriators last fall, I stated 
my belief that the forthcoming NATO estimate of the costs of 
enlargement would be lower than the estimate you received from us in 
February 1997. This has turned out to be the case. Let me explain why.
    The February 1997 study outlined three categories of costs: 1) the 
costs to new members to continue to restructure their militaries, 2) 
the costs of force improvements already being pursued by existing 
members, and 3) costs related directly to enlargement (i.e., for 
ensuring interoperability between the forces of current and new 
members). The bulk of the difference between the two studies is that 
the NATO study covered only the common-funded direct enlargement costs. 
This is because NATO is not responsible for the other two costs; 
individual nations are. Those costs, which we included because they 
provide important context when thinking about enlargement, still seem 
reasonable to us. We also expect that they can be paid for by the 
nations of NATO, both old and new.
    In the third category of costs, DoD estimated that direct 
enlargement costs would be about $9-12 billion over a thirteen year 
period. These costs included upgrades to communications, air defense, 
reinforcement reception infrastructure, and other interoperability 
measures. A portion of these costs would be common-funded by NATO, 
about $5.5-7.0 billion. And since the share of the common-funded 
budgets is approximately one quarter, we estimated that the U.S. share 
would total around $1.52 billion over a ten-year period.
    By contrast, NATO estimated that the total common-funded costs of 
adding the Czech Republic, Hungary, and Poland to the Alliance would be 
about $1.5 billion over the next ten years. The U.S. share of that 
total cost would be about $400 million over ten years.
    The obvious question is: Why is there a difference between the 
February 1997 DoD estimate of $5.5-7.0 billion for NATO's common-funded 
costs and the December 1997 NATO estimate of $1.5 billion for these 
costs?
    The overall point to keep in mind is that DoD made a notional 
estimate based on general information while NATO made a detailed 
estimate based on more recent and complete information. But here are 
some specific reasons for the differences.
    First, the initial U.S. cost estimate assessed four, not three, 
potential new members. If the U.S. analysis had studied only the three 
countries invited to join NATO, the overall U.S. estimate would have 
been lower by another $1.1-1.4 billion, and the common-funded portion 
of the DoD study would have been around $4.9-6.2 billion.
    Second, the ``good news'' is that the new members' forces and 
infrastructure are in better condition than we earlier assumed. In 
preparing its estimate, NATO conducted on-site visits and learned that 
the additional investment required to prepare new members' forces and 
infrastructure for NATO membership will be less than DoD initially 
estimated based on its sources.
    Third, there were differences in cost methodology and modest 
differences in the requirements that led to the remainder of the 
difference. For example, DoD assumed that some upgrades would be 
eligible for common funding that NATO officials have since stated would 
not be eligible. Also modest differences in requirements had a 
significant impact on the cost difference, but do not detract from 
NATO's capability for Article V collective defense with new members.
    Because the estimates differ by more than a factor of four, some 
have asked: Have military requirements been sacrificed by NATO to save 
money? No. While some military requirements differ, the differences are 
modest and not operationally significant. Both studies use the same 
reinforcement strategy and developed broadly similar military 
requirements. Most importantly, the numbers and type of reinforcing 
forces and reception facilities are almost identical. However, the U.S. 
study included some requirements that NATO did not include such as 
additional upgrades to airfields and training facilities. Site surveys 
conducted by NATO have revealed that these upgrades are not necessary. 
As I stated earlier, the Joint Staff thoroughly reviewed these 
requirements and is confident that they will enable the Alliance to 
meet any anticipated military contingency in the projected security 
environment.
    Let me give you some examples that show you why we are confident in 
our assessment:
    Some of the improvements in Poland, Hungary, and the Czech 
Republic's infrastructure are due directly to their participation in 
the Partnership For Peace program. For example, due to preparations for 
PfP exercises and lessons learned from those events, the new members' 
airfields generally are more capable of receiving and supporting 
western aircraft than assumed earlier. F-16s, which are sensitive to 
foreign object damage, recently operated effectively from a Hungarian 
airfield. This progress means that there is less work that needs to be 
done--and in turn--less money that needs to be spent to improve these 
airfields than estimated earlier.
    A scout platoon leader and scout platoon sergeant from an elite 
American Airborne Battalion were invited to participate in training 
within a Hungarian counterpart unit. Expecting a fairly modest PfP 
exercise, they were surprised when catapulted into some of the most 
rigorous and demanding training they had ever experienced, including a 
live-fire obstacle course, extended operations under nuclear, 
biological and chemical conditions, and grueling physical demands.
    A recent PfP session of the NATO Council of National Armaments 
Directors addressed the subject of inexpensively refurbishing and 
modernizing Polish, Czech, and Hungarian T-72 tanks, which is the best 
way to meet relevant target force goals at reasonable expense to the 
newly invited members. The Ukrainians offered to not only refurbish and 
modernize them, but to render them interoperable with NATO--all at a 
very reasonable price. In short order the Russians, Latvians, and 
Lithuanians sought to join the project, complementing efforts Poles, 
Czechs, and Hungarians already had underway.

                        Some Deficiencies Exist

    We have found some deficiencies in the new countries' forces as the 
NATO review process continues--especially regarding personnel, 
specialized training, communications, and the levels of funding for 
force modernization. While the three cannot be expected to ``fix'' 
everything by 1999, each has a serious program that lays out a defined 
path toward the enhancement of their defense capabilities.
    We have told each invitee that its highest priority should be 
investing in quality personnel. They must develop effective systems for 
recruiting and retaining good troops. Key to this is the development of 
an effective NCO corps. The next priority is training--including 
English language training--for better personnel and new equipment is 
meaningless without adequate training. The next priority is achievement 
of a high degree of interoperability with NATO, including 
communications, logistics, infrastructure for reinforcement, and air 
defense.
    While it is clear that each of the invited nations must undergo 
modernization of major weapons systems in the years ahead if it is to 
remain a contributor to overall alliance security, acquiring high tech 
weapons systems should be a lower priority than personnel and training.
    These three countries are working hard to demonstrate that they are 
ready for membership in NATO. As I outlined earlier, they have each 
begun the process of participating in NATO's defense planning by 
submitting Defense Planning Questionnaire responses. This process put 
them in close contact with NATO international staff members who are 
beginning the education process on what is required of our NATO allies. 
The three invitees also hosted many visits this summer and fall from 
the international military staff as they conducted surveys of 
representative military facilities in each country. Each of these 
nations wants to be a contributor to, not just a consumer of, security. 
They are already contributing to the security of Europe by 
restructuring and modernizing their militaries to operate with NATO, by 
serving with our soldiers in Bosnia, and by helping to make a success 
of the Partnership for Peace.
    The costs of enlargement will be manageable for the likely new 
members as well. The three invitees and NATO have agreed to specific 
cost shares that will govern their contributions to NATO--together the 
three countries will contribute about 4% to NATO's common-funded 
budgets. Each of them have committed to sufficient funding in their 
defense budgets to pay for enlargement requirements. The Czechs raised 
defense spending from 1.7% of GDP in 1997 to 1.88% of GDP in 1998. They 
intend to raise this to 2% by the year 2000. While both Poland and 
Hungary have had similar deficiencies they are overcoming them. Hungary 
has increased its budget to about 1.8% of projected GDP and plans to 
increase that percentage by 0.1 percent annually for the next five 
years. We are particularly pleased with Poland's extensive fifteen-year 
plan. Expected growth in their Gross Domestic Products and savings from 
force restructuring also will help fund these costs. Most importantly, 
the costs of joining NATO for the new members will certainly be less 
than what the three countries would have to spend if they did not join 
NATO and were solely responsible for their national security.

                    How Much Will it Cost the U.S.?

    NATO has estimated that enlargement will cost the Alliance about 
$1.5 billion over ten years. The United States pays about 25% of the 
NATO common-funded budgets each year. Our allies provide the remaining 
75% of the NATO common-funded budgets. Our share will not increase 
because of NATO enlargement. This means that the United States will pay 
substantially less than the $150-200 million per year that we 
notionally estimated last February.

                     Will the Allies Do Their Part?

    Since my last appearance before the Congress on this topic last 
October, the Alliance has twice reaffirmed its commitment to provide 
the resources necessary to support enlargement. At the meeting of all 
NATO defense ministers in early December we agreed, ``[c]osts 
associated with the accession of the three invitees will be manageable, 
and that the resources necessary to meet these costs will be provided 
in accordance with our general procedures under which each Ally bears 
its fair share.'' Shortly thereafter, the foreign ministers met and 
reaffirmed the Alliance's support for this principle.
    The Europeans fully understand the need to meet the financial 
requirements of enlarging. In October of last year, George Robertson, 
the British Minister of Defence, wrote in the Washington Times about 
European burdensharing as it pertains to enlargement, ``(I)f additional 
spending is required, Britain will pay its share. We contribute nearly 
one-sixth of NATO's common budget and the European allies some 70 
percent of the total. These shares will apply equally to the costs of 
enlargement.''
    In November, German Foreign Minister Klaus Kinkel wrote an 
editorial in the Washington Post that said, ``It goes without saying 
that Europe and Germany, like the United States, must bear their fair 
share of the costs of NATO enlargement . . . Already now the European 
Alliance partners are financing roughly 70 percent of the joint NATO 
budgets and making available 95 percent of NATO forces in Europe. This 
European contribution to the Alliance will not drop with the admission 
of new members but will further increase.''
    While it is true that both the U.S. and our NATO Allies have made 
big cuts in our defense budgets since the end of the Cold War, most of 
our NATO Allies still make very substantial contributions to the common 
defense. For example, more than two-thirds of the troops currently 
participating in SFOR are non-U.S. forces.
    For some time we have pressed our allies to do more to improve 
their capability for mobile, flexible operations which NATO will 
undertake in the future. They have responded with specific 
improvements, and are committed to more. For example, Britain provides 
NATO's only rapidly-deployable corps headquarters committed to NATO and 
British forces are the backbone of the Allied Command Europe (ACE) 
Rapid Reaction Corps (ARRC). The U.K. also has the capability to deploy 
and sustain a division-sized force of 20-25,000 personnel and, as you 
all know, the British aircraft carrier HMS Invincible recently deployed 
to the Gulf in support of the latest military buildup there.
    France, in general, is restructuring its armed forces to be more 
mobile and easily deployable. The French are establishing a Rapid 
Action Force (FAR) designed for rapid response in both European and 
overseas contingencies. France also participated heavily in IFOR 
efforts to implement the Dayton peace accords in Bosnia and 
Herzegovina. With nearly 8,000 troops, France was the third largest 
troop contributor, after the U.S. and Britain, and was responsible for 
one of the three geographic sectors--and continues to be in SFOR.
    Likewise, Germany is standing up a Rapid Reaction Force of some 
53,000 fully-equipped troops from the Army, Navy and Air Force. The 
first units stood up in 1996 and the force will be fully capable this 
year. In general, German armed forces are in the process of re-creating 
themselves into a mobile, deployable force.
    The smaller European nations are also improving their forces. For 
example, the Royal Netherlands Navy and Air Force have improved both 
their transport and air defense capabilities with new procurements such 
as: two KDC-10 transport/tankers (the Dutch can now deploy their own F-
16s without reliance on the U.S.); an amphibious-lift ship to make the 
marine brigade self-deployable; and upgrades to their F-16 fleet and 
their Patriot systems.

                       The Costs of Not Enlarging

    The most important point to make about costs is that there would be 
greater costs and greater risks to not enlarging. If we fail to seize 
this historic opportunity to help integrate, consolidate, and stabilize 
Central Europe, we would risk a much higher price later. The most 
efficient and cost effective way to guarantee stability is to do so 
collectively through NATO. That was true in the Cold War. It is true 
now. It will be true in the future.
    The costs of collective defense are manageable for all concerned. 
Alliances save money. Collective defense is both cheaper and stronger 
than relying solely on national defense.
    A decision to defer enlargement, much less to withhold it 
altogether, would send a message to Central Europe that their future 
does not lie with NATO and the West. It would falsely validate the old 
divisions of the Cold War. The resulting sense of isolation and 
vulnerability would destabilize the region and encourage nationalist 
and disruptive forces throughout Europe. Similarly, a mandated pause of 
arbitrary duration before future rounds of enlargement would heighten 
insecurity and be destabilizing.
    Unless we move forward, NATO will remain stuck in the past, in 
danger of irrelevance, while the United States will be seen as 
inconstant and unreliable in its leadership, and as withdrawing from 
its responsibilities and interests in Europe and in the world.

                               Conclusion

    In the conclusion to his book, On the Origins of War, historian 
Donald Kagan states:

          A persistent and repeated error throughout history has been 
        the failure to understand that the preservation of peace 
        requires active effort, planning, the expenditure of resources, 
        and sacrifice, just as war does. In the modern world especially 
        the sense that peace is natural and war an aberration has led 
        to a failure in peacetime to consider the possibility of 
        another war, which in turn, has prevented the efforts needed to 
        preserve the peace.

    If this century has taught us anything, it is that our security is 
inextricably tied to peace and security in Europe. We must hold up the 
lamplight of history so that we do not stumble on the footpath to the 
future. In building a Europe of the 21st Century that is whole and 
free, we will also provide coming generations of Americans a future 
that is more secure, peaceful and prosperous.

                               __________

Responses to Additional Questions Submitted for the Record to Secretary 
                                 Cohen

                  Questions Submitted by Senator Biden

    Question 1. Are Poland, Hungary and the Czech Republic capable of 
contributing to the costs of their inclusion into NATO? Are you 
satisfied with the level of defense spending in each of the three 
countries?

    Answer. All three invited countries are planning to accommodate 
defense budget increases. For new members, the costs of NATO 
enlargement will be a manageable percentage of their planned military 
budgets.
    For example, the Czech government has approved plans to increase 
its 1998 national defense spending to about $1.1 billion, which 
represents about 1.88% of projected GDP. The Czech Republic has stated 
its plans to link defense spending growth to the rate of GDP growth and 
to increase the percentage of GDP dedicated to defense by 0.1 annually 
for the next 3 years which will raise it from the current 1.7% in FY97 
to 2.0% in 2000.
    The Hungarians have increased their 1997 national defense budget to 
about $800 million, which represents about 1.8% of projected GDP. 
Hungary has stated that it plans to link defense spending growth to the 
rate of GDP growth and to increase the percentage of GDP dedicated to 
defense by 0.1 percent annually for the next five years. If so, 
Hungarian defense spending may increase in real terms by 3 to 8% 
annually during the next four years.
    Poland spent 2.3 percent of GDP on defense in 1996. Poland's 15-
year modernization plan calls for annual increases in defense spending 
which are pegged to the rate of GDP growth. Based on a conservative 
estimate of 4.2 percent annual economic growth, Polish defense spending 
should increase approximately 3.2 percent annually.
    The three invited countries are also pledging national funds to 
NATO's three common budgets. In their accession papers, the Czechs have 
agreed to pay a .9% national cost share of the NATO common budgets; 
Hungary has agreed to a .65% national cost share; and the Poles have 
agreed to a 2.48% national cost share, I am confident the three invited 
countries will dedicate the resources necessary to meet their national 
and multilateral obligations.

    Question 2. What are the main tasks that absolutely must get done 
by the invitee's respective governments and militaries prior to the 
proposed accession date of April 1999? Do you have full confidence that 
they will do so?

    Answer. As the Administration has said in the past, it is 
imperative that invited NATO members achieve some goals that are 
fundamental to current Alliance members:

  <bullet> Democratic societies
  <bullet> Free and functioning markets
  <bullet> Civilian control of the military
  <bullet> Peaceful resolution of disputes with their neighbors

    Poland, Hungary and the Czech Republic have made excellent progress 
in achieving these goals and should continue their progress in these 
areas before and after accession.
    Their militaries must become reasonably interoperable with NATO 
before the Alliance can extend a guarantee for collective defense to 
new members. The NATO military commanders have determined that, at a 
minimum, these countries' military headquarters must have communication 
connectivity with NATO headquarters, and their air defense systems must 
be integrated into NATO's air defense system prior to accession. Our 
military agrees with that assessment. NATO and the new members' 
militaries are well on their way to meeting these requirements and 
obtaining broader interoperability with NATO militaries, and we are 
confident that these, objectives will be met prior to accession.

    Question 3. What is our recourse if they fail to meet such tasks by 
then?

    Answer. As I indicated in my response to your Question #2, we are 
confident the Alliance will meet these requirements prior to accession. 
These two pre-accession requirements are essential elements to ensure 
that NATO can operate with new members in a collective defense scenario 
that involves defending new member territories. There is no reason to 
expect that the Alliance and the invitees will not meet these goals 
prior to accession, but if for some reason they did not, interim 
measures (e.g. temporary increased reliance on aerial communications, 
leased/loaned air defense communications systems) would be necessary 
while the more permanent capabilities were being developed to fulfill 
requirements.

    Question 4. What effects are declining European defense budgets 
having on NATO's capability to accomplish its missions? Do declining 
European defense budgets in part signal a reluctance of allied 
governments and populations to bear a share of the burden for 
developing a power projection capability and the direct costs of 
enlargement?

    Answer. Despite declining defense budgets, our European allies have 
made considerable progress over the past six years toward building the 
needed capabilities for the Alliance's new doctrine. These are 
capabilities the Alliance would need whether or not NATO added members. 
We expect these efforts to continue in the future.
    The UK, for example, makes substantial contributions: its troops 
form the core of the ACE Rapid Reaction Corps, and it has the 
capability to deploy and sustain a division-sized force of 20-25,000 
personnel in a Gulf War-style scenario. Currently, they have an 
aircraft carrier, HMS Invincible, deployed to the Persian Gulf to 
support U.S. forces positioned there.
    The French are establishing a Rapid Reaction Force (FAR), designed 
for rapid response in both European and overseas contingencies. With 
nearly 8,000 troops in Bosnia, France (along with the UK) was the 
second largest force contributor to IFOR after the U.S.
    The Italians (as their efforts in Albania have demonstrated) are 
upgrading their ability to project forces to areas of need.
    Germany also is currently increasing its capability to deploy 
forces: a 53,000-man Crisis Reaction Force (CRF) unit is being formed, 
and will be fully operational by the end of 1998. (Germany has 2,500 
troops in Bosnia, the first time it has deployed troops outside its 
territory since the founding of NATO).
    Our smaller European allies are also making significant 
improvements: the Dutch Navy and Air Force have improved their 
transport and air defense capabilities by procuring air-to-air tankers; 
acquiring an amphibious-lift ship for their marines and making upgrades 
to their F-16s and Patriot missile systems.
    It is clear that more work needs to be done to improve the 
capability of the European forces for mobility, deployability and 
sustainability, Senior US officials in Washington and at NATO continue 
to press the European Allies to fulfiil the commitments they have 
already accepted to make available forces for Alliance defense.

    Question 5. What events could drive the cost of NATO enlargement 
upward, e.g., continued Russian opposition, another ethnic war in 
central Europe, a breakdown in the Conventional Armed Forces in Europe 
(CFE) Treaty negotiations?

    Answer. NATO's initial estimate of the common-funded enlargement 
costs is based on the Alliance defending new members on their 
territories, given the projected security environment. A significant 
change in that environment, due to a deterioration of events in Russia 
or the emergence of a hostile regional power, would increase the cost 
of defense for Alliance members, including the United States.
    NATO's cost estimate is subject to normal uncertainties associated 
with its ongoing planning process, which could lead to changes in the 
actual costs of enlargement. While not probable, costs could grow or 
diminish for a number of reasons. Changes may occur as plans to upgrade 
facilities are finalized, or as detailed engineering surveys of 
facilities provide more complete information. Also, NATO could choose 
to make exceptions to its common-funding eligibility criteria over the 
planning period, which would affect common costs.

                Questions Submitted by Senator Feingold

    Question 1. How do you explain the disparities between the various 
cost estimates for the United States's share of NATO enlargement, which 
have ranged from $2 to 7 billion? What are the latest estimates for the 
United States's share of NATO enlargement? How confident are you that 
the United States's share will not rise above $7 billion?

    Answer. First, let's compare apples to apples where we can. The 
portion of our earlier U.S. cost estimate that addressed what the 
Alliance would collectively pay is $4.9-6.2B (not $27-35B), and should 
be compared to the $1.5B NATO estimate.
    Second, prior to NATO's identification of new members, DOD outlined 
general requirements and an illustrative cost estimate for four 
potential new members; after the July 1997 Madrid Summit at which NATO 
named the three invitees, NATO identified detailed military 
requirements and a common-funded cost estimate for three new members.
    Third, NATO's studies were based on more recent and detailed data 
on new members' infrastructure (e.g., airbases, road and rail 
networks), including site visits, that revealed significantly better 
conditions than DOD had previously assessed. Other factors included the 
following, DOD assumed common funding for some requirements (e.g., 
airfield off-loading equipment) that NATO determined are nationally 
funded. DOD also used higher cost factors for needed upgrades (e.g., 
air defense C2) in some instances.
    Finally, there were modest differences in requirements with a 
significant cost impact. While some military requirements differ, the 
differences are modest and not operationally significant. Both studies 
use the same reinforcement strategy and developed broadly similar 
military requirements, including the number and types of reinforcing 
forces and reception facilities. However, the DOD study included some 
requirements that NATO did not include (e.g., more ambitious upgrades 
to airfields and training facilities).
    In our recent Report to the Congress on the Military Requirements 
and Costs of NATO Enlargement, DOD assessed the resource implications 
of enlargement based on NATOs agreed cost estimate of about $1.5 
billion from 1998 through 2008. The U.S. share of these enlargement 
costs is estimated to be around $400 million over this period.
    There is about $412M in DODs FY99 budget request for direct 
national contributions to NATO's common-funded military budgets. When 
this request was finalized, none of this money was earmarked for 
enlargement-related requirements. The United States expects to incur 
about $10M in enlargement costs in FY99, which will be met from within 
the $412M budget request.
    In FY00-01, DOD expects to request $5-12 million above current 
budget levels for NATO common-funded military budgets to cover 
projected enlargement costs. Beginning in FY02, as the bulk of 
enlargement costs begin to be incurred, DOD expects that virtually all 
of the estimated enlargement costs will have to be reflected in 
increased DOD budget requests for contributions to NATO's common-funded 
military budgets. DOD projects that its budget request in FY02 will 
need to be increased by around $32M to cover estimatedenlargement 
costs.
    In 2003 and beyond, the funding picture is less clear, because NATO 
only assessed in detail the impact of enlargement on common-funded 
budgets out to 2002. NATO expects that common-funded enlargement costs 
will peak in 2005. Considering this likely expenditure profile, DOD 
believes that most or all of these estimated costs will require 
resources above current budget levels for NATO common-funded military 
budgets.
    DOD's review concluded that NATO developed a sound and reliable 
cost estimate--provided that the specific facilities to be selected 
during NATO's ongoing force planning process have essentially the same 
characteristics as those visited by the International Staff during 
NATO's development of its cost estimate. The Department has every 
reason to expect that this will be the case. Thus, DOD is very 
confident that the U.S. share will not rise above $7 billion.

    Question 2. To what extent are the governments of Poland, Hungary 
and the Czech Republic prepared to take on the financial commitment 
involved in NATO membership?

    Answer. All three invited countries are planning to accommodate 
defense budget increases. For new members, the costs of NATO 
enlargement will be a manageable percentage of their planned military 
budgets.
    For example, the Czech government has approved plans to increase 
its 1998 national defense spending to about $1.1 billion, which 
represents about 1.88% of projected GDP. The Czech Republic has stated 
its plans to link defense spending growth to the rate of GDP growth and 
to increase the percentage of GDP dedicated to defense by 0.1 annually 
for the next 3 years which will raise it from the current 1.7% in FY97 
to 2.0% in 2000.
    The Hungarians have increased their 1997 national defense budget to 
about $800 million, which represents about 1.8% of projected GDP. 
Hungary has stated that it plans to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbd7fb">[email&#160;protected]</a> defense spending growth to the 
rate of GDP growth and to increase the percentage of GDP dedicated to 
defense by 0.1 percent annually for the next five years. If so, 
Hungarian defense spending may increase in real terms by 3 to 8% 
annually during the next four years.
    Poland spent 2.3 percent of GDP on defense in 1996. Poland's 15-
year modernization plan calls for annual increases in defense spending 
which are pegged to the rate of GDP growth. Based on a conservative 
estimate of 4.2 percent annual economic growth, Polish defense spending 
should increase approximately 3.2 percent annually.
    The three invited countries are also pledging national funds to 
NATO's three common budgets. In their accession papers, the Czechs have 
agreed to pay a .9% national cost share of the NATO common budgets; 
Hungary has agreed to a .65% national cost share; and the Poles have 
agreed to a 2.48% national cost share.

    Question 3. How will NATO distribute financial and military 
responsibilities among the member states following enlargement?

    Answer. Enlargement costs will be distributed among NATO allies 
according to long-standing NATO financial principles. The U.S. pays 
about 25% of NATOs common-funded costs. The Europeans will contribute 
the remaining 75 percent. The three new members will contribute 
together approximately 4% to NATO's common-funded budgets; hence after 
the new members join, NATO is likely to make minor adjustments to some 
national cost shares to rebalance the cost shares among nineteen, 
rather than sixteen NATO allies.
    U.S. estimated enlargement costs are incurred largely through our 
share of those enlargement measures that are common-funded. The United 
States would share in more of the overall costs only to the extent that 
the United States, with Congressional approval, chooses to continue or 
expand the current modest assistance being provided to the new 
democracies of Central and Eastern Europe through programs like the 
Warsaw Initiative.
    NATO will distribute military responsibilities among the Allies, 
both old and new, through the collective defense planning process. This 
process provides a framework within which national and NATO defense 
planning can be harmonized to meet the Alliance's agreed military 
requirements. For example, through NATO's ongoing Force Goals process, 
NATO ensures that Allies will continue to develop the necessary 
regional reinforcement capabilities to be able to more effectively 
execute NATO's Strategic Concept.

    Question 4. Do Poland, Hungary, and the Czech Republic have the 
military capacity to assume their responsibilities? Are these three 
countries prepared to assume the costs involved in modernizing their 
forces to meet NATO standards?

    Answer. In terms of raw numbers, Poland, after restructuring its 
military, will have 180,000 troops--roughly the same size force as 
Spain (200,000); the Czech Republic, after restructuring its military, 
will have 55,000 troops (roughly the size of Portugal, some 56,000 
personnel); and Hungary, after restructuring its military, will have 
51,000 troops, also roughly the same size as Portugal.
    Poland currently has 1,059 troops (as of 31 January 1998) in 
multinational peacekeeping operations, more than any other country. 
Among their deployed units are a 470-person airborne infantry battalion 
in SFOR; a 355-person logistics battalion in the Golan Heights; and 632 
troops in Lebanon. These deployments with multinational operations have 
enabled Polish troops to gain experience which has greatly enhanced 
their interoperability with NATO.
    The Czechs had already anticipated NATO requirements for secure and 
nonsecure digital communications programs, and had applied NATO 
standards to the national programs they are pursuing on their own. In 
short, the Czechs had already spent their own money to fund some 
projects that we had assumed would be paid for by NATO as a whole 
through the common budgets.
    The Czechs provided a 200-man decontamination unit to Operations 
DESERT SHIELD and DESERT STORM, and an infantry battalion to UNPROFOR 
in Croatia. They have also provided a mechanized infantry battalion to 
both IFOR and SFOR. The 850-man battalion in SFOR has received high 
marks from SACEUR, the Canadians and the British. It represents the 
largest contribution from the region, and on a per capita basis, is on 
a par with the U.S. efforts. The Czechs have also deployed UN observers 
in Croatia (UNTAES and UNMOP), Macedonia (UNPREDEP), Georgia (UNOMIG) 
and Liberia (UNOMIL).
    Hungary hosted a squadron of Dutch F-16s for several weeks in 1996 
at squadron at that same location. These units were in Hungary as part 
of a series of PFP exercises designed to improve interoperability. We 
were impressed by the fact that the Hungarians are already capable of 
handling NATO aircraft at their airfields. There is far less work that 
needs to be done--and in turn--far less money to be spent to improve 
these airfields than we had estimated earlier.
    Hungary initially contributed a 400-500 man engineer battalion to 
conduct bridging and other engineering operations in support of IFOR. 
This battalion, now reduced in number to 200-250, is currently in 
support of SFOR. Hungary's support to IFOR and SFOR also included 
allowing U.S. and NATO forces to transit its airspace, station at its 
airfields and use its facilities. Hungary demonstrated its ability to 
operate as part of the NATO team with every bridge that was built and 
every plane that landed and took off from its airfields.
    Over 95,000 U.S. military personnel have rotated in and out of IFOR 
and SFOR assignments through the Hungarian airbase at Taszar. U.S. 
armor units calibrate their guns at Hungarian ranges prior to deploying 
to Bosnia, and again upon re-deploying.
    With contributions such as these, coupled with a demonstrated will 
to assist allies in need (including during the recent crisis with 
Iraq), the accession of Poland, Hungary, and the Czech Republic will 
clearly enhance NATO's military effectiveness.
    As explained in my response to Question #2, these three countries 
are prepared to assume the costs involved in modernizing their forces 
to meet NATO standards.

    Question 5. What commitments have we received from current NATO 
members regarding their bearing some of the costs of enlargement?

    Answer. Our allies have made a number of public statements about 
their intentions in this regard. At the Defense Ministerial in Brussels 
in December 1997, all ministers stated that ``admitting new members 
will have resource implications for the Alliance. . . . [But the] costs 
associated with the accession of the three invitees will be manageable, 
and . . . the resources necessary to meet these costs will be provided 
in accordance with our agreed procedures under which each Ally bears 
its fair share.''
    Last fall, senior British and German government officials placed 
Op-Ed pieces in major American newspapers, stating that their 
governments were pledged to provide their fair share of enlargement 
costs.
    On October 21, British Secretary of Defense George Robertson stated 
in an Op-Ed piece in the Washington Times that ``[w]e all recognize 
that bringing new members into NATO will incur a cost. . . . But, if 
additional spending is required, Britain will pay its share''.
    On 4 November, German Foreign Minister Klaus Kinkel stated in an 
Op-Ed piece in the Washington Post that ``[t]he debate on admitting new 
members into the Alliance must take into account the political and 
military rationale behind NATO enlargement. . . . It goes without 
saying that Europe and Germany . . . must bear their fair share of the 
costs of NATO enlargement. . . . This European contribution to the 
Alliance will not drop with the admission of new members, but will 
further increase''.
    Most recently, on 9 February, German Foreign Minister Volker Ruehe, 
in a Los Angeles Times Op-Ed piece, reiterated that while NATO 
enlargement entailed costs, ``there will be no free ride. . . . Our 
American friends can rest assured that their European allies are 
assuming and will continue to assume their fair share of the common 
bill and burden''.
    Our allies have echoed these assurances in our conversations with 
them at NATO and bilaterally. I believe these very public statements 
are positive reassurance that our European allies are committed to 
meeting the burden-sharing challenges of enlargement.

    Question 6. Some have expressed concern about the problems the 
United States experienced in recent months in attempting to build a 
coalition against Iraq, including disagreement with some of our NATO 
partners. What does this suggest about the cohesiveness of NATO as a 
military alliance?

    Answer. US efforts to build an effective military coalition against 
Saddam Hussein from among our NATO allies have been successful.
    Thus far, the US has received pledges of direct military 
contributions from most NATO nations, including Canada, the United 
Kingdom, Denmark, Hungary, Poland, The Netherlands, Romania, Norway, 
the Czech Republic, and Belgium, and pledges of operational support 
(such as basing rights) from Germany, Iceland, Portugal and Spain. 
Before the agreement between Iraq and the United Nations, we were 
awaiting official approval of military support from Bulgaria, Italy, 
Lithuania, Estonia, Latvia and Slovenia. In addition to these pledges, 
the US has received military contributions from many other non-European 
allies, such as Argentina and Australia, among others.
    We continue to assess the military requirements needed to organize 
and effectively operate a credible military force against Iraq, should 
all diplomatic efforts to obtain Iraqi compliance with United Nations 
mandates fail.

    Question 7. When do you anticipate a second round of NATO 
enlargement? Is the possibility of a second round contingent on the 
successful implementation of the first round? What countries do you 
think would be included in a second round of NATO enlargement?

    Answer. To further our goal of an undivided Europe, we have always 
maintained that enlargement should not be a one-time event, but a 
process. Our policy has been to have a robust ``open door'' in 
principle, but with great flexibility and non-specificity, thus leaving 
our options open. At Madrid, NATO invited three countries to initiate 
accession talks with the goal of bringing them into the Alliance in the 
spring of 1999. While we agreed NATO will review the process in 1999, 
we made no decisions or formal commitments regarding other future 
members. Given these agreements, it would be inappropriate for me to 
speculate about future rounds or potential candidates. Should the 
Alliance again invite new members, the Senate will again be asked for 
its consideration.
    At the same time, the President and Congress have said many times 
that we do not expect or want the first to be the last. In our view, 
NATO's enlargement should continue beyond the first three. We believe 
that the best guarantee for the open door is a solid success with the 
first round.

    Question 8. Do you think we will continue to have waves of 
enlargement until all qualified countries have been included?

    Answer. As I stated in my answer to Question #7, we have always 
maintained that enlargement should not be a one-time event, but a 
process. Our policy has been to have a robust ``open door'' in 
principle, but with great flexibility and non-specificity, thus leaving 
our options open.
    At Madrid, NATO invited three countries to initiate accession talks 
with the goal of bringing them into the Alliance in the spring of 1999, 
While we agreed NATO will review the process in 1999, we made no 
decisions or formal commitments regarding other future members. Given 
these agreements, it would be inappropriate for me to speculate about 
future rounds or potential candidates. Should the Alliance again invite 
new members, the Senate will again be asked for its consideration.

    Question 9. What impact will NATO enlargement have on our relations 
with Russia? Will this change if all European countries except Russia 
are eventually admitted into NATO?

    Answer. The evolution of Russian policy is a critical part of 
America's future security picture. Despite Russian objections to NATO 
enlargement, I believe that the signing of the NATO-Russia Founding Act 
is symbolic of the success the U.S. and our allies are having in 
engaging Russia in Europe's new Security architecture and ensuring a 
voice for Russia--but not a veto within NATO--in the dialogue over 
security challenges in Europe's future.
    The Founding Act makes clear that Russia has no grounds to fear 
aggression from NATO. The Act repeats NATO's 1996 statement that NATO 
has ``no intention, no plan, and no reason'' to deploy nuclear weapons 
or storage sites on new members' territory and the Alliance's 1997 
statement that, in the current and foreseeable security environment, 
NATO will carry out its collective defense and other missions through 
interoperability, integration and capability for reinforcement, rather 
than by additional permanent stationing of substantial combat forces on 
the territory of new members.
    Along with these indications of NATOs peaceable intent, the Act 
also creates the NATO-Russia Permanent Joint Council, a venue for 
exchange of views and a bridge to joint NATO-Russia action, when 
possible. The PJC gives us the opportunity to pursue concrete areas of 
mutual interest with Russia and to increase trust between Russia and 
the West.
    For the U.S., both a democratic, peaceful Russia and an enlarged 
NATO are essential elements in the transformation of Europe's security 
architecture. There is no ``either/or'' choice in pursuing these goals; 
neither is it a matter of who does or does not join NATO. We believe 
both can be achieved because they are mutually reinforcing. Our task is 
to reconcile the tensions between NATO, Europe and Russia by working 
within political, military and institutional frameworks to demonstrate 
that these results can be achieved.

                               __________

                 Prepared Statement of General Shelton

    The North Atlantic Treaty organization has been a cornerstone of 
our national security strategy for almost fifty years. In recent years, 
the European and international security environment has changed and our 
national security strategy must adapt to reflect those changes. To be 
the strong force for peace in the future that it has been in the past, 
NATO is examining new concepts and new approaches to keep pace with a 
rapidly changing world.
    ``NATO Enlargement''--the Alliance's initiative to embrace new 
allies--is fundamental to restructuring NATO for a new century. The 
Joint Chiefs and I endorse the President's support for this initiative 
because we are convinced that our strategic interests and the interests 
of our European friends and allies are better served with Enlargement 
than without it. Too often in this century, we have been called upon to 
intervene in major conflicts on the European continent, at great price 
to our nation in blood and in treasure. We learned, the hard way, that 
we can avoid war by joining with our friends and extending a hand to 
yesterday's adversaries to turn them into tomorrow's friends.
    In fact, in sharp contrast to the first half of this century, no 
NATO country has ever been attacked by a neighbor in the nearly five 
decades of NATO's existence. We have lived through the most dangerous 
century in world history and even today, in Bosnia, we can see the 
legacy of those earlier conflicts. That is why, in my view, we can only 
gain by encouraging deserving nations to join with us in the interests 
of peace.
    But we must be sure that candidates for NATO membership are up to 
the task. Hungary, Poland, and the Czech Republic, the three nations 
offered membership last summer in Madrid, clearly deserve the 
opportunity to join NATO. Each of these nations has embraced meaningful 
reform, and each has demonstrated a commitment to the following 
principles:

  <bullet> Democracy and the Rule of Law
  <bullet> A Free Market Economic System
  <bullet> Civilian Constitutional Control of Their Militaries
  <bullet> Peaceful Resolution of Disputes With Neighbors
  <bullet> Respect for Human Rights
  <bullet> Gradual Development of Military Capabilities Interoperable 
        With NATO

    From the military perspective, it is important that new members 
bring genuine military capability to NATO--and Hungary, Poland, and the 
Czech Republic will do that. As you know, every NATO country shares in 
the costs as well as the benefits of membership in the Alliance, and 
that core principle will also apply to new members. Though meeting 
specific military standards is not required for admission, we must 
ensure that new members are ``net contributors'' and not ``net 
consumers'' of security.
    That means they must be able to conduct coordinated operations with 
other NATO members. They must participate fully in the defense planning 
process. And their military forces must reflect the shared values of 
our Alliance, particularly the imperative of civilian control which is 
so central to our democratic systems.
    Of course we do not expect new members, right away, to operate 
militarily at the same levels as members of long standing. Helping new 
members become fully interoperable with NATO will take time and effort, 
specifically in key areas like command and control, defense planning, 
and coordinated staff processes. That is why I share the view of my 
NATO counterparts, that integration of new members into the NATO 
military structure should take place in a measured, evolutionary way. 
We must carefully and prudently assess the military capabilities of 
prospective new members as we have throughout NATO history's when new 
members were brought on board.

      The Bi-Major NATO Command (MNC) Military Requirements Study

    One such assessment was recently completed in December. As a result 
of the Madrid Summit in July, NATO's military committee tasked SHAPE, 
in cooperation with SACLANT, to identify requirements stemming from the 
proposed enlargement of the Alliance. Specifically, SHAPE was tasked to 
conduct, with SACLANT's cooperation, an analysis of the military 
requirements that would affect commonly-funded investment and Operating 
and Maintenance costs relevant to the accession of Poland, the Czech 
Republic and Hungary.
    Conducted over a five-month period by a capable and experienced 
SHAPE staff, the study focused on the requirements for reinforcement, 
integrated air defense, essential C3I capabilities and training. When 
finished, the Joint Staff also analyzed this report and found it to be 
thorough, militarily sound, based on a range of reasonable 
contingencies, and sufficiently detailed to enable the development of 
reasonably accurate cost estimates. The Bi-MNC Study is interim in 
nature and can be refined based on the results of the ongoing NATO 
defense planning process, which now incorporates the newly invited 
members. With respect to the invitees this process will include:

  <bullet> Developing target force proposals for acceptance by the new 
        members as target force goals.
  <bullet> Formal agreements between NATO and the invitee countries on 
        facilities to which NATO will have access for reinforcement 
        purposes.
  <bullet> Detailed operational planning for reinforcement operations 
        to include the identification of units, transportation routes, 
        sustainment, and host nation support; and
  <bullet> Identifying and completing NATO capability packages 
        necessary to meet enlargement requirements. This process will 
        involve detailed site surveys of agreed NATO reinforcement 
        sites, leading to upgraded facilities which meet NATO 
        standards.
    I understand copies of the NATO requirements study have been 
provided to the Senate staff. Although I will not discuss detailed 
findings of the report, I do want to highlight the fact that the study 
found reinforcement and infrastructure requirements to be significantly 
less than originally estimated by the DoD in last February's report 
from the Administration. This is important since these relate directly 
to NATO's ability to assist in defending new members against external 
attack. I would also note that NATO's study produced very similar 
requirements to the February study. This is important for two reasons. 
First, it confirms that we did not risk NATO capabilities for the sake 
of cost. In fact, the NATO study was done completely without regard for 
costs. Second, it helped verify that the forces and requirements 
identified to support Article V operations are sufficient.
    In looking at NATO's ability to defend new member states, NATO and 
the US, in separate studies, evaluated worst case defense scenarios. 
Both studies concluded that forces drawn from NATO's existing assets, 
in conjunction with the host nation forces, would be adequate to defend 
the new members.
    In fact, these studies revealed that the forces needed to defend 
new members are roughly half the size of some current Article V defense 
plans. They also confirm that these operations might actually be easier 
to support logistically than some potential NATO plans involving 
current allies, due to the quality and quantity of existing 
infrastructure in the invited countries, and the fact that they are 
closer geographically to the center of Europe. Moreover, the NATO study 
is firmly based on actual site visits to assess existing infrastructure 
and on detailed interaction with the invitees and current members to 
assess military capabilities. To a great extent, these important 
features are absent from previous enlargement studies.

                         Military Capabilities

    As I mentioned earlier, we must be sure that the accession process 
enhances, not detracts from, our overall military capability. NATO's 
military effectiveness must remain a fundamental priority. That said, I 
can state with confidence that bringing in the new nations will 
strengthen NATO's security. Though each new member must improve in key 
areas like interoperability, operational readiness, force structure, 
and modernization, all three are well on the way.
     For example, Poland has the largest and most capable military in 
Central and Eastern Europe and brings 24 years of peacekeeping 
experience to NATO's efforts in Bosnia. Since 1974, Poland has 
participated in more peacekeeping operations than any former Warsaw 
Pact country, and it currently has more personnel in UN peacekeeping, 
military observer and civilian police missions than any other country. 
These deployments, each a multinational operation, have enabled Polish 
troops to gain valuable experience which greatly enhances their 
interoperability with NATO partners.
     Poland currently has an airborne infantry battalion in the US 
sector in Bosnia, a logistics battalion in the Golan Heights (UNDOF), 
an infantry battalion and military hospital (632 troops) in Lebanon 
(UNIFIL), and small contingents in Eastern Slavonia (UNTAES), as well 
as troops supporting eight other UN observer missions. In 1989, they 
established a military training center for UN operations in 
southeastern Poland.
     In 1992, the Poles deployed an infantry battalion with UN forces 
in Croatia. Since then, Poland has shown an increased willingness to 
provide combat forces in support of peacekeeping, as reflected by their 
commitment to IFOR and SFOR in Bosnia. Poland is currently working to 
establish joint peacekeeping battalions with Ukraine and Lithuania, and 
the Poles have contributed to UN efforts in Rwanda (UNIMIR), Georgia 
(UNOMIG), Tajikistan (UNMOT), Iraq/Kuwait (UNIKOM), the Western Sahara 
(MINURSO), and Cambodia (UNTAC).
     The Czech Republic currently has a mechanized battalion in Bosnia 
with SFOR, and prior to that it contributed a mechanized battalion to 
IFOR. The Czechs also deployed a decontamination unit to DESERT SHIELD/DESERT STORM and provided observers to UN observer missions in Croatia 
(UNTAES), the Prevlaka Peninsula (UNMOP), the Former Yugoslav Republic 
of Macedonia (UNPREDEP), Mozambique (UNOMOZ), Georgia (UNOMIG), and 
Liberia (UNOMIL).
    Hungary contributed an engineer battalion in support of IFOR and 
continues to provide the same support to SFOR. Hungary's support to 
NATO operations in Bosnia also included permission to use its airspace, 
airfields, and military facilities. Hungary demonstrated its ability to 
operate as part of the NATO team with every bridge that was built and 
every plane that landed and took off from its airfields. Over 95,000 US 
military personnel rotated in and out of IFOR and SFOR assignments 
through the Hungarian airbase at Taszar. Additionally, US armor units 
calibrate their guns at Hungarian ranges prior to deploying to Bosnia, 
and again upon re-deploying.
    Past Hungarian peacekeeping contributions have included a 
contingent in Cyprus as part of an Austrian battalion assigned to 
UNFICYP; a contingent in the Sinai (MFO); and contributions in Iraq/Kuwait (UNIKOM), Angola (UNAVEM), Cambodia (UNTAC), Mozambique 
(UNOMOZ), Tajikistan (UNMOT), and Georgia (UNOMIG). Hungary may also 
provide forces to the UN Standby Forces High Readiness Brigade 
(SHIRBRIG).
    All three new member states supported Coalition Forces during 
Operation Desert Storm. Poland provided two medical ships while Hungary 
offered use of its airfields to assist in deployment and redeployment. 
Hungary also provided a small contingent of medical personnel to the 
region. The Czech Republic deployed several hundred chemical 
decontamination troops as part of the Coalition. And each of the newly 
invited members have voiced support for current US policy in the Gulf.

                  Integrating New Member Capabilities

    As these examples demonstrate, the nations invited to join NATO 
clearly possess military capabilities that will enhance NATO. Our 
ultimate goal, however, is to assist them in their efforts to become 
fully interoperable with their NATO allies. Not surprisingly, their 
armed forces will have to shed their former Warsaw Pact doctrine and 
thinking in favor of NATO processes and procedures. Though these 
transformations will not be complete by 1999, we are working hard to 
ensure that each new member has a plan to effect such a transformation 
over time. The Partnership for Peace program is the foundation of this 
process, as is the NATO Defense Planning Process. We also focus on 
bilateral assistance targeted on key military priorities for each 
country in order to maximize our assistance in the shortest possible 
time.
    The Partnership for Peace (PfP) Program has proven itself a major 
contributor to easing ethnic and border disputes in Europe. But the PfP 
program, particularly the conduct of military exercises, has also been 
a training ground for NATO enlargement. For example, in 1997 alone, 
Poland participated in 22 PfP exercises in which the United States also 
took part; the highlight of these events was exercise BRAVE EAGLE, one 
of the largest and most complex PfP exercises to date, which Poland 
hosted. Poland also participates in hundreds of bilateral and 
multilateral exercises, seminars, and other activities with other 
Partners and NATO Allies, all of which contribute to improved 
interoperability.
    Hungary has also been an enthusiastic participant in PfP, and was 
in fact the first Partner to include a PfP line item in its defense 
budget. Like Poland, Hungary has participated extensively in bilateral 
and multilateral military exercises and activities which have produced 
valuable lessons learned. Hungary participated in 17 multilateral PfP 
exercises in 1997 along with the US, and it will host a major exercise 
this Spring. Since the Madrid Summit, Hungary has volunteered to 
participate as one of twelve NATO teams assessing Albania's post-
conflict military.
    The Czech Republic participated in 18 multinational PfP exercises 
with US involvement in 1997. They also conducted numerous joint 
training activities with other NATO members, including Belgium, Canada, 
Denmark, France, Germany, Italy, the Netherlands, Spain, France and the 
United Kingdom. The Czech Republic has been particularly closely 
involved with Germany, conducting 100 combined events in 1997 alone.
    In addition, during the last three years all three countries have 
participated in PfP's Planning and Review Process (PARP), in which NATO 
established 45 specific Interoperability Objectives (IOs). Examples of 
these objectives include: command and control of search and rescue 
operations, ground refueling of aircraft, commonality of airfield 
procedures, use of NATO communications procedures and terminology, 
aircraft IFF system, logistics support, and interoperability of 
communications equipment and of air navigation aids. Poland committed 
to attain 41 IOs by 1999, Hungary pledged to reach 38, and the Czech 
Republic promised to meet 31.
    In many cases, the new member states have used interoperability 
objectives as guideposts for procurement decisions--decisions they have 
made and implemented--in advance of NATO membership. For example, NATO 
analysts noted that even though communications and information systems 
requirements increased, the cost estimates for the Czech Republic kept 
dropping. Closer inspection revealed it turned out the Czechs had 
already anticipated the requirements for secure and non-secure digital 
communications programs and had applied NATO standards to the national 
programs they are pursuing on their own. Because of PfP, the Czech MOD 
had already programmed funds for projects we had expected to pay for 
with fund with NATO Common Funds.
    As these examples demonstrate, the new member states are making 
real progress toward the goal of achieving military capabilities which 
will enhance the Alliance. And apart from their military value, these 
cooperative ventures suggest a willingness to share the risks of 
collective security that deserves our respect and support. All three 
countries' active participation in PfP activities and exercises have 
helped them prepare for the burdens and responsibilities of NATO 
membership. Experience gained through PfP was integral, for example, in 
each country's preparation of its DPQ reply.

                    NATO's Assessment of DPQ Results

    NATO conducts an annual assessment of each member's force and 
financial plans through the annual Defense Planning Questionnaire. Each 
response to the DPQ has three parts: a statement of national defense 
policy, responses to previous NATO force goals, and military service 
sections detailing forces and assets available to NATO. The reply to 
the DPQ reflects each ally's capability to meet its Force Goals.
    As part of the accession process, NATO prepared a special DPQ for 
the three new member nations. Representatives of the NATO International 
Staff and International Military Staff made frequent visits to the 
invited countries to help their Ministries of Defense prepare DPQ 
responses.
    The DPQ responses helped define enlargement military requirements 
and the extension of the Article 5 guarantee to the three invitees. 
This process included balancing their inputs with the defense plans of 
existing allies and the likely effect on NATO's common funded budgets. 
The DPQ responses also provided a valuable baseline against which to 
develop Target Force Goals for the three nations. The Target Force 
Goals are intended to give them an early indication of their 
requirements as Alliance members. The Target Force Goals are being 
discussed now and will be finalized later this spring.
    The invitee Target Force Proposals, which derive from the DPQ 
process, will focus on eight key areas: interoperability; force 
contributions; command and control; air defense; logistics; reception 
and host nation support; force modernization; and training, doctrine 
and safety. Requirements such as force modernization are addressed as 
longer term requirements.
    NATO's Defense Review Committee (DRC) and the SACEUR analyzed the 
DPQ submissions. Both provided a generally positive assessment of the 
military capabilities of the invitees and identified interoperability 
shortcomings within the three militaries. None of the shortfalls were 
deemed insurmountable, though full interoperability will require some 
effort in a number of important areas including command & control, air 
defense, readiness, logistics, and personnel.
    The NATO assessment confirms that the three new member states all 
plan to increase the resources they make available for defense. Their 
priorities focus on developing essential interoperability in the short 
term, and modernization and procurement in the long term. All three 
countries project significant increases in defense spending, in real 
terms, to 2002. Together, with savings realized from the radical 
downsizing and restructuring of their Armed Forces, the resource plans 
provide a basis for significant interoperability improvements with NATO 
and increased expenditures for procurement.
    All three invitees place the highest priority on achieving NATO 
integrated command and control, with priority given at the strategic 
level and for those forces slated for NATO's rapid response units. 
Steady progress is being made to achieve communications 
interoperability with modern C3 systems, enhanced English language 
training, and combined operations in Bosnia and in PFP exercises. The 
NATO assessment notes that:

          Building on progress made in the implementation of PfP's 
        Planning and Review Process (PARP) objectives, the three 
        nations have been able to establish the minimum required level 
        of interoperability in C2 particularly for potential 
        contributions to NATO's reaction forces and the highest echelon 
        forces.

    Shortcomings within the three new member countries were clearly 
identified by the NATO assessment. The assessment also noted that each 
nation is making major efforts to address the most critical shortfalls. 
Additionally, each nation is taking a conservative, practical approach 
towards attaining its interoperability objectives. This is best 
reflected in the decision by all three to forego the purchase of major 
military end items (e.g. aircraft and armor), in order to focus their 
efforts and resources on the activities and equipment most needed for 
fundamental interoperability. Particular efforts include working to 
correct personnel imbalances, addressing reception and logistics 
infrastructure, improving air defense and airspace management, 
conducting selective modernization of older equipment, improving the 
readiness of select units and squadrons, and teaching English en masse. 
The assessment confirms these efforts are the essential building blocks 
of interoperability.
    The three invitees are also tackling the difficult problems 
associated with major manpower cuts and organizational restructuring. 
As former Warsaw Pact members, they built their forces on the Soviet 
model of a large and well-defined cadre of professional officers, a 
practically non-existent NCO corps, and large conscript armies. 
Officers regularly performed NCO type duties and a general lack of 
initiative pervaded lower echelons. The NATO assessment observed that 
all three invitees are working hard to eliminate this inefficient 
legacy by reducing the number of officers in upper echelons, blending 
conscripts with professional soldiers, and most importantly, by 
building a strong and empowered NCO corps as in the Western model. As 
with other initiatives, those units slated for commitment to rapid 
reaction forces receive priority.
    Czech Republic force plans continue the ongoing and comprehensive 
restructuring of its armed force. Czech military priorities were 
initially neglected after 1989, resulting in wide-scale equipment 
obsolescence, training deficiencies, readiness problems, and serious 
personnel imbalances. Czech national policy has since changed and the 
result is reflected in its active PfP participation, excellent 
performance in Bosnia, and strong role during the 1997 national floods. 
Czech plans include an extensive modernization program and gradually 
increased defense spending. The Czech MOD has a five year investment 
plan focused on NATO military integration which it expects to be fully 
funded. It is building its military to support a published ``National 
Defense Strategy'' which stresses compatibility with NATO. The Army 
plans to pare down to a rapid reaction Brigade and six mechanized 
Brigades linked with modern command and control. Air Force reductions 
in older aircraft and equipment will permit measured aircraft and air 
defense acquisitions while freeing up additional funding for readiness 
and additional pilot training.
    The Hungarian Defense Force (HDF) is working to complete the 
reorganization it began in 1995. Lack of funding and political 
inattention after 1989, initially left the HDF in marginal condition as 
it struggled with an increasingly unbalanced personnel system, aging 
equipment and reduced training opportunities. Hungary remained active 
internationally through participation in several successful 
peacekeeping endeavors. Hungarian interoperability with NATO 
substantially improved after 1994 with the advent of PfP.
    The HDF is reducing to two divisions, with two independent brigades 
and a light infantry battalion designated for rapid reaction. Its Air 
Force is retiring its older aircraft and equipment, allowing it to 
better maintain its modern MIG-29s and increase pilot training hours. 
While the bulk of Hungarian C2 is antiquated and not NATO 
interoperable, the report notes that Hungary is placing heavy emphasis 
on this issue through modernization.
    Similarly, the Polish military developed a fifteen year 
restructuring and modernization program. They seek to develop a 
smaller, but more capable force structure with an emphasis on well-
equipped mobile forces. While the Navy plans to retain its current 
size, both the Polish Army and Air Force will significantly downsize. 
The Army will completely restructure into a leaner, more deployable 
force centered around three Corps, while the Air Force will focus on 
improving readiness by increasing the flying hours of its pilots to get 
them closer to NATO standards. Poland is also modernizing its C2 
capabilities, which currently are not up to NATO standards. Logistics, 
especially those assets dedicated to units deploying out of Poland, are 
being gradually upgraded, while a high priority is being placed on 
reception facilities. Modernization of its air defense force is a 
priority, though for now, Poland prudently has avoided the high cost of 
complex tactical ballistic missile defenses.
    To summarize, the NATO assessment states that the invitees face 
challenges in restructuring their militaries; however, the assessment 
also identifies those challenges and the efforts required by the 
invitees to correct their deficiencies. It describes the substantial 
and pragmatic efforts underway in the three new member countries to 
attain real NATO interoperability. Initial efforts focus on 
communications and language interoperability, followed closely by 
restructuring their forces and improving air defenses, air space 
management, logistics and receiving facilities, training and readiness 
and equipment modernization.
    The improvements will take time. Full interoperability will not 
come overnight; however, the NATO assessment confirms that the Czech 
Republic, Hungary, and Poland are on their way to becoming important 
contributing members of the NATO Alliance.

                              NATO-Russia

    Finally, it is important I address a concern sometimes voiced 
regarding NATO enlargement and Russia. Some critics state that NATO 
enlargement would cause significant problems with the NATO-Russia 
relationship. Actions to date prove this has not been the case. Since 
the signing of the Founding Act in May 1997, we have seen increased 
military-to-military cooperation between the Alliance and Russia.
    For example, Russia recently assigned LTG Zavarzin as their 
Military Representative to NATO HQs in Brussels. LTG Zavarzin now works 
through NATO's new Permanent Joint Council of Military Representatives 
to enhance practical NATO-Russia military cooperation. The Russians 
also presented NATO with their Partnership for Peace Individual 
Partnership Program. Russia is working closely with NATO to establish 
military liaison missions at SHAPE and NATO HQs and NATO is working to 
establish a military liaison mission in Moscow. Finally, General 
Anatoly Kvashnin, Chief of the General Staff of the Russian Armed 
Forces, recently visited NATO HQs and addressed the Military Committee 
on Russian military reform. These significant events indicate that the 
NATO-Russia military relationship is moving forward in a positive 
direction.

                               Conclusion

    I believe the choice before us is clear. If we are to avoid the 
tragedies of this century in the next one, then we must embrace the 
lessons we have learned at such great cost to achieve the peace we owe 
to our children and their children. One of those lessons is that peace 
is based on closer ties, politically, economically, and militarily with 
our European allies--and NATO Enlargement serves those ends very well.
    NATO stands as a unifying force for peace and stability. The 
Alliance provided the secure environment in which European nations, 
devastated by World War II, could rebuild their economies, bring 
prosperity to their peoples, and allow political and economic 
integration to grow.
    Nearly 500,000 US military members died in two terrible wars in 
Europe this century. Every town in America has family members buried in 
European and American graves due to these European wars.
    These wars erupted in Central and Eastern Europe, precisely where 
NATO intends to enlarge. The nations in these regions were 
geographically, politically and ethnically unstable, and were caught 
outside any functional security umbrella beyond ``balance of power'' 
agreements. Now, NATO enlargement will help bring stability and 
security to this part of Europe, conclusively affirming that NATO 
members have learned from the region's history.
    That is why NATO's enlargement is in the US national interest, why 
US security remains linked to Europe, and why enlargement benefits all 
European nations.

                               __________

 Responses to Additional Questions Submitted for the Record to General 
                                Shelton

                  Questions Submitted by Senator Biden

    Question 1. Are our current NATO allies willing to dedicate the 
resources necessary to fulfill their obligation as NATO members? How 
will NATO enlargement affect the commitments of the US and its allies?

    Answer. Clearly, NATO enlargement will bring about new 
responsibilities that must be shared among current and new allies. At 
the Madrid Summit, the allies agreed that there will be costs, they 
will be manageable, and that the resources necessary to meet those 
costs will be provided.
    The Alliance has taken two more opportunities to reaffirm its 
commitment to provide the resources necessary to support enlargement. 
At the meeting of all NATO defense ministers in early December they 
agreed, ``[c]osts associated with the accession of the three invitees 
will be manageable, and that the resources necessary to meet these 
costs will be provided in accordance with our general procedures under 
which each Ally bears its fair share.'' Shortly thereafter, the foreign 
ministers met and reaffirmed the Alliance's support for this principle.
    The Europeans have stated a willingness to meet the financial 
requirements of enlarging. In October of last year, George Robertson, 
the British Minister of Defense, wrote an Op-Ed piece that was printed 
in the Washington Times. He had this to say about European 
burdensharing as it pertains to enlargement, ``(I)f additional spending 
is required, Britain will pay its share. We contribute nearly one-sixth 
of NATO's common budget and the European allies some 70 percent of the 
total. These shares will apply equally to the costs of enlargement.''
    In November of last year, the German Foreign Minister, Klaus 
Kinkel, wrote an Op-Ed piece which appeared in the Washington Post. In 
it he said, ``It goes without saying that Europe and Germany, like the 
United States must bear their fair share of the costs of NATO 
enlargement.'' Most recently, on 9 February, German Foreign Minister 
Volker Ruehe, in a Los Angeles Times Op-Ed piece, reiterated that while 
NATO enlargement entailed costs, ``there will be no free ride. . . . 
Our American friends can rest assured that their European allies are 
assuming and will continue to assume their fair share of the common 
bill and burden''.
    The European Alliance partners are already financing roughly 75 
percent of the joint NATO budgets and making available 95 percent of 
NATO forces in Europe. This European contribution to the Alliance will 
not drop with the admission of new members but will further increase.
    While it is true that both the US and our NATO allies have made big 
cuts in our defense budgets since the end of the Cold War, most of our 
NATO allies still make significant contributions to the common defense. 
For example, more than two-thirds of the troops currently participating 
in SFOR are non-US forces.
    For some time the US has pressed the allies to do more to improve 
their capability for mobile, flexible operations which NATO will 
undertake in the future. They have responded with specific 
improvements, and are committed to more. For example, Britain provides 
NATO's only rapidly deployable corps headquarters committed to NATO and 
British forces are the backbone of the Allied Command Europe (ACE) 
Rapid Reaction Corps (ARRC). Additionally, the British aircraft carrier 
HMS Invincible recently deployed to the Gulf in support of the latest 
military buildup there.
    France, in general, is restructuring its armed forces to be more 
mobile and easily deployable. The French are establishing a Rapid 
Action Force (FAR) designed for rapid response in both European and 
overseas contingencies. France also participated heavily in IFOR 
efforts to implement the Dayton peace accords in Bosnia and 
Herzegovina. With nearly 10,000 troops, France was the third largest 
troop contributor, after the US and Britain, was responsible for one of 
the three geographic sectors--and continues to be in SFOR.
    Likewise, Germany is standing up a Rapid Reaction Force of some 
53,000 fully-equipped troops from the Army, Navy and Air Force. The 
first units stood up in 1996 and the force will be fully capable in 
1998. In general, German armed forces are in the process of re-creating 
themselves into a mobile, deployable--rather than static home defense--
force.
    The smaller European nations are also improving their forces. For 
example, the Royal Netherlands Navy and Air Force have improved both 
their transport and air defense capabilities with new procurements such 
as: two KDC-10 transport/tankers (the Dutch can now deploy their own F-
16s without reliance on the US); an amphibious-lift ship to make the 
marine brigade self-deployable; and upgrades to their F-16 fleet and 
their Patriot systems.
    As for the impact of enlargement on US commitments, in my mind, the 
net result of enhanced stability will add, not detract from our 
readiness posture. My top priority as Chairman of the Joint Chiefs of 
Staff is to preserve our military readiness and I'll do everything in 
my power to ensure that nothing we do regarding NATO enlargement 
negatively impacts on readiness. I see nothing in the NATO enlargement 
concept that will detract from our overall readiness. To the contrary, 
the addition of over 200,000 troops and the military equipment and 
capabilities that the three new countries bring to the Alliance can 
only reduce the demands on current members.
    Our response to the crisis in the Gulf reflects successes in 
maintaining a ready military force. The priority we give to deployed 
and ``first to fight'' forces enables us to surge in response to 
threats to US national security. There are some readiness challenges 
that we have to deal with, and we are closely monitoring our low 
density/high demand units, our spare parts inventory, and our personnel 
tempo and operational tempo to ensure that short term situations do not 
become long-term problems. Clearly, we have finite resources to support 
our global security responsibilities. If we are not compensated for the 
additional, unprogrammed costs of such deployments, readiness and 
modernization will suffer in the long run.

    Question 2. What are some of the initiatives you hope to work on in 
the PJC Military Committee as part of your military-to-military efforts 
in that new body?

    Answer. The highest priority initiative in the NATO-Russia 
military-to-military relationship is reaching agreement on a plan for 
establishment of the first of the reciprocal Military Liaison Missions 
(MLMs) provided for in the Founding Act. We will soon begin 
negotiations with Russia on a document that will serve as the Terms of 
Reference to establish Russian Military Liaison Missions at NATO, SHAPE 
and SACLANT HQs. NATO will establish a Military Liaison Mission in 
Moscow. The daily contact between NATO and Russian military officers 
will go a long way to increase transparency and openness required to 
breakdown ``Cold War'' stereotypes.
    An important US objective is to deepen Russia's participation in 
Partnership for Peace (PFP) as a priority item for the coming months. 
Russia recently submitted her Individual Partnership Program to NATO. 
Since the signing of the Founding Act Russia has indicated an increased 
interest to participate in PfP. We hope to have Russia host a PfP 
exercise on Russian soil sometime in the future. PfP will offer many 
opportunities for NATO and Russian, and other PfP member militaries to 
work side by side to build a solid military relationship.
    Finally, the key areas for cooperation and consultation to be 
worked in Permanent Joint Council Military Representatives (PJC-MR) in 
the future are: conflict prevention; peacekeeping operations, on a 
case-by-case basis; arms control issues; nuclear safety issues; 
prevention of the proliferation of NBC weapons; possible cooperation in 
Theater Missile Defense; air traffic safety; air defense matters; 
combating terrorism and drug trafficking.

                Questions Submitted by Senator Feingold

    Question 1. Some have argued that the new military commitments that 
the United States will incur under an enlarged NATO, coupled with our 
extensive involvement in Bosnia, will impact negatively on our general 
military readiness, particularly in light of the recent deployments to 
the Persian Gulf. Please comment on this assertion. How would your 
response change if NATO were to enlarge beyond the first round?

    Answer. My top priority as Chairman of the Joint Chiefs of Staff is 
to preserve our military readiness, and I'll do everything in my power 
to ensure that nothing we do regarding NATO enlargement negatively 
impacts on readiness. I see nothing in the NATO enlargement concept 
that will detract from our overall readiness. To the contrary, the 
additional troops, military equipment and capabilities that the three 
new countries bring to the Alliance can only reduce the demands on 
current members.
    Our response to the crisis in the Gulf reflects successes in 
maintaining a ready military force. The priority we give to deployed 
and ``first to fight'' forces enables us to surge in response to 
threats to US national security. There are some readiness challenges 
that we have to deal with, and we are closely monitoring our low 
density/high demand units, our spare parts inventory, and our personnel 
tempo and operational tempo to ensure that short term situations do not 
become long term problems. Clearly, we have finite resources to support 
our global security responsibilities. If we are not compensated for the 
additional, unprogrammed costs of such deployments, readiness and 
modernization will suffer in the long run.
    Should NATO expand beyond the first round, my answer remains that 
the benefits of enlargement outweigh the costs.

    Question 2. How will NATO distribute financial and military 
responsibilities among the member states following enlargement?

    Answer. The distribution of costs will be in accordance with 
standard NATO financial principles that determine cost shares of NATO's 
common funded accounts based on national GDP as well as other factors. 
The US share is about 25%. The European share will be about 75%, with a 
combined contribution of the three prospective new members of about 4% 
to NATO's common funded budgets. At accession, NATO is likely to make 
minor adjustments to some national cost shares to rebalance them among 
nineteen, rather than sixteen NATO allies.
    The military responsibilities will also be determined through 
standard NATO procedures. As part of NATO's defense planning process, 
the sharing of roles and responsibilities and recognition of mutual 
commitments are key principles. In determining the size and nature of 
their contribution to the collective defense, each member nation must 
take into account the overall needs of the Alliance. They follow agreed 
defense planning procedures which provide the methodology for 
determining the required forces to implement the Alliance policies and 
defense plans. The planning process takes many quantitative and 
qualitative factors into account, ensuring all relevant considerations 
are jointly examined to enable the best use to be made of national 
assets.

    Question 3. Do Poland, Hungary, and the Czech Republic have the 
military capacity to assume their responsibilities? Are these three 
countries prepared to assume the costs involved in modernizing their 
forces to meet NATO standards?

    Answer. As seen in Bosnia and in numerous PfP exercises, these new 
members have demonstrated that they can operate with current NATO 
forces, and that they bring strengths and areas of military expertise 
that are of significant benefit to the Alliance. I can state with 
confidence that the new nations will strengthen NATO's security. Though 
each new member must improve in key areas like interoperability, 
operational readiness, force structure, and modernization, all three 
are on the way.
    For example, Poland has the largest and most capable military in 
Central and Eastern Europe and brings 24 years of peacekeeping 
experience to NATO's efforts in Bosnia. Since 1974, Poland has 
participated in more peacekeeping operations than any former Warsaw 
Pact country, and it currently has more personnel in UN peacekeeping, 
military observer and civilian police missions than any other country. 
These deployments, each a multinational operation, have enabled Polish 
troops to gain valuable experience which greatly enhances their 
interoperability with NATO partners.
    Poland currently has an airborne infantry battalion in the US 
sector in Bosnia, a logistics battalion in the Golan Heights (UNDOF), 
an infantry battalion and military hospital (632 troops) in Lebanon 
(UNIFIL), and small contingents in Eastern Slavonia (UNTAES), as well 
as troops supporting eight other UN observer missions. In 1989, they 
established a military training center for UN operations in 
southeastern Poland.
    In 1992, the Poles deployed an infantry battalion with UN forces in 
Croatia. Since then, Poland has shown an increased willingness to 
provide combat forces in support of peacekeeping, as reflected by their 
commitment to IFOR and SFOR in Bosnia. Poland is currently working to 
establish joint peacekeeping battalions with Ukraine and Lithuania, and 
the Poles have contributed to UN efforts in Rwanda (UNIMIR), Georgia 
(UNOMIG), Tajikistan (UNMOT), Iraq/Kuwait (UNIKOM), the Western Sahara 
(MINURSO), and Cambodia (UNTAC).
    The Czech Republic currently has a mechanized battalion in Bosnia 
with SFOR, and prior to that it contributed a mechanized battalion to 
IFOR. The Czechs also deployed a decontamination unit to DESERT SHIELD/DESERT STORM and provided observers to UN observer missions in Croatia 
(UNTAES), the Prevlaka Peninsula (UNMOP), the Former Yugoslav Republic 
of Macedonia (UNPREDEP), Mozambique (UNOMOZ), Georgia (UNOMIG), and 
Liberia (UNOMIL).
    Hungary contributed an engineer battalion in support of IFOR and 
continues to provide the same support to SFOR. Hungary's support to 
NATO operations in Bosnia also included permission to use its airspace, 
airfields, and military facilities. Hungary demonstrated its ability to 
operate as part of the NATO team with every bridge that was built and 
every plane that landed and took off from its airfields. Over 95,000 US 
military personnel rotated in and out of IFOR and SFOR assignments 
through the Hungarian airbase at Taszar. Additionally, US armor 
units use Hungarian tank gunnery ranges prior to deploying to Bosnia 
and again upon re-deploying to maintain perishable war fighting skills.
    Past Hungarian peacekeeping contributions have included a 
contingent in Cyprus as part of an Austrian battalion assigned to 
UNFICYP; a contingent in the Sinai (MFO); and contributions in Iraq/Kuwait (UNIKOM), Angola (UNAVEM), Cambodia (UNTAC), Mozambique 
(UNOMOZ), Tajikistan (UNMOT), and Georgia (UNOMIG). Hungary may also 
provide forces to the UN Standby Forces High Readiness Brigade 
(SHIRBRIG).
    All three new member states supported Coalition Forces during 
Operation Desert Storm. Poland provided two medical ships while Hungary 
offered use of its airfields to assist in deployment and redeployment. 
Hungary also provided a small contingent of medical personnel to the 
region. The Czech Republic deployed several hundred chemical 
decontamination troops as part of the Coalition. And each of the newly 
invited members have voiced support for current US policy in the Gulf.
    The governments of Poland, Hungary and the Czech Republic have 
repeatedly affirmed their willingness to meet the financial 
responsibilities of NATO membership. They understand from their own 
experiences that freedom is not free.
    The costs of enlargement will be manageable for the new members. 
The three invitees and NATO have agreed to specific cost shares that 
will govern their contributions to NATO--together the three countries 
will contribute about 4% to NATO's common-funded budgets. Each of them 
have committed to sufficient funding in their defense budgets to pay 
for enlargement requirements. Some examples follow:
    The Czech government has approved plans to increase its 1998 
national defense spending to about $ 1.1 billion, which represents 
about 1.88% of projected GDP. The Czech Republic has stated its plans 
to link defense spending growth to the rate of GDP growth and to 
increase the percentage of GDP dedicated to defense by 0.1% annually 
for the next 3 years which will raise it from the current 1.7% in FY97 
to 2.0% in 2000.
    The Hungarians have increased their 1997 national defense budget to 
about $800 million, which represents about 1.8% of projected GDP. 
Hungary has stated that it plans to link defense spending growth to the 
rate of GDP growth and to increase the percentage of GDP dedicated to 
defense by 0.1 percent annually for the next five years. If so, 
Hungarian defense spending may increase in real terms by 3 to 8% 
annually during the next four years.
    Poland spent 2.3 percent of GDP on defense in 1996. Poland's 15 
year modernization plan calls for annual increases in defense spending 
which are pegged to the rate of GDP growth. Based on a conservative 
estimate of 4.2 percent annual economic growth, Polish defense spending 
should increase approximately 3.2 percent annually.
    Most importantly, the costs of joining NATO for the new members 
will certainly be less than what the three countries would have to 
spend if they did not join NATO and were solely responsible for their 
national security. With or without enlargement, these countries would 
still face modernization of their militaries. Without the security 
offered by NATO membership, the required spending would certainly be 
far greater.

    Question 4. What commitments have we received from current NATO 
members regarding their bearing some of the costs of enlargement?

    Answer. Clearly, NATO enlargement will bring about new 
responsibilities that must be shared among current and new allies. At 
the Madrid Summit, the allies agreed that there will be costs, they 
will be manageable, and that the resources necessary to meet those 
costs will be provided.
    The Alliance has taken two more opportunities to reaffirm its 
commitment to provide the resources necessary to support enlargement. 
At the meeting of all NATO defense ministers in early December they 
agreed, ``[c]osts associated with the accession of the three invitees 
will be manageable, and that the resources necessary to meet these 
costs will be provided in accordance with our general procedures under 
which each Ally bears its fair share.'' Shortly thereafter, the foreign 
ministers met and reaffirmed the Alliance's support for this principle.
    The Europeans have stated a willingness to meet the financial 
requirements of enlarging. In October of last year, George Robertson, 
the British Minister of Defense, wrote an Op-Ed piece that was printed 
in the Washington Times. He had this to say about European 
burdensharing as it pertains to enlargement, ``(I)f additional spending 
is required, Britain will pay its share. We contribute nearly one-sixth 
of NATO's common budget and the European allies some 70 percent of the 
total. These shares will apply equally to the costs of enlargement.''
    In November of last year, the German Foreign Minister, Klaus 
Kinkel, wrote an Op-Ed piece which appeared in the Washington Post. In 
it he said, ``It goes without saying that Europe and Germany, like the 
United States must bear their fair share of the costs of NATO 
enlargement.'' Most recently, on 9 February, German Foreign Minister 
Volker Ruehe, in a Los Angeles Times Op-Ed piece, reiterated that while 
NATO enlargement entailed costs, ``there will be no free ride. . . . 
Our American friends can rest assured that their European allies are 
assuming and will continue to assume their fair share of the common 
bill and burden''.
    The European Alliance partners are already financing roughly 75 
percent of the joint NATO budgets and making available 95 percent of 
NATO forces in Europe. This European contribution to the Alliance will 
not drop with the admission of new members but will further increase.''
    While it is true that both the US and our NATO allies have made big 
cuts in our defense budgets since the end of the Cold War, most of our 
NATO allies still make significant contributions to the common defense. 
For example, more than two-thirds of the troops currently participating 
in SFOR are non-US. forces.
    For some time the US has pressed the allies to do more to improve 
their capability for mobile, flexible operations which NATO will 
undertake in the future. They have responded with specific 
improvements, and are committed to more. For example, Britain provides 
NATO's only rapidly deployable corps headquarters committed to NATO and 
British forces are the backbone of the Allied Command Europe (ACE) 
Rapid Reaction Corps (ARRC). Additionally, the British aircraft carrier 
HMS Invincible recently deployed to the Gulf in support of the latest 
military buildup there.
    France, in general, is restructuring its armed forces to be more 
mobile and easily deployable. The French are establishing a Rapid 
Action Force (FAR) designed for rapid response in both European and 
overseas contingencies. France also participated heavily in IFOR 
efforts to implement the Dayton peace accords in Bosnia and 
Herzegovina. With nearly 10,000 troops, France was the third largest 
troop contributor, after the US and Britain, was responsible for one of 
the three geographic sectors--and continues to be in SFOR.
    Likewise, Germany is standing up a Rapid Reaction Force of some 
53,000 fully-equipped troops from the Army, Navy and Air Force. The 
first units stood up in 1996 and the force will be fully capable in 
1998. In general, German armed forces are in the process of re-creating 
themselves into a mobile, deployable--rather than static home defense 
force.
    The smaller European nations are also improving their forces. For 
example, the Royal Netherlands Navy and Air Force have improved both 
their transport and air defense capabilities with new procurements such 
as: two KDC-10 transport/tankers (the Dutch can now deploy their own F-
16s without reliance on the US); an amphibious-lift ship to make the 
marine brigade self-deployable; and upgrades to their F-16 fleet and 
their Patriot systems.
                               __________

           Joint Statement of Senator Lugar and Senator Roth

(Senator Lugar is joined in this statement by Senator William Roth, Jr. 
[Republican of Delaware], Chairman of the Senate Finance Committee and 
              Chairman of the Senate NATO Observer Group.)

    Recently, General Brent Scowcroft, Alton Frye and former Senators 
Howard Baker and Sam Nunn expressed their concerns about NATO's plans 
to extend membership to Poland, the Czech Republic, and Hungary. We 
disagree with their assessments and recommendations regarding how 
enlargement will affect NATO and the future of European security.
    First, there has been no ``rush'' to expand the Alliance. As early 
advocates of NATO enlargement, we are pleased that President Clinton 
endorsed the proposal in 1996. The revolutions restoring these 
countries independence took place in 1989; a decade will have passed 
before the countries join the Alliance and we reverse Stalin's 
artificial and forceful exclusion of these democracies from western 
institutions. In terms of Senate consideration, it is important to note 
that NATO enlargement has received more scrutiny in the form of 
hearings and consultations than did the Washington Treaty, the original 
document which created the Alliance. In fact, NATO enlargement has been 
endorsed by Congress each year since 1994.
    The argument to ``slow this train down'' out of fear that other 
nations might try to ``jump aboard'' ignores the deliberate and open 
course the U.S. and the Alliance have taken in enlargement. The 
question of enlargement must not be a blanket policy which ignores the 
qualifications of individual nations, but an Alliance assessment of 
each application based on three principles: (1) strategic interests; 
(2) per- ception of threats to security and stability; and (3) actions 
taken by prospective members to complete their democratic transitions 
and to harmonize their policies with NATO's political aims and security 
policies.
    NATO's ``open door'' entrance policy--which should not be 
misunderstood as an ``open-ended'' policy--has given countries of 
Central and Eastern Europe the incentive to accelerate reforms, 
peacefully settle disputes with neighbors, and increase regional 
cooperation. To repudiate the ``open-door'' policy, as advocated by 
some, would risk undermining the tremendous gains in democracy, market 
reform and reconciliation that has swept across the region in the last 
decade. The result of a ``closed-door'' policy could be new dividing 
lines across Europe, with those on the outside feeling disillusioned 
and insecure and thus prone to adopting the competitive and 
destabilizing security policies of Europe's past.
    Some propose that NATO enlargement be tied to the expansion of the 
European Union (EU). EU enlargement is highly desirable on its own 
merits, but using it as a kind of gateway for NATO aspirants would 
subordinate the ``cornerstone'' of trans-Atlantic security to a 
primarily economic institution to which the U.S. doesn't belong. It 
would bind the freedom and flexibility of a transatlantic Alliance led 
by the U.S. to the actions of a strictly European institution. 
Transferring decision-making power to an enterprise which has been 
unable to develop a common security policy and which failed to stop the 
fighting in the former Yugoslavia would not bode well for the future of 
European security. The EU decision-making process is notorious for 
being cumbersome, slow, and expressing the lowest common denominator. 
All of these traits are antithetical to the demands of a military 
alliance which places a premium on timely, decisive action.
    Finally, conditioning NATO membership on EU membership would 
relegate some NATO allies to second-class status. The role of the U.S., 
Canada, and Turkey, none of whom are members of the EU, would be 
significantly diminished in the enlargement process. This could very 
quickly lead to a division within the Alliance.
    Critics assert that NATO enlargement repeats the mistake of the 
Versailles Treaty by mistreating a former adversary, Russia. We 
disagree that NATO enlargement constitutes a punishment or isolation of 
Russia. The argument ignores the open and inclusive manner in which 
NATO has approached Russia. NATO has extended the hand of partnership 
through the NATO-Russia Founding Act and today Russian troops serve 
with NATO forces in Bosnia. finally, unlike the punishing economic 
retribution carried out under the Versailles regime, the West has 
extended some $100 billion since 1991 to help Russia's democratic and 
economic reforms and over $2 billion in weapon dismantlement and 
security assistance.
    Others suggest that Russian antagonism is ``sure to grow as NATO 
enlarges.'' The United States and its NATO allies have both common and 
divergent interests with Russia, whether NATO enlarges or not. 
Differences over Iraq, Iran, the Caucasus, arms sales, and religious 
freedom are not due to, nor dependent upon, NATO enlargement. It is a 
mistake to view Russia as an essentially reactive power and to blame 
its actions solely on NATO enlargement or other Western behavior. Many 
reject NATO enlargement out of a desire to preserve Russia's sphere of 
influence. If Russia cannot accept the legitimate right of its 
neighbors to choose their security arrangements, then NATO's role in 
Central and Eastern Europe is even more important.
    The accession of Poland, the Czech Republic, and Hungary to NATO 
will strengthen the Alliance, eliminate de-stabilizing and immoral 
dividing lines, and thereby consolidate peace and stability in Europe. 
A stable and peaceful Europe will benefit the United States and all of 
Europe, including Russia.

                               __________

                  Prepared Statement of Senator Biden

    I am squarely in support of enlargement. The question is not 
whether to expand NATO or maintain the status quo. In light of the 
dynamic change in Europe it is essential for NATO to adjust or risk 
losing its viability and purpose.
    The primary purpose and benefit of NATO since its inception has 
been stability in Europe. This continues to be its function. History 
shows that when there is a vacuum in Central and Eastern Europe, 
countries are forced to pursue their own individual security 
arrangements.
    The prospect of enlargement has already had a positive impact on 
stability, stimulating internal reforms in Hungary, Poland and the 
Czech Republic and encouraging them to resolve historic disputes with 
their neighbors.
    History also shows that when the United States withdraws from the 
security debate in Europe, we pay a price. We are a European power. For 
some to suggest that potential new members gain admission to the 
European Union before entry into NATO would put the future of Europe in 
the hands of organizations to which the United States does not belong.
    Those who vote for this resolution should be clear about the costs. 
The most recent estimate of direct costs to the United States is $40 
million a year over ten years. This reflects a realistic assessment of 
the condition of infrastructure in Poland, Hungary and the Czech 
Republic, and of the threats facing the NATO alliance. It also reflects 
an equitable sharing of the burden among the members of NATO.
    Many have raised the possibility that enlargement would damage our 
relations with Russia. I believe that stability in Central and Eastern 
Europe will enhance Russia's security. Yet I don't dismiss the concerns 
that have been raised by some of my colleagues. That's why I strongly 
backed the NATO-Russia Founding Act. This accord has created 
transparency in NATO for Russia and demonstrated that our purpose is 
not to isolate Russia from the West.
    I don't believe current differences with Russia, such as its 
failure to ratify START II or its stance on Iraq, are based on a 
reaction to NATO enlargement. From my discussions with Russian leaders 
I don't believe any of them see NATO enlargement as a military threat.
    Russia is going through dynamic change, which while painful for the 
Russian people, will result in its eventual evolution into a more 
democratic and market driven society. Opponents and proponents of NATO 
enlargement agree that we should do everything we can to increase the 
prospects for positive change in Russia. We should continue to 
implement the Nunn-Lugar program. Where possible, we should increase 
our multilateral assistance and interaction with Russia in a broad 
range of areas as long as they continue to implement free market 
reforms.
    There should not be a timetable for an invitation to other 
countries to join NATO, nor should there be a mandated pause in the 
consideration of future candidates. We should not set deadlines or draw 
new lines for the future.
    NATO enlargement is a historic opportunity for the United States. 
The situation in Europe, Russia and neighboring countries is dynamic. 
Voting to enlarge NATO now sets a positive course, expanding the zone 
of stability eastward to give those dynamic forces of positive change a 
chance to take hold and bear fruit for the future.

                               __________

                 Prepared Statement of Senator Feingold

    Mr. Chairman, I would like to thank you for holding this hearing 
today on the Protocols to the North Atlantic Treaty on Accession of 
Poland, Hungary, and the Czech Republic, and for holding the series of 
hearings on this important issue last year. I also want to take this 
opportunity to thank Secretary Albright, Secretary Cohen, and General 
Shelton for appearing before this committee today and for their 
countless hours of work on NATO enlargement and for their commitment to 
its success.
    Today, this committee will consider the protocols to include 
Poland, Hungary, and the Czech Republic in the North Atlantic Treaty 
Organization (NATO) As we all know, NATO has been one of the most 
important factors in maintaining peace in Europe since the devastation 
of World War II. As we prepare to mark the alliance's 50th anniversary 
next year, it is appropriate to look back on its successes and also 
look forward to see what role NATO will play in the next 50 years. The 
world will be a much different place in 1999 than it was in 1949 when 
this alliance was formed as a buffer against Soviet aggressions and as 
a means of protection for nations whose peoples had just emerged from 
one of the costliest wars--in both human and financial terms--in our 
history.
    Today, nearly a half a century later, the Iron Curtain has fallen 
and the Soviet regime is no more. The changing face of Europe is marked 
by newly-independent countries eagerly embracing democracy for the 
first time in more than two generations. But the people of these former 
Soviet satellite countries are still live in the shadow of the history 
of Soviet domination. These nations and their people seek to rejoin the 
West, and seek a means to ensure that they will never again fall victim 
to a Soviet-style regime.
    These nations, which have become our friends and trading partners, 
are caught, both literally and figuratively, between the new, 
democratic Russia and the West. This is a critical time for the newly-
independent states of Eastern Europe as they seek to establish 
themselves as countries in their own right, finally free of the yoke of 
Soviet domination.
    Many of my constituents, and indeed many people around the world, 
have a special interest in this debate due to their ethnic heritage or 
their memories of the iron fist of Soviet rule which the people of 
Eastern Europe were forced to endure for so long. I share their 
commitment to a Europe in which these countries will never again fall 
victim to such oppression.
     It is only natural that these Eastern European countries would 
seek to join NATO, an alliance which shines as a beacon of democracy 
and security on the European continent. The proposed enlargement of 
this alliance represents a crossroads in American foreign policy, and, 
indeed in the fragile balance of power in Europe. Some opposed to 
enlarging this alliance have said that it would create a new series of 
dividing lines in Europe, between NATO, Russia, and those countries 
which are caught in the middle--neither members of NATO nor under the 
sphere of Russian influence. Others have argued that all countries 
meeting the criteria for membership in NATO should be allowed to join. 
Opponents fear that this would lead to a different dividing line--one 
between Russia and the rest of Europe.
    The proposed enlargement embodied in the protocols we are 
considering today leads to many questions: How many countries? How many 
rounds of enlargement? What about Russia? What about those that may be 
left out? It is my view that the newly-independent countries in Europe 
should not be forever caught between Russia and the West. It is also my 
strong view that the United States must proceed carefully so that we do 
not damage our relationship with a democratic Russia. Unfortunately, 
parts of the debate over NATO enlargement have taken on an ``us versus 
them'' quality. We must not forget that the Russian Federation is not 
the Soviet Union, and that we should encourage democracy wherever it 
takes root. Instead of the ``us versus them'' of the Cold War era, this 
debate should be about the new landscape of Europe. We must not make 
Russia feel as if it is being ganged up on by the West. We must 
encourage democracy there as we do elsewhere on the globe, and we must 
encourage the newly-independent states to take control of their own 
futures. That is why the Administration helped to successfully 
negotiate the NATO-Russia Founding Act.
    I am supportive of the fundamental goals of NATO enlargement. 
However, I do have some concerns, that I know are shared by many other 
Members of Congress, about the commitment--financial and otherwise--the 
United States will undertake as it pursues enlargement of the alliance.
    On that point, Mr. Chairman, I would like to speak for a moment on 
one of my concerns about this debate: the disparity among the various 
estimates on the financial commitment the United States would be 
undertaking if NATO enlargement were to proceed. There have been at 
least three major studies conducted on this subject, each of which has 
taken a different approach with respect to the basis for their 
estimates. While I understand that it is impossible to account for all 
of the different variables that will be included in this endeavor, each 
study assumes a different set of costs, and thus reaches very different 
cost projections for the U.S. share of this undertaking--anywhere from 
$2 billion to $7 billion.
    The American taxpayer is being asked to bear up to $7 billion to 
enlarge a military alliance which has no discernable enemy, and none 
looms on the horizon. Since the end of the Cold War, there has been no 
clear threat against the NATO alliance--and there still is not--yet the 
United States may have to spend up to $7 billion to enlarge it. With 
the passage of a balanced-budget plan last year, the United States is 
finally on the road to getting its financial house in order. I am 
concerned about the implications that the unknown cost of enlarging 
NATO will have on our efforts to get to--and to maintain--a balanced 
federal budget.
    The myriad cost estimates involved in this first round of NATO 
enlargement also leads me to wonder if we will have a clearer picture 
of the cost of future rounds, or if we will be faced with the same 
financial uncertainties that loom before us today. There are also 
concerns about the impact of new U.S. commitments to NATO on America's 
general military readiness.
    Nevertheless, as I stated earlier, I share the Administration's 
basic views on the nature of enlarging this alliance. The people of 
Eastern Europe must never again be subject to the conditions they were 
force to endure under Soviet rule. They see NATO membership as a means 
to ensure their future safety. My concern is about the extent of the 
commitment the United States will be making, and the uncertainty 
regarding the price tag that American taxpayers will be asked to pay in 
this time of fiscal restraint and personal sacrifice. Should the Senate 
ratify the protocols we are considering today, I will continue to 
monitor the new U.S. commitments to NATO--financial and otherwise--
through the regular congressional budget and appropriations process.
    I welcome the debate that the full Senate is about to undertake on 
this important issue, and look forward to the testimony of the 
witnesses that have joined us today.
    Thank you, Mr. Chairman.

                               __________

                  Prepared Statement of Senator Grams

    Madame Secretary, it was fitting that you were the lead witness as 
our series of hearings commenced, and that you are once again before 
this Committee as these hearings come to a close. I am sure that you 
agree that these hearings have provided an excellent forum to explore 
the benefits of expanding NATO to include Poland, Hungary, and the 
Czech Republic. They also have brought to the forefront of debate 
certain concerns which I believe should be addressed in the Resolution 
of Ratification.
    I started this process as a strong supporter of NATO expansion, and 
I remain committed to securing that achievement. However, the Senate 
does not just have the responsibility to determine whether Poland, 
Hungary and the Czech Republic should be admitted to NATO, but also to 
shape what kind of organization they would be joining.
    For nearly fifty years, NATO has been a successful military 
alliance with a clearly defined mission: protecting the territorial 
integrity of its members, defending them from external aggression and 
preventing the domination of Europe by any single power. I look forward 
to ensuring that NATO's mission will remain intact.
    Poland, the Czech Republic and Hungary are eager to join NATO to 
guarantee their territorial integrity, not to participate in a nation-
building exercise. It is imperative to make sure that NATO expansion 
does not result in a dilution of NATO's mission, and that prospective 
members receive the same strong security guarantee that NATO members 
have traditionally enjoyed.
    Critics of NATO expansion often argue that the inclusion of Poland, 
Hungary, and the Czech Republic in NATO will destabilize Russia and 
threaten its evolution into a democratic state. I do not believe that 
will be the case.
    I have no doubt that Russia, if given the choice, would like to 
maintain a ``sphere of influence'' in Central Europe, or barring that, 
a buffer zone. But this is 1998, not 1948, and Poland, Hungary, and the 
Czech Republic have the right and the ability to reject the former, and 
the United States has a vital interest in denying the latter. As Dr. 
Kissinger noted, ``basing European and Atlantic security on a no man's 
land between Germany and Russia runs counter to historical 
experience.'' A greater security dilemma would be created by ceding to 
Russian demands than proceeding with enlargement.
    The potential problems arising from the Administration's plan to 
expand NATO are far more likely to be caused by Russia's inclusion in 
NATO decision making, not Russia's exclusion. The Senate must make sure 
that Russia will not have a role in certain NATO deliberations, such as 
the future expansion of the alliance, arms control issues, procurement 
policy and strategic doctrine. We need to reject Russian attempts to 
link NATO expansion to US concessions in arms control negotiations and 
limitations on the number of troops or type of weapons systems on the 
territory of the new members.
    Furthermore, we need to make sure that there is a clear, equitable 
distribution of the costs of expansion. American taxpayers should not 
have to pay the costs of modernizing the forces of our current allies, 
because they have failed to live up to their previous commitments. Nor 
should our taxpayers pay more if any of our European allies refuse to 
pay their fair share.
    I believe that all of these concerns can be addressed in the 
Resolution of Ratification. NATO is an alliance, not a collective 
security arrangement. I am convinced that a NATO which includes Poland, 
Hungary, and the Czech Republic will be a stronger, more viable 
institution as long as NATO retains its essential character throughout 
this transition.

                               <greek-d>

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
